<html>
<title> - REVIEW OF THE USE OF COMMITTEE FUNDS OF THE 112TH CONGRESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






       REVIEW OF THE USE OF COMMITTEE FUNDS OF THE 112TH CONGRESS

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

               Held in Washington, DC, November 30, 2011

                               __________

      Printed for the use of the Committee on House Administration





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Available on the Internet:
                             www.fdsys.gov












                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-284                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
















                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida

                           Professional Staff

             Philip Kiko, Staff Director & General Counsel
                  Jamie Fleet, Minority Staff Director

 
       REVIEW OF THE USE OF COMMITTEE FUNDS OF THE 112TH CONGRESS

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2011

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:45 a.m., in room 
1310, Longworth House Office Building, Hon. Daniel E. Lungren 
(chairman of the committee) presiding.
    Present: Representatives, Lungren, Harper, Gingrey, Schock, 
Nugent, Rokita, Brady, Lofgren, and Gonzalez.
    Staff Present: Phil Kiko, Staff Director & General Counsel; 
Peter Schalestock, Deputy General Counsel; Kimani Little, 
Parliamentarian; Joe Wallace, Legislative Clerk; Yael Barash, 
Assistant Legislative Clerk; Salley Wood, Communications 
Director; Linda Ulrich, Director of Oversight; Dominic 
Storelli, Oversight Staff; Bob Sensenbrenner, Elections 
Counsel; Karin Moore, Elections Counsel; George Hadjiski, 
Director of Member Services; Richard Cappetto, Professional 
Staff; Jamie Fleet, Minority Staff Director; Kyle Andersen, 
Minority Press Secretary; Matt Defreitas, Minority Professional 
Staff; Khalil Abboud, Minority Elections Staff; Thomas Hicks, 
Minority Elections Counsel; Mike Harrison, Minority 
Professional Staff; and Greg Abbott, Minority Professional 
Staff.
    The Chairman. I now call to order the Committee on House 
Administration for today's hearing on the use of committee 
funds during the 112th Congress. The hearing record will remain 
open for 5 legislative days so that members may submit any 
materials they may wish to be included therein. A quorum is 
present, so we may proceed.
    As we all know, we are in the midst of difficult economic 
times, a $15 trillion debt and a trillion dollar annual deficit 
are incomprehensible, yet as we know, they are facts. The 
financial realities facing this country are dire and demand 
drastic restrictions in Federal spending.
    And as stewards of taxpayers' dollars, not only should we 
rein in government spending, we should lead by example. So we, 
too, must do more with less. That is why, in January, the House 
adopted a resolution reducing member and committee budgets by 5 
percent. And why the House moved again in July to further 
reduce legislative branch spending by an additional 6.4 percent 
in fiscal year 2012.
    As the chairman of House Administration, I fully understand 
the practical impact these reductions have on committee 
operations. And as a Representative of California's Third 
Congressional District, where many families are faced with 
economic hardships, I appreciate every committee's willingness 
to find greater efficiencies and do more with less.
    Today we look forward to hearing from all of our chairs and 
ranking members. These are very important discussions for us to 
have. Mr. Brady, my fellow committee members and I are strongly 
interested in hearing how committees were able to manage their 
reduced funds this past year; how they plan to continue 
operating and conducting effective oversight and continue tight 
budget circumstances; and how they adhered to a fair allocation 
of committee resources.
    I want to thank all the chairs and ranking members who will 
testify here today. As I said this past March at our first 
committee funding hearing, I cannot stress enough the 
importance of their work. The executive branch is, as we all 
know, enormous. Our Federal Government is much too large, often 
at the expense of our States, our communities and our 
intermediary institutions. By comparison, our resources here in 
Congress are minimal. Thus, we often fight an uphill battle 
trying to conduct effective oversight for the American people, 
trying to ensure the responsible use of their taxpayer dollars.
    Nevertheless, Congress and our committees have trimmed 
budgets and expenditures, and we have sought to find ways to do 
more with less while carrying out our essential constitutional 
duties. And I thank all of the members and the committees for 
their service.
    I would like now to recognize my colleague and the 
committee's ranking member, Mr. Brady, for the purpose of 
providing any opening statement he wishes.
    Mr. Brady. Thank you, Mr. Chairman.
    And thank you for having these hearings today. It is always 
a pleasure to see and hear from our chairman and ranking 
members of all the other committees, to say hello and find out 
how they are doing, review what they have been up to this 
session and what they are going to be doing in the next 
session.
    These oversight hearings are always important, but 
especially so this year to examine the effects of the previous 
cuts and hopefully not have to consider, but I am sure we need 
to consider, additional reductions for 2012.
    As the ranking member, my top concern is the fair treatment 
of the minority on each committee. I am fortunate to have a 
strong relationship with my chairman. And when I was chairman 
during the two preceding Congresses, I saw no reason to 
interfere with the minority's control of the one-third of the 
budget, and Chairman Lungren has extended me that same 
courtesy, and I do appreciate that.
    I just hope that each committee has fairly applied the one-
third rule. Where conflicts have arisen, I believe this 
committee will be able to help resolve them.
    So I thank you for appearing with us. We are going to have 
a long day, but it is always a fun day. I reflect back to the 
days when we have long hearings because we had chairmen and 
ranking members here asking for more money that we had when we 
had it. Unfortunately, these have become very short hearings, 
because they all know that we don't have any resources to give 
out, and they are probably trying to hold on to what they have, 
and hopefully, it doesn't get any less.
    So, again, Mr. Lungren, thank you.
    And I look forward to hearing from our chairmen and our 
ranking members. Thank you.
    The Chairman. I thank the ranking member, and I would 
reiterate the spirit of cooperation that he spoke and is a mark 
of this committee. And I appreciated his cooperative spirit 
when he was chairman. And I hope I have extended the same sort 
of cooperation as I have acted as chairman.
    The committee now welcomes Chairman Ryan and Ranking Member 
Van Hollen on the Committee of the Budget.
    And, gentlemen, we would love to hear from you how you 
budgeteers are taking care of your budget as an example for the 
rest of us.

 STATEMENT OF THE HON. PAUL RYAN, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF WISCONSIN, CHAIRMAN, COMMITTEE ON THE BUDGET

    Mr. Ryan. Well, thank you very much.
    Chairman Lungren, Ranking Member Brady. We have the same 
tradition of collegiality in the Budget Committee as you do 
here in House Administration.
    And onto the chairman's point, the Budget Committee has 
requested a flat budget for the past 8 years. And we have kept 
spending within the levels approved by this committee. In 
addition, regardless of which party has been in the minority or 
in the majority, we have always had the kind of collegial 
relationship of which you are discussing. We have gotten along 
very well. I got along extremely well with Mr. Spratt, Mr. Van 
Hollen's predecessor, on the two-thirds/one-third and we 
continue that relationship going forward. And I am determined 
to keep that going.
    You asked us to address two questions. With respect to the 
impact of this year's 5 percent cut, we have managed our 
operations to stay within that level. Our personnel costs are 
the largest part of our budget, as with most committees. We 
have had an extraordinary year with enormous demands on the 
committee's resources. We currently have some vacancies in our 
staff that we will need to fill, particularly before we go into 
next year's budget cycle. But we have avoided any adverse 
impact on the nonpersonnel portion of our budget, which is 
comprised mainly of administrative services, equipment and 
travel costs.
    An additional 6.4 percent reduction for the next year we 
will clearly present a more significant challenge for our 
committee. Under this scenario, it provides us with less 
possibility to meet our mission going forward, but it is 
manageable, and we will do so.
    It presents, I would argue, a greater challenge for the 
minority. At the beginning of this year when we moved into the 
majority, we transitioned to a much larger budget. Mr. Van 
Hollen had to go in the other direction and make large 
reductions to meet their smaller budget. That smaller budget 
has already been reduced by an additional 5 percent, and this 
would obviously be the third round of reductions for them on a 
very tight budget to begin with.
    While it is not part of our committee budget that you 
approve, the sound system in our hearing room is antiquated and 
expensive to maintain. In addition to the committee's business, 
we loan out the hearing room quite frequently, particularly to 
the Joint Economic Committee and for other outside events.
    In our opinion, transparency is critically important in our 
deliberations and increasingly we and others who use our 
hearing room are having audio and video equipment troubles, and 
this is something that we are going to have to address at some 
point in the near future.
    I appreciate the committee's efforts and it is great to be 
back with you guys. Thank you.
    [The statement of Mr. Ryan follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Mr. Van Hollen.

  STATEMENT OF THE HON. CHRIS VAN HOLLEN, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MARYLAND, RANKING MEMBER, COMMITTEE 
                         ON THE BUDGET

    Mr. Van Hollen. Thank you. Thank you, Chairman Lungren, 
Ranking Member Brady, members of the committee.
    Let me start by thanking my friend, Paul Ryan, chairman of 
the Committee, for that spirit of collegiality that he talked 
about. We have the same tradition, as he said, on the Budget 
Committee as you do here on the Committee on House 
Administration.
    And I appreciate the fact that our budget has been treated 
fairly by the majority in the committee. We have a third of the 
committee budget, and we have the same opportunity to share 
some of the overhead costs on the full committee budget, 
majority committee budget. So I appreciate that.
    I also recognize, as all of us do, that the Congress needs 
to lead by example during these difficult times, and I fully 
support the need to tighten our belts. I would just want to 
emphasize the point that the chairman of our committee made 
with respect to the history of the Budget Committee when it 
comes to frugality. The Budget Committee has not increased its 
budget since 2004, not at all. Flat-lined.
    During that same period of time between 2004 and today, 
other House committee budgets increased by an average of 21 
percent, with one committee budget increasing by 84 percent, 
and the next lowest increase--again, we didn't increase at all. 
We were flat-lined--the next smallest growth was 8 percent.
    During that period of time, the majority under the 
chairmanship of John Spratt did not use its full allocation, 
and so we were somewhat cushioned early on when the majority in 
the House shifted. But that loss, obviously, as many in this 
room have experienced, plus the first two rounds of cuts have 
meant that we had to lay off a good number of staff members and 
cut salaries by 5 percent in the Budget Committee across the 
board.
    And so while we have been able to do that and still retain 
very good staff, I am very nervous that another round of cuts 
will mean that we are not able to keep or attract the kind of 
quality staff that we all need on all of our committees. And as 
all of you know, the Budget Committee has been very, very busy 
this year.
    So what I would ask the committee to consider is that the 
Budget Committee not be penalized for its history of frugality 
because that is ultimately what will happen if you take just an 
arbitrary across-the-board approach. When you do that, you 
penalize those committees that have been frugal in the past, 
those whose budgets have not grown at the average of 21 
percent. And you often see this phenomenon in other parts of 
the Federal Government where agencies are penalized for having 
money left over; it means they often don't get as much as 
before, and that creates this perverse incentive for them to 
spend more at the end. And I think it would be a mistake to 
create that kind of incentive here in the House of 
Representatives, where ultimately committees that demonstrated 
frugality and fiscal discipline end up being punished for that 
fiscal discipline.
    So we agree that we in the Congress should lead by example, 
and I would submit that the Budget Committee has been leading 
by example by having a flat-lined budget since 2004. By taking 
arbitrary across-the-board cuts and applying that to the Budget 
Committee, you are going to punish a committee that has led by 
example, not just in the last couple of years, but for the last 
8 years. So I ask the committee members to take that into 
consideration as you consider our budget. Thank you.
    [The statement of Mr. Van Hollen follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. I just want to reiterate or have you 
reiterate that you are satisfied with the two-thirds/one-third, 
that there is no question about, even in these tough budget 
times, the fairness within your committee itself.
    Mr. Van Hollen. Mr. Chairman, of course, we would always 
prefer more than one-third, but the answer to your question is, 
yes, we have been treated fairly. And as I said at the outset, 
I thank the chairman of our committee for that.
    The Chairman. I thank you for that.
    And, Mr. Ryan, with respect to your comments about the 
speaking system over there, I have tried to alert and the 
ranking member tried to alert the Members as to the need for us 
to do a major renovation of the Cannon Office Building. During 
the holidays, they had one hallway in which--I think it was a 
64-square-foot section of--the ceiling fell down.
    Mr. Ryan. That was the Budget Committee minority staff. 
They had--the ceiling came down, a flood and a little bit of a 
fire if I am not mistaken.
    Mr. Van Hollen. Yes. We invite any of you who want to take 
a tour of the Democratic offices; yes, we had a big flood.
    The Chairman. And the only reason I bring that up is at 
some point in time, we have to stop deferring maintenance and 
actually have to try and restore this Capitol. And I consider 
the Cannon Office Building part of the Capitol since it is the 
first House Office Building. So we are going to have to make 
some tough decisions as we go forward. And I take your point 
about across-the-board cuts versus going in and looking at 
those committees which have been most frugal. Thank you.
    Mr. Brady. Thanks, Mr. Chairman.
    The ceiling fell down only in the minority room? Thank you.
    Okay. No, I just--did you lose any employment? Did you have 
to lay anybody off this last session?
    Mr. Ryan. The minority obviously had to when we went from 
two-thirds to one-third.
    Mr. Brady. I am talking about as they--total--anybody have 
to leave because of the budget cut?
    Mr. Ryan. Not on the majority. But you have to understand, 
we went from a one-third to a two-third. So ours didn't 
increase as much as one would normally because of the cut. So 
we had preparation for the cut knowing it was coming, so we 
didn't hire up as much as the majority in the past had.
    Mr. Brady. How about in the second session, you can 
maintain?
    Mr. Ryan. Yes, we can maintain. We have lost a few people 
who went on to other things, and these are slots that we need 
to fill. In the Budget Committee, you need highly technical 
people to do the budget. And so we will have to replace a 
couple of these highly technical people. And we use some people 
from executive agencies on loan, detailees. We rely on some 
detailees, you know, like GAO or OMB or other areas for 
technical expertise. And that has been very helpful. And we 
lost one of those folks. So we are going to have to get some 
more technical people. So we will make it work.
    Mr. Brady. Okay. Thank you.
    The Chairman. Mr. Schock.
    Mr. Schock. I would just add that we always get hit up at 
home about accountability for the dollars that we spend. And I 
can say with a straight face when my constituents ask me about 
the Budget Committee, you guys are not only leaders by example, 
but you actually produced. And so I think it goes without 
saying to both the majority and the minority staff because you 
moved a budget, whether your staffs or members voted for it or 
not, it actually required work, and it actually produced some 
results. And so for that, I say thank you, and I feel much 
better about the tax dollars that were spent.
    Mr. Ryan. And the minority prepared a budget as well. So 
both our staff wrote budgets. And unlike the typical Budget 
Committee year, we are doing year-round work because our staffs 
did the supercommittee, the select committee's work on number 
crunching, on preparing estimates. And then we have also done 
very comprehensive budget process reform work as well. So we 
have--unlike the past, when the Budget Committee would just 
turn on during the budget season, it has been year round. And 
so we are doing a lot more work with less people.
    Mr. Schock. Great. Thank you.
    The Chairman. The gentleman from Florida.
    Mr. Nugent. I just want to thank both of you for being here 
today. Obviously I am a little concerned as it relates to 
making sure that it is across the board in the majority and the 
minority.
    And, Mr. Van Hollen, I don't know that you answered that.
    Have you had to reduce your staff as it relates to the 
current budget and the upcoming cut? Are you going to have lay 
offs?
    Mr. Van Hollen. We will either have to lay off or have an 
across-the-board pay cut I believe of 6.4 percent. So that will 
necessitate one or the other.
    And, again, that is why I thought it was important to make 
the point that, unlike every other committee in the Congress, 
our budget has been flat-lined, and therefore, there is a lot 
less room for maneuverability.
    So, yeah, we will have to lay people off. And as the 
chairman mentioned, it has been a very busy period of time for 
the Budget Committee. I think all of you know well the issues 
that have been debated in the House, but also both the majority 
and the minority staff did staff this so-called supercommittee, 
the Joint Committee on Deficit Reduction, process.
    Mr. Nugent. And I would suggest you are going to be 
extremely busy in this upcoming year. I don't see any reduction 
in the workload. That is for sure.
    Mr. Van Hollen. No, I think it is going to be a very high 
workload. And as the chairman said, there are a number of 
initiatives that are going to be moving through the committee 
on budget process reform.
    So, again, I would ask the committee to take into account 
our history of leading by example and that in answer to your 
question, we will either have to lay off people or have across-
the-board pay cuts to deal with this.
    Mr. Ryan. And we have not done bonuses as well for staff. 
So a lot of committees do bonuses at the end of the year or 
COLAs. We haven't done that.
    Mr. Nugent. Okay. Thank you. I yield.
    The Chairman. Let me just ask one thing. Some folks would 
think that since we found ourselves into automatic budget 
sequestration, that that would minimize the work you have to 
do. Could you respond to that?
    Mr. Ryan. It actually makes it more complicated for the 
Budget Committee because we police the sequester tool. It is 
the Budget Control Act, which is in the jurisdiction of the 
Budget Committee, which is in charge of this. So--versus Armed 
Services or authorizers or appropriators, we are sort of the 
ones that implement and police the sequester as we now know it.
    The Chairman. So that would be an additional responsibility 
essentially?
    Mr. Ryan. That is right.
    The Chairman. Well, if you have no other comments, we thank 
you for your work, your leadership, your spirit of cooperation 
and the effort that you are putting forward on very difficult 
questions with respect to our budget. Thank you.
    Mr. Ryan. Thank you.
    Mr. Van Hollen. Thanks.
    The Chairman. I should have thought that folks that deal 
with those in the agricultural industry and farmers--including 
farmers--would be here on time. So I appreciate it very, very 
much.
    The committee now welcomes Chairman Lucas, Ranking Member 
Peterson of the Committee on Agriculture. And we would ask you 
to give us a little bit about how you have managed with the 
already existing cuts and how you will manage under the 
projected cuts, as required by the resolution passed by the 
House earlier this year.
    Mr. Lucas.

   STATEMENT OF THE HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF OKLAHOMA, CHAIRMAN, COMMITTEE ON 
                          AGRICULTURE

    Mr. Lucas. Thank you, Mr. Chairman and ranking member and 
members of the committee, for the opportunity to visit with you 
today about those issues. And I want to express my appreciation 
to Ranking Member Collin Peterson for joining me to outline or 
committee's proposed budget for 2012. As all of you know, we 
have a very long and proud history of bipartisan cooperation, 
and I plan to continue that spirit of cooperation as we proceed 
with the work of the committee next year.
    In addition to a bipartisanship, the Ag Committee has a 
strong history of fiscal responsibility. The modest spending 
and the cooperative nature of our committee spans back at least 
two decades under the control of both parties. And in support 
of the leadership in this committee, our budget submission for 
2012 Congress includes a 5 percent reduction from the previous 
year's funding, but allocated a larger amount in 2011 than in 
2012 in anticipation of increased travel needs for field 
hearings to prepare for the 2012 farm bill.
    Salaries were budgeted to remain the same for both years, 
and I am pleased to report that we have successfully 
implemented the 5 percent reduction in this year's budget by 
making very conservative staffing decisions and stretching our 
resources as far as possible. We rehired staff that were with 
the committee previously to retain institutional knowledge, 
combine staff responsibilities where appropriate of course and 
have postponed filling the staff vacancies.
    And on the operation side, all purchases have been kept to 
a minimum, savings incurred where possible by limiting travel 
and shopping around for the best possible prices on equipment 
and supplies.
    The committee will continue to support the leadership in 
implementing an additional 6.4 percent cut. However, I must 
note that I am concerned about the long-term impact on the 
ability of the committee to retain qualified, experienced 
staff. In order to implement this additional cut, we will have 
to continue to make very conservative staffing decisions and 
additionally left to consider if we have the resources 
necessary to do our traditional series of farm bill hearings.
    We intentionally allocated more money in 2011 for travel 
for farm bill field hearings. We had planned to hold those 
hearings this fall. However, we had to delay those hearings in 
order to work on a reduction package to submit to the 
supercommittee. Therefore, we anticipate holding the farm bill 
field hearings next year and will need the resources to do 
that.
    Because we did not split our funding evenly between the 2 
years as most committees do, we are already experiencing a 
reduction in funding for 2012 of $71,980.50, or about 1.2 
percent, by taking an additional 6.4 percent reduction off the 
authorized 2012 account. We would really be taking a 7.6 
percent reduction as compared to other committees. We ask that 
you take this into consideration when determining the final 
authorized amount for 2012.
    Mr. Chairman, we truly have our work cut out for us in this 
Congress. But we firmly believe we can accomplish all that 
needs to be done on fewer resources. We greatly appreciate your 
consideration of our budget request and certainly will be 
pleased to provide any additional information you may offer and 
look forward to whatever questions the committee may have for 
us.
    Thank you, Mr. Chairman.
    [The statement of Mr. Lucas follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you.
    Mr. Peterson.

 STATEMENT OF THE HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MINNESOTA, RANKING MEMBER, COMMITTEE 
                         ON AGRICULTURE

    Mr. Peterson. Thank you, Mr. Chairman and Mr. Ranking 
Member and members of the committee. I am pleased to be here 
today in support of the Agriculture Committee's budget request.
    The Agriculture Committee has a history of putting aside 
partisanship and working together in the best interests of our 
constituents. In fact, we were the only congressional committee 
to propose a bipartisan, bicameral deficit reduction package to 
the Joint Committee on Deficit Reduction.
    Much of the committee's work for the coming year will be 
focused on the reauthorization of the 2008 Farm Bill, which 
expires next fall. This is something that the committee had 
originally planned to begin considering this year, but the work 
of the supercommittee modified our original timeframe.
    I share Chairman Lucas' concern about the potential long-
term impact of committee funding reductions and echo the 
request that you take into consideration the fact that the 
Agriculture Committee's original 112th Congress budget 
submission placed greater resources in 2011 than 2012. A 
percentage cut off the lower number will mean that the 
Agriculture Committee would take a greater cut than committees 
that kept funding levels equal between the 2 years or had a 
larger 2012 number.
    So, as I said, Chairman Lucas and I have a good working 
relationship, not just on policy issues but on the day-to-day 
functions of the committee. I appreciate the chairman's respect 
for the minority's control and direction of our one-third of 
the budget, and I look forward to continuing to work together 
on committee priorities.
    I appreciate your consideration of the Agriculture 
Committee's budget request, and I am happy to respond to any 
questions.
    [The statement of Mr. Peterson follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much.
    Mr. Peterson, I take it from your comments that while we 
can argue about what the overall numbers are, at least the way 
it is allocated between Mr. Lucas and yourself in terms of your 
staff and so forth, it is acceptable and is consistent with 
what you folks testified to last year?
    Mr. Peterson. Yes.
    The Chairman. For the benefit of the membership of the 
committee and also any member of the public who might be 
watching, could you tell us what the implications are of the 
farm bill reauthorization coming up this next year? That is the 
work your committee has to do, and what are the ramifications 
if we were not to have reauthorization in 2012?
    Mr. Lucas. First off, let me say, Mr. Chairman, I think we 
need to look at the nature of the House Agriculture Committee. 
Collin and I have 46 members, counting ourselves, of the total 
committee. Of that 46, 23 have never served on the committee 
before, and I know those challenges are shared by other 
committees. Of the 23, 16 have never served in Congress before. 
If you look at the nature of the farm bill, it is not just the 
wheat and the corn programs, the cotton programs; it is also 
conservation. It is rural development. It is ag research. It is 
farm credit. It is the nutrition programs.
    Literally, 74 percent of farm bill spending under this 
present farm bill goes to the feeding programs.
    It is a very diverse set of jurisdictions, and there are 
huge differences between commodities and regions. These field 
hearings are important so that we can take not only our brand 
new members who have never served on the committee before and 
give them an opportunity to learn about the needs and the 
diversity of the country in the field, so to speak, but it also 
an important refresher for upper classmen to understand the 
impact the comprehensive farm bill has on everyone, producer 
and consumer alike, in this great country. So being able to do 
that is a very important thing.
    And you are exactly right, if you care about the food on 
your plate, then it is important that we continue to raise the 
safest, most affordable, abundant supply of food in the world. 
If you care about water quality, air quality, if you care about 
preserving the soil in place, for instance, the conservation 
programs are incredibly important. I like to say, in Oklahoma, 
it doesn't matter whether you are a hook and bullet kind of 
person or a camera lens person; the conservation programs help 
enhance the diversity and the quality of the wildlife of the 
environment out there, all of those things. And not to mention 
or forget rural development, all of the other programs.
    But we have a large jurisdiction. We have got a lot of 
important issues. And if we can't--Collin and I working 
together--build a consensus and bring our committee together 
and up to speed, then we won't be able to present a 
comprehensive package to the entire House, ultimately a 
conference committee, and the environment as well as the 
consumers will suffer if we are not able to do that.
    Mr. Peterson. Well, I agree with a lot of what the chairman 
said.
    But, you know, as I said earlier, we took the Super 
Committee's and Congress' request seriously and produced a 
product and that probably, preempted what might have been some 
field hearings that we would have been doing to do the farm 
bill in the regular order next year.
    So I am not sure how much time there is going to be, 
frankly, to do field hearings. We can try to fit them in. But I 
think if we get too far into the year, we are going to run into 
the politics of the election year and so forth. But the bill 
expires September 30th. You know, we have in the past gone by 
the deadline and not done a bill, you know, until I guess one 
year, it was May of the next year.
    So it is not the end of the world, but people like winter 
wheat guys end up planting not knowing what the situation is. 
The Southerners plant rice and sometimes cotton without knowing 
what the situation is, which is not an ideal situation.
    So we will just have to juggle this. I mean, see how the 
rest of this year plays out, and see if we can find time to fit 
hearings in if we have the resources.
    But given the cuts that we are taking, I am not sure that 
we are going to have the money to do a whole lot of that 
anyway, you know. So we will just have to work through it. We 
have always been able to work together and make things work 
out.
    You know, the chairman had a hearing in every area of our 
jurisdiction, so these new members have been exposed to all of 
the very--they went through all of these programs and had an 
opportunity to ask questions and learn and so forth.
    But we do have a lot of new members. We have a lot of new 
members on the Democratic side as well. And we are trying to 
bring them up to speed as best we can.
    The Chairman. Ranking Member.
    Mr. Brady. Thank you, Mr. Chairman.
    I know that I am not being presumptuous, but I know on the 
majority part, you had to hire new people because you became 
the majority. But with the projection that may happen in this 
next go around, do you think you will have to lay anybody off? 
Any people have to be laid off?
    Mr. Peterson. No, I don't think we are going to have to lay 
anybody off. When I was chairman, I spent below our budget 
every year by a considerable amount. When we went into the 
minority, we obviously had to let a number of people go. It is 
going to be tight next year, but I think we will be able to 
work through it by--we are going to have to freeze salaries 
basically is what it is going to boil down to, but I think we 
will be able to maintain the people that we need on our side to 
do the work that we need to do.
    Mr. Lucas. I would just note, Ranking Member, that there is 
really a very limited pool of people with the kind of 
agricultural policy or agricultural economic experience. Collin 
and I are very fortunate in both the majority and the minority 
staff, the people we have. We are going to work really hard to 
hold onto those good folks until whatever is concluded in the 
farm bill process, at whatever point this year or next year 
that may be.
    Mr. Brady. How do you get along with the Secretary of 
Agriculture? Both of you. The response is, well, the Secretary 
of Agriculture, you get along well?
    Mr. Lucas. Yes, I believe we both have a good relationship 
with Secretary Vilsack and with the department agency heads 
down there.
    Mr. Brady. Now is your chance, because I am taking mine.
    Mr. Lucas. I would just say, Ranking Member, to go for a 
moment back to what Collin said. The ability of the Ag 
Committee to work in a bipartisan way on the House and in a 
bicameral way with the Senate to come up with $23 billion in 
savings, to make dramatic proposals in policy changes, stepping 
away from the direct payment and a number of these things--and 
I say this respectfully to all other standing committees--but 
Collin and I and the Ag Committee, we stepped up, and I think 
that says something about our relationship together and, yes, 
for that matter our relationship with the department.
    Mr. Brady. I am not talking about--I am talking about your 
relationship with the Secretary of Agriculture. I am not 
talking about the relationship between each other. The reason 
why I say that is because I have had bad experiences with him, 
and I hope that maybe he probably can't hear my voice, but at 
least I am on record saying that; I might be able to get a 
phone call back from him.
    Mr. Lucas. I promise you, Mr. Brady, we have had a long 
series of oversight hearings, as I call them, looking at how 
the departmenthas implemented things. And we have had a long 
series of what I call auditing hearings, looking at how the 
money has been spent. If there are issues that any Member has 
with the department, let us know. We will work with all of you.
    Mr. Brady. Thank you.
    Mr. Peterson. If I could just--I think that Secretary 
Vilsack has brought considerable management expertise to the 
department. We have made significant progress I think since he 
has been Secretary, compared to what was going on before, 
especially in the IT area.
    And they are rolling out new IT--well, we have had a 
problem there because we were tied into some old system 36 and 
AS400 computers that kept us from going to a PC-based system. 
But they brought in a couple of people now, and they are going 
to roll out for NRCS and FSA this year the ability for farmers 
to be able to sign up over the Internet. And they are going to 
have mobile computer capability, so the conservation people can 
actually sign up people out in the field and only enter it 
once, instead of 10 times. And they think it is going to make 
their people go twice as far.
    So he is dealing with a lot of cuts. We are going to 
probably have to consolidate FSA offices because of the cuts 
that he has had. But they are responding to it. And one of the 
things that was a very difficult thing for me, when I was 
chairman, is that I was consistently fighting the Department of 
Agriculture. They were opposed to everything that we were doing 
on the committee. And they developed their own farm bill, you 
know, and caused us all kinds of problems. At the end of the 
day, we worked through all of that, and then we went to the 
floor, and we passed the bill with 300 and some votes, and the 
President vetoed it twice. And we overrode the veto. So this 
Secretary has I think learned from that and has been helpful to 
us in terms of working with us but has deferred to us in terms 
of us setting the policy, and that has made it a much better 
situation in my opinion than what went on when we did the last 
farm bill.
    The Chairman. Thank you.
    Mr. Schock.
    Mr. Schock. Yes. I am just interested in--I know that 
according to our records, that you have spent just over half of 
the budget allotment for the 2 years in the first year, and I 
wondered if you could maybe speak to that as to why, and if 
perhaps we are able to pass the farm bill, whether or not you 
have got the staff and the resources necessary to commit to do 
that in the next year?
    Mr. Lucas. Part of the extra spending in the first year was 
staffing up in preparation for the farm bill process. I brought 
on additional agriculture economists and positioned my staff to 
be able to work on the policy issues.
    We also made provisions, as has been noted, for field 
hearings, which we were not able to conduct. Once the farm bill 
process is over with, then because--at least in my tenure in 
Congress and I think most of Collin's, too--we have done farm 
bills on an every 5-year cycle. So there is some surging up and 
down in anticipation of the every 5-year farm bill.
    The present farm bill begins to expire at the end of July, 
September of 2012. If we are able successfully to craft and put 
into place a new farm bill in calendar year 2012, then, yes, 
potentially in 2013 and 2014 and on down the road, Congressman, 
you would see some of our needs reduced.
    If we are not able to pass a farm bill--and I cringe at the 
thought of a 1-year extension or I cringe at the thought of a 
conference that goes until December of 2012 or we can't pass a 
bill and we go into the next cycle--then our tempo will be 
maintained for the next couple of years. But I want to do this 
farm bill, and I want to do a good farm bill, and I want to put 
this puppy to bed for 5 years, which will be good for our 
budget request in the future, too.
    Mr. Peterson. The only other thing--what a lot of people 
forget about is that we had about half of the work and 
jurisdiction in the Dodd-Frank bill that nobody really pays 
attention to very much, but we did all of the derivative work. 
And we continue to work on that. I don't know how many hearings 
we have had. There have been all kinds of bills to change this 
and that and the other thing, and you have probably run into 
some of that with end users and co-ops and those kinds of 
people coming and lobbying you to get out from under this and 
so forth.
    But we have had a lot of work that we have had to do, 
especially this year and in the last couple of years before 
that, getting up to speed on what was going on in this 
derivative market. This is complicated stuff, and we have had 
to bring on people that have expertise, you know, so we can try 
to keep up with it. And now there has been a lot of lobbying--I 
think there has been way more money spent lobbying the 
regulators than there ever was spent lobbying us, trying to 
undo these regulations.
    And so we keep sorting through that, and we don't 
necessarily always agree on this particular thing, but I would 
just warn people that I am sure in your district, you probably 
have some people who got caught up in this MF Global, where 
they had their margins frozen. So be careful what you are doing 
here because, you know, these guys are slippery, and they need 
to be regulated.
    I am not a big guy for regulating everything that moves, 
but after spending 3 years--we need to be careful in what we 
are doing to protect people from some of this stuff. And I know 
I had a bunch of my guys get caught up in this, and I am not 
sure when they are going to get their money back.
    Mr. Lucas. Just to note for the record, the Securities and 
Exchange Commission is under jurisdiction of the Financial 
Services Committee, but the Commodity Futures Trading 
Commission is our jurisdiction, and that is the primary 
regulator of the derivatives market.
    Mr. Schock. Thank you.
    The Chairman. The gentleman from Florida.
    Mr. Nugent. I appreciate both of you being here. 
Interesting to hear about the derivatives, obviously. I think 
that is a little known fact that everybody kind of forgets 
about in regards to agriculture and this committee.
    I am concerned about the ability to do field hearings as it 
relates to the farm bill, and the ranking member brought that 
up, and I want to make sure that we are on track to do that, 
Mr. Chairman.
    Mr. Lucas. If we are not doing a farm bill markup in 
February, it is my intention working with the ranking member to 
take our folks to the field. Because literally, I think it is 
important with 23--half the committee never serving before, 16 
of the 46 members never having been in Congress before; it is 
important to be in the field.
    But as Collin very correctly noted, it comes down to a 
scheduling issue. Do we write a farm bill next summer under 
regular order? Do we become a part of some effort once again to 
address the budget situation and have to move early, February, 
March? It is a timing issue. But I want to go into the field, 
yes, and with the resources of course, I want to go into the 
field.
    Mr. Peterson. The other thing--there has been all this 
commotion about the secret farm bill. And you need to recognize 
where this is coming from. These people that are complaining 
don't agree with anything we are doing. They have a completely 
different agenda. And they would be complaining no matter what 
happened. So people need to understand that.
    But during that process, it was a truncated process, but I 
know Chairman Lucas met with his members all the time. They had 
input into this. I met with my members. We met with all of the 
commodity groups and the nutrition groups and the conservation 
groups and all of the things that we always do. The only thing 
different is we didn't have a markup process but we kind of had 
one behind the scenes, if you will.
    So it wasn't a perfect process, but it was something that 
was put on us by the supercommittee and by that process, and I 
think we managed it pretty well. Not everybody is happy. The 
corn growers are not completely happy. Some of the conservation 
folks aren't completely happy. Some of the nutrition people--
even though we cut very little out of nutrition and cut no 
benefits, they are not happy because they wanted more money, 
and I don't know how anybody in this climate thinks that they 
can get more money.
    So I think we did a pretty good job. And I think the 
members learned through this process--I know mine did and I 
assume Chairman Lucas' did--because they were involved. They 
were engaged. They were being talked to by their constituents 
and the different groups, and they would come to us, and we 
would work through the process.
    So, you know, we will see. If we have time. But I am just 
afraid if we get bogged down doing a lot of field hearings, we 
are going to delay getting started on this, and then we are 
going to get too far into the political year and not be able to 
get it done. Then we are going to be without a farm bill when 
it expires, and that is a worse outcome in my opinion.
    Mr. Nugent. We certainly would like to see you get back to 
regular order. That is for sure. I think it is good for this 
body, and I think it is good for the American public.
    Mr. Peterson. We didn't ask for this. I was not a big fan 
of the supercommittee. But they asked us to do this. We did it. 
We were the only people that did it. It wasn't pretty, but----
    Mr. Lucas. And as of all of the committees in Congress in 
particular that would understand better than no other, House 
Administration, making cuts is tough. And we proposed cuts 
everywhere, just as you are having to propose cuts everywhere. 
It is tough.
    Mr. Peterson. What we don't get credit for is that we cut 
$12 billion out of the ag budget before we even started this. 
So we had $23 billion that we put forward in this proposal. We 
had cut $12 billion the last 2 or 3 years before that. And $4 
billion of it went directly to the deficit. We are the only 
committee in the Congress that has done this. And I think it 
just shows that if you work in a bipartisan basis, you can get 
stuff done. And the rest of Congress could take a lesson from 
us, I think.
    The Chairman. I want to thank both of you for your 
testimony, for your work and the cooperative spirit with which 
you approach it. I would say, Mr. Peterson, I am shocked that 
you would suggest that agriculture issues might be political in 
a Presidential year.
    But anyway, thank you for your work. And we appreciate your 
candor and appearing before us. All right.
    Thank you very much for being here on time. The committee 
now welcomes Chairman Kline and Ranking Member Miller, the 
Committee on Education and Workforce. We are pleased to have 
you here.
    These hearings are somewhat different than they have been 
in the past in that we would ask you to tell us how you handled 
this 5 percent cut we have already been under and this 
perspective 6.4 percent that we are talking about in the 
upcoming year and bring us up to date on how the budget sharing 
has gone on between your two operations.
    And with that, I would just recognize Mr. Kline.

STATEMENT OF THE HON. JOHN KLINE, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF MINNESOTA, CHAIRMAN, COMMITTEE ON EDUCATION 
                       AND THE WORKFORCE

    Mr. Kline. Thank you, Mr. Chairman and Ranking Member 
Brady, members of the committee. Thank you for the opportunity 
to appear with my colleague, the senior Democratic member, 
George Miller, to testify about our budget for the 112th 
Congress.
    In the first session, our committee was allocated 
$8,346,254, of which we are on target to spend roughly 76 
percent. Our goal is to spend only what is necessary as we 
strive to be good stewards of the taxpayer dollars.
    Among the cost-saving measures we embraced on the 
Republican side of the committee were the elimination of end-
of-year bonuses for staff and a decision not to fill all of our 
staff slots. In the second session of the 112th Congress, if we 
face the additional 6.4 percent cuts we anticipate, we will 
continue to do what we can to be good stewards of the taxpayer 
dollars.
    I remain confident that our team will be able to maintain 
our current workflow and carry out our agenda for 2012 by 
taking advantage of cost-saving measures, including 
collaborating with other committees and personal offices and 
negotiating prices with current publication vendors, finding 
multiple price quotes on equipment and supply purchases before 
making a final decision, using new media to get our message out 
without incurring printing and publication costs, and producing 
posters and reports inhouse rather than hiring outside vendors.
    While I am confident in our ability to weather this 
additional 6.4 percent reduction in resources, I caution the 
committee that cuts above and beyond that figure could 
compromise our ability to carry out our agenda. I have serious 
concerns that additional cuts could threaten our ability to 
conduct rigorous oversight while carrying out our legislative 
responsibilities. Thank you for the opportunity to testify. I 
appreciate your time. I would be happy to answer any questions.
    [The statement of Mr. Kline follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much.
    Mr. Miller.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF CALIFORNIA, RANKING MEMBER, 
            COMMITTEE ON EDUCATION AND THE WORKFORCE

    Mr. George Miller of California. Thank you, Mr. Chairman 
and Ranking Member Brady for the opportunity to discuss our 
budget for the 112th Congress.
    I also want to thank Chairman Kline for his cooperation on 
the budget and the other administrative matters during our 
first session. As you know, the minority was allotted the 
customary one-third of the total committee budget, and the 
majority provided the minority the autonomy over that share.
    At the beginning of the year, the minority's authority was 
$2,782,000. And while the year is not complete, we are 
currently anticipating the yearend balance of at least 
$100,000. As I said in our last appearance in March, the 
committee needs sufficient funding, not only to conduct the 
normal legislative and oversight business but also to be able 
to deal with sudden critical needs.
    This committee has experienced that time and again with our 
jurisdiction over mine safety, where we have had tragedies 
across the country and have had to dedicate staff and acquire 
expert witnesses and talent to understand what happened in many 
of those explosions.
    The same was true in the British Petroleum oil spill in the 
Gulf. Staff was sent to be on the ground. So these kinds of 
things come across this committee's jurisdiction with no 
warning and no notice. And hopefully, we will be able to 
respond to that.
    While they were unexpected in that fashion in the 112th 
Congress, on the minority side, we have had four staffers in 
critical positions on necessary Family and Medical Leave 
simultaneously. And this has required the hiring of additional 
staffers to help fill those two positions. Chairman Kline was 
also very kind and helpful to authorize the use of a detailee 
from the Department of Education, which has helped with that 
sudden change in the workload and the workforce.
    In the next year, we have begun making preparations for a 
cut of at least 6.4 percent from the committee budget. We do 
not seek to cut any staffers' salaries. Those salaries are 
hard-earned and long hours, and to retrain and attract the top 
quality staff, we need to avoid cutting too deeply into our 
overall staffing budgets. Instead, we plan to try to focus on 
our cuts in other areas, such as equipment. We are trying to 
replace and upgrade equipment as necessary to meet the workload 
of the minority staff and the members. We are doing that now, 
trying to do that to the extent that we could out of this 
year's budget.
    We think that we, obviously, can live with the 6.4 percent. 
It is going to be difficult. I would join Chairman Kline in 
that going beyond that starts to change substantially the 
nature of the decisions and the resources that are available to 
us both for the legislative calendar and for the oversight 
commitments that the majority has made and, again, that arise 
sometimes without notice.
    But thank you very much for your cooperation in allowing 
the committee to testify.
    [The statement of Mr. Miller of California follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much.
    And let me just ask you about the responsibilities of 
oversight that you have in your committee. I mean, one of the 
things that seems to me that some people could look at in the 
Congress and say, this is my own observation, that we never do 
enough oversight, and it is a responsibility that we need to 
take very seriously, and I think most Members do. And as we are 
about the process of cutting our budgets, I want to make sure 
we at least have the continuing capability to do the oversight 
where the big money is being spent over in the Federal 
establishment better known as the executive branch.
    Do you believe with these cuts you will be able to do the 
kind of oversight that you think is necessary for all of those 
areas of the Federal Government that are within your 
jurisdiction? Mr. Kline, Mr. Miller.
    Mr. Kline. Yeah, Mr. Chairman, I think that we will. We 
organized, like some committees and unlike others, we don't 
have a specific oversight subcommittee. Each of our legislative 
subcommittees has an oversight responsibility.
    We did however on the majority side dedicate some staff 
specifically to doing oversight. So I think we can carry out 
those responsibilities. I believe we have been able to do so 
with this year's budget, and we will be able to do so with the 
projected 6.4 percent cut.
    But again, my caution would be if we were to cut more than 
that, it would make that increasingly difficult to do that 
oversight. It is time-consuming. As you pointed out, this 
committee has got two major departments, Education and Labor; 
multiple agencies, OSHA, MSHA, and so forth. So it keeps the 
oversight effort pretty busy.
    And I would also agree with you, Mr. Chairman, that both 
parties, since I have been here, I think have been remiss in 
providing all of the oversight that should have been done.
    There is, as you know, a tendency when there is a Democrat 
in the White House and a Republican majority over here for 
oversight to get more intense, and the reverse is true. We need 
to provide that oversight as a constitutional and congressional 
responsibility all of the time.
    The Chairman. Mr. Miller, you mentioned a couple different 
instances that required your staffers to be on location. For 
me, that is not only legislative, but that is oversight as 
well. Do you feel that--I mean, given these resources that we 
have, that you will be able to continue to be able to do that 
kind of oversight?
    Mr. George Miller of California. Well, we have been able to 
do it in the past. I mean, hopefully, we won't have mine 
explosions and oil spills and any of these kinds of problems, 
and we will be able to do it.
    I may not always agree with the oversight selections that 
the majority makes, but I think they have actually had a fairly 
robust oversight calendar this year, ranging across--we have a 
significant number of new members on the committee, and so just 
doing oversight, both for the purposes of oversight but also of 
helping the members understand the higher education, the 
elementary, secondary education, the National Labor Relations 
Board, how all of this has played out. But it has been pretty 
robust.
    I don't know how much you get to do of that when the cuts 
go beyond--the chairman says he thinks he can handle this 6.4 
percent. And that includes--I assume that includes a 
continuation of the kind of oversight they have been doing.
    The Chairman. Thank you very much.
    Mr. Brady. Yes.
    Mr. Chairman or/and Ranking Member, you don't foresee 
laying anybody off this next--the second session? With a 
possibility of a 6.4 percent cut, you won't have to lay anybody 
off the job?
    Mr. Kline. No, sir. No, sir. We do not anticipate that. We 
have a couple of staff slots that we may have to fill, and I 
hope we will be able to do that. It puts a little bit of 
pressure on our ability to do that. But under no circumstances 
are we looking at laying off staff in order to meet the 6.4 
percent cut.
    Mr. George Miller of California. That would be our goal, 
that we would try to avoid that. And we are trying to make 
those adjustments now in looking at how we would manage other 
changes in the committee to hold onto the personnel.
    Mr. Brady. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Schock.
    Mr. Nugent. Thank you very much. I appreciate it.
    Mr. Kline. Thank you.
    The Chairman. Thank you.
    Well, the committee now welcomes Chairman Hall and Ranking 
Member Johnson of the Committee on Science, Space and 
Technology. We would appreciate hearing how you have handled 
your committee with the 5 percent cut that is ongoing this 
particular year and the projected 6.4 percent cut for the 
upcoming year. And also, Mr. Hall, I want to know how your 88-
year-old neighbor is doing. You mentioned him last year in your 
testimony before us, and I hope he is having a happy honeymoon.
    Mr. Hall. Well, they didn't get married, but they are 
living together. And she can still drive.
    Mr. Brady. Push the button.
    Mr. Hall. How is that?
    The Chairman. Very good.
    Mr. Hall. Do you want us to start over?
    The Chairman. We are happy to hear from you on how your 
committee is doing and how you would project you will be able 
to do in the next Congress with the--or the next session with 
the 6.4 percent cut.

   STATEMENT OF THE HON. RALPH M. HALL, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF TEXAS, CHAIRMAN, COMMITTEE ON 
                 SCIENCE, SPACE, AND TECHNOLOGY

    Mr. Hall. Well, I will say to you good morning and thank 
you for having me here. And I guess I am glad I am here. But, 
you know, I checked the first of the year, from January to the 
end of January, how much more I had to do as the chairman, and 
it is about four or five times as much, and then when I got my 
dang check, it is the same as it had been the last 30 years. 
There is something wrong with my thinking and everything.
    But I am going to do my best to read this statement that 
they wrote for me. They say I am supposed to thank you for 
having me here and that we have had a good year on the 
committee conducting careful oversight and advancing good 
pieces of legislation. Our country is facing major economic 
challenges, and we are mindful that we have to be prudent with 
our spending. And I think we have been, and I think that Ms. 
Johnson has been very prudent.
    You asked for a review of the committee funding. Like all 
committees we had to shoulder a 5 percent cut this year, and we 
were able to use the funds that we were provided and put off 
buying some major equipment in the computer field, and that 
kept us within our budget.
    Our total budget for the 112th Congress is $13 million, 
divided up $6.6 million for 2011 and $6.6 million for 2012. For 
2011, we are currently projecting a surplus of approximately 
$860,800 as a result of, I think, careful budgeting.
    And as always the case, personnel costs make up most of the 
budget. In 2011, almost 95 percent of our budget was allocated 
to personnel costs, and in the majority we didn't staff all of 
our slots right away, and we haven't staffed all of them yet. 
But with the money that was budgeted and the surplus 
accumulated from the unallocated slots, we were able to manage 
the surplus in the salary to approximately $846,500. In years 
past we have, I think, been careful about making sure the 
minority--well we were positive, not just being careful about 
it--the minority received one-third of the total staff slots as 
well as control over one-third of the personnel salary budget, 
and the minority had a surplus of approximately $154,200 giving 
us a total surplus together of approximately $1,000,700.
    Our other main budget categories are travel, supplies, 
equipment, and this is where we shouldered most of the 5 
percent cut early this year. Since our budgets are tighter in 
these categories, we anticipate using the salary funds to 
purchase some items, including an upgraded server for our 
leave-tracking system. That is, as well as the remote 
applications access, travel through computer, both of which the 
House doesn't provide at this time. This will give increased 
longevity to existing systems and defer the costs in the 
future. With the purchase of the remote application access, 
this is the first step of the committee to move toward virtual 
desktops.
    In 2012, we showed a possible 6.4 percent cut. We found out 
that was put into place, and we will continue to meet the needs 
of the committee and stay within our means. However, unlike 
this year, the bulk of further reductions would need to come 
from our salary budget, which is 89 percent of the cut, because 
we have already pared down spending in the operational budget. 
In order to ease the reduction on salaries, we reduced our 
travel budget by nearly 35 percent and our supplies budget by 
almost 20 percent.
    Our travel budget this year, I think we are at $70,000, and 
I am not sure Ms. Johnson is happy with that, but I will be 
glad to talk with her about it.
    With these cuts, our staff and Members would be further 
capped in the amount they can travel to see projects. You know, 
travel, we get--our overseas travel is what we have had more of 
than the other type travel, and the State Department pays for 
that, so that doesn't come into effect here.
    With the reduction in supplies, we need to make additional 
cuts in publications, and in anticipation of a further cut, we 
will make use of the surplus that we have this year to purchase 
supplies such as paper and toner for use next year.
    I think it says here I would be happy to answer any 
questions you may have. That is not exactly true, but I will do 
my best.
    The Chairman. Thank you very much, Mr. Hall.
    [The statement of Mr. Hall follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Ms. Johnson.

 STATEMENT OF THE HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE 
IN CONGRESS FROM THE STATE OF TEXAS, RANKING MEMBER, COMMITTEE 
               ON SCIENCE, SPACE, AND TECHNOLOGY

    Ms. Johnson. Thank you, Mr. Chairman, and good morning. 
Thank you for the opportunity to speak today on the committee 
funding. Chairman Hall has already presented an overview of the 
committee finances, so I will just make brief remarks.
    As he has noted, we had to absorb the 5 percent cut in our 
budget this year, as did other committees, and he already 
described the areas impacted by the cuts. And I would just like 
to add that the 5 percent cut combined with uncertainty about 
the potential additional cuts in the second session of the 
112th led the minority to defer filling two staff slots for the 
time being as well as to cut salaries of almost--most of the 
staff who were retained from the 111th Congress.
    And this has been a desirable situation, but it was deemed 
prudent--it has not been desirable--to ensure that we would not 
have a layoff of additional staff beyond those who lost their 
jobs when we became the minority. And we have to make 
additional cuts in salaries in the event that Congress mandated 
additional cuts of our committee's budget in the second 
session.
    As a result we will be able to end the current year with a 
surplus of approximately $154,000. I do not anticipate being 
able to have a similar surplus in 2012 as we would like to fill 
the vacant minority slots as well as potentially adjusting 
staff salaries as appropriate to attempt to give back what we 
cut the staff when we got to the freeze level.
    And I would also anticipate that some oversight travel that 
had been deferred this year due to committee and congressional 
commitments, schedules, were necessary to carry out this year, 
so clearly an additional 6.4 percent cut to the committee 
funding would adversely impact our ability to meet our 
responsibilities for the coming year.
    And so I would respectfully request that we attempt to 
leave us where we are. I know your hands are tied, but in 
moving forward we hope to experience as little cuts as 
possible, because we have attempted to reduce our spending, and 
we have also done without a couple of staff people.
    So thank you again, and I will be happy to answer your 
questions.
    The Chairman. Thank you very much.
    [The statement of Ms. Johnson follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. I appreciate the work that both of you do on 
this committee.
    Mr. Hall, you brought up the issue of travel. Congress gets 
a lot of criticism for travel. Can you tell us the nature of 
the kind of travel that your committee needs to do for 
oversight and for anticipation of legislation?
    Mr. Hall. Well, this wouldn't apply to oversight, but we 
made two trips to the liftoffs at Kennedy, and we travel to 
Johnson and to Huntsville and to Kennedy from time to time.
    The new Members need--the first thing I did when almost 30 
years ago I came here and got on the same committee, I wanted 
to go to Huntsville and see what they were doing, and I wanted 
to go to Kennedy and see what they were doing, and I wanted to 
go to Johnson to see what they were doing. And I took a half a 
day and a night at each place. And I found some things that 
were unusual to me then, because the McDonnell Douglases and 
all of the people that were contracting with the government 
were all together, and I thought that probably impaired the 
bidding, the competitive bidding. But the answer I was given 
almost everywhere, and I was new, was that they had what they 
wanted because of the danger of the mission that they were 
overseeing, that they trusted those that they had been doing 
business with, and they wanted to keep on doing that business.
    And just recently there has been an effort for the 
commercial people to go into the business of travel and making 
some trips to the space station, and maybe one day to Mars or 
wherever they are going to go, realizing that we are not going 
to get to go anywhere until people can go to the grocery store. 
But those are things in store, and we need to try to keep our 
space station alive and keep alive just a thread of making it 
to Mars when we can. But I think we need to keep--try to keep 
NASA going, keep them up and have a little closer supervision 
on what they are doing.
    The Chairman. Since your committee is called Science, 
Space, and Technology, maybe we can ask you to figure out what 
technology might be able to get us to keep a warm but not 
freezing hearing room. This morning it was 80 degrees in here, 
and they decided they would cool it down a little bit, and I 
think that they have succeeded. I am kind of reminded of Rocky 
hitting that slab of meat. This feels about as cold. That 
doesn't need an answer.
    Mr. Brady.
    Mr. Brady. I just thank you for being here today, and I 
appreciate your testimony.
    Mr. Nugent. I just echo that. Thank you so very much, 
particularly in keeping your spending rates down. Thank you.
    Ms. Johnson. I just want to say that, and Mr. Hall pointed 
out, there are times when the State Department underwrites some 
of our travel. I just returned from Brussels, where I 
represented the U.S. Congress, but it was paid for by the State 
Department to the European Union on science. So we are grateful 
for that help. It is still government money, but it didn't come 
directly out of our committee.
    We have been very prudent in our spending, but we do have a 
large number of new people who have not been to many of the 
places that we have jurisdiction, research labs and the space--
the network of space interests we have invested in. So some are 
beginning to ask for travel. So we might have to do a little 
bit of that more early on in the year.
    The Chairman. We thank both of you for testifying.
    I don't know, Mr. Hall, if you have any parting thought for 
us this year as you gave us a wonderful parting thought last 
year.
    Mr. Hall. No. I hope I am back next year, and I will try to 
save up something for you.
    The Chairman. Thank you very much.
    Mr. Hall. And thank you. And I still think you should have 
been Attorney General.
    The Chairman. Thank you, gentlemen, for appearing.
    The committee now welcomes Chairman Peter King and Ranking 
Member Bennie Thompson of the Committee on Homeland Security.
    We would like an update on how your committee is doing from 
a budget standpoint after working through the 5 percent cut 
this last--or the current year, and projected 6.4 percent cut 
as a result of the resolution passed by the House earlier this 
year that will affect us in the upcoming year.

   STATEMENT OF THE HON. PETER T. KING, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF NEW YORK, CHAIRMAN, COMMITTEE ON 
                       HOMELAND SECURITY

    Mr. King. Thank you, Chairman Lungren and Ranking Member 
Brady. We appreciate the opportunity to be here today.
    You are right, we did have the cuts last year. We face more 
cuts coming into the next year. The ranking member and I have 
attempted to work together to work within those cuts. Basically 
we have managed to do it.
    I should point out that our budget for 2012 will be roughly 
what it was back in 2006. And even though we have 75 authorized 
positions this year compared to 60 in 2012, we expect to come 
in at the same number. We expect to live within the budget 
itself. We have done this in a number of ways. We agreed last 
year, pledged to do more with less, but in doing that, we still 
wanted to have a full range of hearings, of field hearings, of 
site inspections, of rigorous oversight. We have had hearings 
on radicalization. We have sent Members to the border. There 
has been field hearings at the border. We sent staff to 
investigate security breaches at airports around the country, 
to visit local police departments.
    We have also had natural disasters, which come under FEMA, 
such as the terrible tornadoes; Hurricane Irene; the tornado in 
Joplin, Missouri, which directly affected one of the members of 
our committee Mr. Long, and with all that we have managed to, I 
believe, do a very admirable job and still live within the 
budget.
    We didn't fill all authorized staff positions. We did use 
existing staff for roles that could have been filled with 
experienced, higher-paid staff. We also made use of senior 
fellows and detailees, which are at no cost to the committee. 
For instance, we have a member of the New York Police 
Intelligence Unit who--a full inspector who has been at the 
committee now for almost a year at no expense at all. We have 
attempted to reduce travel expenses. We have implemented 
internal administrative reforms, and we are going to be coming 
in under budget for this year.
    I will say that with some of the savings from the 2011 
budget, we intend to prepay some of the expenses for 2012 as 
far as equipment and supplies that will enable us to live 
within the 2012 budget. We have eliminated intern stipends, and 
we also intend to recruit a GAO office detailee and senior 
fellows to augment committee staffing without additional costs 
to the committee.
    Let me, Mr. Chairman, also maybe in the hope that you will 
ask me easy questions, give you credit for the great job you do 
as chairman of the cybersecurity subcommittee, which will be 
moving ahead in a dramatic way over the next several weeks.
    I will continue to leave this to Mr. Thompson to describe 
that we have followed the committee's customary two-thirds, 
one-third division, and we intend to follow that division in 
2012.
    So with that I thank you, Mr. Chairman, Ranking Member, 
members of the committee, for the opportunity to be here today 
and again look forward to going ahead into a new year and also 
to continue to work with all of you. Thank you.
    The Chairman. All right. Thank you.
    [The statement of Mr. King follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Mr. Thompson.

 STATEMENT OF THE HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF MISSISSIPPI, RANKING MEMBER, 
                 COMMITTEE ON HOMELAND SECURITY

    Mr. Thompson. Thank you very much, Chairman Lungren, 
Ranking Member Brady and members of the committee for the 
opportunity to testify regarding the 112th Congress committee 
allocation and possible cuts.
    In March of this year, I had to reduce the size of the 
committee staff by three employees and reduce all of my staff's 
salaries by between 2 and 8 percent. Consequently, I also was 
not able to fill vacancies.
    Our participation in travel on committee business has been 
limited, and we have been very conservative in the purchases of 
office supplies. With the limited funds remaining, we plan to 
replace an aging copier and computers.
    For next year, for 2012, an additional 6.4 percent cut for 
the Democratic side would place our panel at even greater 
disadvantage than we are experiencing this year. At this point 
we are not making--talking about any amenities, but rather bare 
essentials, like adequate staffing levels. In my estimation we 
would not be able to sufficiently execute the duties of a 
committee staff without additional funding.
    Mr. Chairman, resources matter. Without them we would not 
be able to fill vacancies, maintain competitive salaries or 
continue to offer paid internships for deserving, eager college 
students. While we continue to be frugal with purchases like 
news subscriptions and equipment, I am sure our travel will be 
even more limited even as the Speaker has directed all 
committees to engage in field hearings. I cannot overstate the 
difficulty an additional budget cut would create on this 
committee's staff. As it stands now, many of them are doing the 
work of two or three staffers at reduced salaries.
    Let me repeat, my greatest concern is we will be told that 
more than 6.4 percent will be taken. If this happens, I will 
have no alternative but to, yet again, terminate more staff. 
Therefore, I am respectfully requesting this committee to keep 
that in mind.
    Our legislative and oversight activities require, our 
mission and jurisdiction as a committee require us to, in some 
instances, go all over the world. That travel in some instances 
comes out of the committee's budget. But our mission is to keep 
America safe, and we have to do it, obviously within the 
confines of the budget, but obviously notwithstanding the fact 
that our country deserves no less than to be safe.
    And I yield back.
    The Chairman. I thank both of you. And let me just ask one 
question to start off, and that is, how do you work out the 
issue of field hearings majority to minority? Is there 
consultation? Is that done from the subcommittee level, full-
committee level? How does that work?
    Mr. King. Well, it ends up going to the full-committee 
level for the decision, but for the most part we allow the 
hearings. It is pretty much the same procedure that was in 
effect when Ranking Member Thompson was the chairman. We 
generally have at least one Member from each party. They lay 
out the reason for the field trip, and almost all of them have 
been approved. I can think of a number of bipartisan hearings 
that have been held, including some in the districts of the 
Democratic Members.
    So I would say probably the main field hearings have been 
at the--regarding border security, they are the main ones that 
I can focus on right now. But I am not aware, for instance, in 
the last year of any significant cutback in field hearings.
    The Chairman. Mr. Thompson.
    Mr. Thompson. Well, that is absolutely correct. I think we 
have been to Texas, Pennsylvania, Massachusetts, Michigan and 
several other States with field hearings both at the 
subcommittee level where the chair and ranking member of the 
committees agreed. So that policy continues.
    The Chairman. Good. I am glad to hear that. I had requested 
a field hearing for 2 years in the previous Congress and didn't 
get it, and so I was hoping there was a spirit of cooperation 
that prevails today.
    I would ask this, Mr. Thompson. You have mentioned that you 
had to lay off staff. Now, we had testimony from others that as 
Democratic membership went from majority to minority, they 
necessarily went from the two-thirds to one-third. Are you 
saying that in addition to that you have had to lay off staff 
on the minority side?
    Mr. Thompson. Yes. What we did, obviously, we came from 
two-thirds to one-third. We had to make significant adjustments 
as well as reduce salaries, and we did it, and we are presently 
managing a committee. But it is also indicated that, at some 
point, if this cut that is proposed goes into effect, 
obviously, we would have to let someone else go.
    Mr. King. If I can just note, Mr. Chairman, one of the 
toughest moments that I had was when the Democrats did take 
control of the committee back in 2007, and I had to make those 
decisions to lay a significant number of people off as you go 
from majority to minority, and it is always painful because 
these are very qualified people.
    The Chairman. I am just trying to get at the point that Mr. 
Brady had made with several other committees, and that is have 
the 5 percent cut required any layoff of staff in this current 
year? I think that is what Mr. Brady was asking.
    Mr. Thompson. It was three for me.
    Mr. Brady. Thank you, Mr. Chairman.
    Also I was interested in the 6.4 projected cut that would 
require also the majority and the minority to lay more people--
to lay people off.
    Mr. King. Right now I don't believe we will have to lay 
anyone off. There are spots we are not going to fill. I think 
there are six vacancies right now. I don't if we are going to 
be filling them. There are also several more that may be 
leaving. We may not be filling them either. So we can work 
within the budget we have right now. Obviously it is not going 
to be easy. But as of now I do not anticipate having to lay 
anyone off on the majority side.
    Mr. Brady. You are a pretty important committee, and you 
functioned for a lot of years with a--for a limited amount of 
years, it was brand new, but now are you going to be able to 
function with six being not filled and maybe a possible couple 
others not being filled. And as you say in your testimony, and 
I agree with you, you have got to keep us safe. And I think of 
any committee, I would fight as best as I can to try to make 
sure that that doesn't happen to your committee because you 
need to keep us safe. And not only us I am talking here, I am 
talking about the American people. But that is on the majority 
side. But yet on the minority side with a projected 6.4, you 
are saying that you probably have to lay three people off?
    Mr. Thompson. That is correct.
    Mr. Brady. Thank you.
    Thank you, Mr. Chairman.
    Mr. King. I would just add to your point. I agree this is 
going to be difficult, and in an optimum situation we could 
certainly use additional personnel in a very worthwhile way. 
Chairman Lungren is a member of our committee. He is a very 
senior member of the committee, and he realizes the type of 
work we do. I am not saying that these cuts are good for the 
committee, I am just saying we can live within them.
    The Chairman. It would also help if we finally got 
settlement of the jurisdictional question since the last 
remaining unfilled recommendation of the 9/11 Commission is 
that the Congress consolidate its authority for homeland 
security matters in a single committee in the House and the 
Senate, and unfortunately, under both Democrats and 
Republicans, we failed to do that thus far.
    Gentleman from Mississippi.
    Gentleman from Florida.
    Mr. Nugent. No, sir.
    The Chairman. I would like to thank you for your testimony 
and thank you for your work. And the only thing I would add is 
we have outstanding staff on that committee, and there is a 
certain amount of particular expertise that we need in order 
for us to be able to cover the subject matter that comes under 
homeland security. And it is not just when we lose a person we 
can necessarily say we are not going to fill that position if 
it is an area of expertise in nuclear materials, for instance, 
or other types of things. And so I just hope anybody who might 
be listening might understand that for us to do the important 
oversight, we have to have the expertise to ensure that the 
Department is doing what we intended it to do when we set it 
up.
    Mr. King. I agree with you completely. The staff does a 
phenomenal job, and I can understand, again, Mr. Thompson's 
situation is you let people go that have unique talents and 
unique abilities. It is not just a staff member who can go from 
one committee to another. Many of the people we have, whether 
it is a scientific background, intelligence background or law 
enforcement background, it is a very unique skill set, and once 
you lose them, it is hard to get them back, and it is very hard 
to replace.
    Mr. Thompson. Absolutely.
    The Chairman. We thank you both.
    Mr. Filner. I have been delegated to speak for the 
majority.
    Mr. Miller of Florida. No, you haven't.
    Mr. Brady. You know, coming from anybody but you, we might 
be able to believe that.
    The Chairman. It is a pleasure to welcome both Chairman 
Miller and Ranking Member Filner of the Veterans' Affairs 
Committee before our committee to hear how well you are getting 
along this year, to find out how you are operating under the 
current 5 percent cut that was imposed by a vote of the House, 
and how you would anticipate operating with the projected 6.4 
percent cut that was also the result of a vote on a House 
resolution. And I am glad to hear from both of you.
    Mr. Chairman.

STATEMENT OF THE HON. JEFF MILLER, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF FLORIDA, CHAIRMAN, COMMITTEE ON VETERANS' 
                            AFFAIRS

    Mr. Miller of Florida. Thank you very much, Mr. Chairman, 
Ranking Member Brady. Good to see you both for the opportunity 
to appear before you for the Veterans' Affairs budget for the 
112th Congress, for the second session. My good friend Bob 
Filner is with me today, and we have worked side by side very 
well this year, and we look forward to continuing to work on 
issues that are important to our veterans community.
    As the committee knows, we have oversight over the 
Department of Veterans Affairs with a staff of close to 300,000 
individuals and a budget of over $120 billion, and we have what 
I think is an aggressive plan of action that has already 
engaged in oversight in several of the areas that are included 
in our oversight plan.
    The VA Committee's total budget request for the 112th 
Congress was a 5 percent decrease in funds from the 111th 
Congress, and we did manage to find those savings by decreasing 
our salary and equipment budget at the beginning of the year. 
We had to make some decisions on staffing, equipment and travel 
this year based on our cuts, and we are going to be returning 
money to the Treasury due to the fact that we have not fully 
staffed the majority, and it allowed us some flexibility within 
that 5 percent decrease for any needed purchases or committee 
travel since we have such a small travel budget for the size of 
the committee.
    Remember, the vast majority of our travel that we are 
engaged in is paid for by the very agency that we have 
oversight on. VA pays for the majority of the VA Committee's 
travel.
    The committee's equipment funds were one-third of what was 
requested in the 111th Congress; therefore, we made only major 
purchases when absolutely necessary, but by the end of the 
year, we do hope to replace some outdated equipment and a 
constituent management system that has not been updated since 
2005.
    We have asked for and received requests from the majority 
and minority staff for needed items, and we will consider them 
for purchase within our remaining balance for 2011.
    Now, the additional 6.4 percent cut from our 2012 budget 
will be challenging, but we are anticipating and planning for 
it by decreasing the total salary allotment number and 
providing the minority with one-third of that salary budget.
    This is a small committee charged with an awesome 
responsibility: oversight of those who care and provide 
services for our Nation's warriors and their families.
    Mr. Chairman, you have my assurance that we will account 
for every dollar, we will stretch every dollar afforded us as 
we outstrive the expectations placed upon us, and we will 
welcome any questions that you have before us.
    [The statement of Mr. Miller of Florida follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gingrey. Mr. Chairman, is it appropriate to ask the 
chairman a question, or do you want to wait until after the 
ranking member testifies?
    The Chairman. After the ranking member.
    Mr. Filner.

STATEMENT OF THE HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF CALIFORNIA, RANKING MEMBER, COMMITTEE ON 
                       VETERANS' AFFAIRS

    Mr. Filner. Thank you, Mr. Chairman, and as Chairman Miller 
said, we have had a great working relationship, and we are here 
to talk to you about the budget cuts.
    And the concern I have, and it picks up for the end of the 
discussion I just heard with Homeland Security, that the impact 
upon the staff and on this institution both in the near term 
and the future, I think, is threatened by applying these cuts 
across the board. The cuts I think we can handle, as the 
chairman said, but I really think we should exempt the salaries 
from the proposed cuts. I am not sure that in these tough 
economic times the ordinary staff person should absorb those 
cuts, functioning with that is going to be very difficult.
    That is, as--when we went from majority to minority, 
obviously we had to cut our staff in half, but we didn't just 
cut the staff in half, their salaries went down as was mandated 
basically by the cuts that we had and the way they were 
distributed. So we already cut the salary of our working staff 
members. And, that, as you heard from Homeland Security, the 
chair and ranking member--affects the ability to keep good 
people, that affects the institutional memory of the 
institution, that affects our ability for oversight as the 
chairman said was our prime responsibility.
    That is, if we continue to have to cut back, reduce 
salaries, we are going to lose the very people that we need to 
do the function that this Congress is supposed to do, and that 
is oversight. We have a small committee, we have the second 
biggest bureaucracy to oversee, and it is hard to do that with 
the contemplated cuts in the staff salaries.
    I don't think that we should make it in those areas. It 
becomes really a token demonstration of our seriousness to cut 
back, and we risk losing the most able staff among us, the loss 
of the ability, the institutional knowledge, and the effect of 
the quality of the laws we pass and the oversight that we can 
exercise.
    So, Mr. Chairman, I agree with Chairman Miller that we can 
deal with these cuts. I would just not apply them across the 
board and exclude the salaries.
    Thank you, Mr. Chairman.
    The Chairman. I thank both of you for testifying. I just 
want to say our staff does a great job of doing preparation for 
us, and they always have pictures of those who are to appear, 
and I must say that they gave us very youthful pictures of the 
two of you. They look very, very good.
    Mr. Filner. What is he talking about? What are you 
referring to, Mr. Chairman?
    The Chairman. I think they are your official photos.
    Anyway, thanks for the work that you are doing on the 
committee, and thank you for your members' work on the 
committee as well.
    Have you had to--now, look, I know you went from majority 
to minority status, and we went from minority to majority 
status, but in terms of the 5 percent imposed cut for this 
year, have you had to lay off any members of your staff?
    Mr. Miller of Florida. We actually have not fully 
implemented the staff level that we are budgeted for. We 
actually held open numerous positions on the committee so that 
we would have flexibility at the end of this session, 
contemplating the additional cuts that probably would be coming 
forward.
    So the answer on our side is we are not fully staffed. I 
would say that some areas that we are looking at bringing 
additional staff on is within our oversight and investigative 
committee, because we have really started what I think is an 
important requirement of this committee, and we have very 
aggressively been looking at VA in some areas that they have 
not been looked at in the past. And I think we have been 
derelict from a congressional standpoint in providing the 
oversight that has been necessary, and that is going back to 
when the Republicans held the majority the last time.
    So in answer to your question, we are understaffed at this 
point, so it has not been an issue for us.
    The Chairman. Mr. Filner.
    Mr. Filner. We did not have to lay off anybody, but we did 
significantly reduce our staff salaries.
    The Chairman. Mr. Miller, you mentioned something, and I 
think you mentioned it to me before, and that is when you do 
your oversight, your travel is paid for by those you are 
overseeing?
    Mr. Miller of Florida. We only have a $50,000 travel budget 
for the committee, and so we have been very careful in 
expenditure of those funds, and I wanted to be extra careful in 
the first session because I just didn't know how far we would 
be able to expand. However, outside of that, most of the times 
when we travel to a Veterans Affairs whether it be hospital, 
cemetery, clinic, the VA actually picks up and provides for 
that. And my concern is----
    The Chairman. Does that cause a difficulty?
    Mr. Miller of Florida. It has not caused us a problem yet, 
but I am still concerned that it may because they do get a 
heads up as to when the committee is coming in and what we are 
actually looking for.
    But I would say this: Secretary Shinseki has been very 
helpful in the areas that we have worked on in this last year, 
and we have told each other that we want to continue to work 
with the ranking member in helping them fix some of the issues 
that are out there.
    So, while I was very concerned last time we appeared before 
your committee, it has not come to fruition, but it very easily 
could.
    The Chairman. Mr. Filner, how about you on that issue?
    Mr. Filner. When I was chair, by the way, and we had a 
significantly higher travel budget, we tried to free ourselves 
from that; that is, we did not want to get permission as it 
were to travel, and so we paid for it pretty much. And I think 
the cutback led to this more--they seem to be willing to step 
in, and we know why. But I think we have to be careful of that, 
because this is our prime responsibility as a committee is 
oversight. And yet if you cut us back so significantly that 
they have to pay for it, you have given up some of your 
independence in that oversight.
    The Chairman. Thank you very much.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Filner, you talked about your cuts to personnel. If the 
projected 6.4 cut comes to you on the minority side, would you 
have to lay people off?
    Mr. Filner. I don't think so--I don't think officially, but 
the cutback in salary may lead to movement and basically the 
effect of a layoff, because either people will not accept----
    Mr. Brady. I don't think you lessen the pain by laying 
somebody off unofficially. You said ``officially.'' I don't 
think----
    Mr. Filner. Well, we may not have laid them off, but they 
will have looked for a better job and left.
    Mr. Brady. Okay.
    Mr. Filner. De facto as opposed to de jure. I don't know, I 
am not a lawyer.
    The Chairman. The gentleman from Mississippi.
    Mr. Harper. Since I hold the seat that the late Sonny 
Montgomery held for 30 years, and knowing how important what 
you do is, I just want to say thanks for the great job you are 
doing, and we look forward to working with you.
    The Chairman. Mr. Gingrey.
    Mr. Gingrey. Mr. Chairman, thank you.
    Chairman Miller, I want to go back to that point in regard 
to the travel budget, that you are underfunded, obviously 
badly, in your account in the department of which you and 
Ranking Member Filner so clearly said that you have the 
oversight responsibility, and yet you rely on them to travel. 
Are there any other committees that are in that situation? Is 
that unique to Veterans Administration?
    Mr. Miller of Florida. Armed Services, I would expect, is 
that way as well, although it is a little bit different.
    However, I will say this: With the travel budget that we do 
have, we have been able to send our investigators and committee 
staff members and Members on certain occasions out without VA's 
knowledge, and I think that is an important part of what we do. 
And so I think we will have the ability to do more, but it is 
just--I understand why it is done, but it could be abused if 
not looked at very carefully. And the ranking member and myself 
have worked as closely as we possibly could to make sure that 
that does not become a major issue for our committee.
    Mr. Gingrey. Well, I am reassured by what you said in 
regard to your working relationship with General Shinseki, and 
everything, at least in the first session, so far so good. But 
if we get into the second session of 112, and you take another 
6.4 percent cut, then it may be very difficult. And we will be 
interested in hearing back from you next year.
    Mr. Miller of Florida. Certainly.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and thank you both for 
being here.
    You know, having a district that has over 116,000 veterans, 
and I do veterans advisory board meetings on a monthly basis 
throughout the district in different counties, so I would 
certainly encourage you to keep your oversight up. My ears get 
blistered sometimes in reference to some of the issues that 
they see not with the quality of care, but the processing of 
their claims.
    And so I think that is one area that I know where there has 
been some positive movement, but we need to move further, and I 
think we need to move faster. But I would like to see more 
oversight, and I am concerned about the VA having basically 
control over when and where you come and how you do that.
    Mr. Miller of Florida. Well, and as you might well imagine, 
when you go to a VA facility, whether we were in control or the 
Democrats were in control, they will let you see what they want 
you to see. If you drill through that and begin the possibility 
of talking with some of the employees off site, you will find a 
much different picture.
    But we all want the same thing, and that is, as Mr. Harper 
said, to serve those individuals who have served and protected 
this Nation.
    For the record, if the Florida maps hold as the Senate 
released, my district will then have 147,000 veterans.
    Mr. Filner. Let me make clear for the record I don't think 
the chairman was implying that they control what we do and 
where we go. Like the military, they find it in their interest 
to help pay for it. I mean, it makes it friendlier. But then 
that, of course, sets some of the stage.
    So they have never, I am sure, Mr. Miller, said, you can't 
go here, or we are not going there, or because we won't pay for 
it. They have just stepped forward to help us like the military 
steps forward, but they make sure then they know when you are 
coming, and it is a little too friendly a relationship. But I 
don't think Mr. Miller would want to imply that they would ever 
tell us what to do or where to go.
    Mr. Miller of Florida. If my statement needs to be 
clarified, I will use a perfect example of the Miami VA Medical 
Center where there were significant problems with sterilization 
issues, with colonoscopy material a couple years ago. The 
director of that facility was removed temporarily, sent to the 
VISN, and then ultimately when they did their internal 
investigation, they brought that director back.
    We continued to drill into and try to find out exactly what 
happened and some of the things that took place. While we were 
down at the facility sometime earlier this year, I began 
hearing rumors of other things that took place. And we had the 
director and brought her up here for a hearing and asked her 
questions in an open hearing. She was not able to answer those 
questions well at all. She is now being reassigned.
    The only way that we were able to get the information that 
we needed was to go off site, because what I was saying in my 
comments was when you go to a facility, as does DOD many times, 
they provide you the picture they want you to see. Everything 
is rosy, everything is great. But then when you do have an 
opportunity to visit with individuals outside of that setting 
that the directors never would have allowed us to talk to had 
we been in that facility, and we wouldn't have known to ask to 
talk to them, we were able to find out some things that were 
pretty damaging and unfortunately put veterans in places that 
they did not need to be.
    In fact, one was shot by a police officer shortly after 
walking out of the facility, having been Baker Acted and put 
into Jackson Memorial facility involuntarily, and then somehow 
when they got brought from Jackson to the VA, it appears there 
was a mix-up in the paperwork, and they claim that this person 
voluntarily admitted himself even though they had already said 
that they were going to commit suicide by cop. This veteran 
walked out the doors of the hospital and was actually killed by 
a police officer just a short time after walking out the door.
    Mr. Nugent. I yield back.
    The Chairman. We thank the gentlemen very, very much. I 
hope if I went off site to talk to the two of you, I wouldn't 
find a different story than I had here from you. This spirit of 
cooperation that you have exhibited is refreshing, and I am 
glad that we are working together on behalf of our veterans. In 
tough budget times we are trying to make those decisions that 
are best under those circumstances, so I thank both of you.
    Mr. Miller of Florida. Thank you.
    The Chairman. Thank you very much, Mr. Bachus, for being 
here. I understand the ranking member is not going to appear.
    Mr. Bachus. Yes, but he and I, I think, are in accord as to 
what I am going to say. He is aware----
    The Chairman. Actually, it is kind of funny. I considered 
Barney a friend, and I saw what he said in his announcement 
that he no longer had to be nice to people he didn't want to be 
nice to anymore, and I hope that is not an indication of his 
failure to appear here.
    But we welcome you representing the entire committee, and 
we would love to hear from you as to how well your committee is 
doing while operating under the 5 percent cut that was imposed 
this year and the prospective 6.4 percent cut for next year.

   STATEMENT OF THE HON. SPENCER BACHUS, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF ALABAMA, CHAIRMAN, COMMITTEE ON 
                       FINANCIAL SERVICES

    Mr. Bachus. Thank you, Mr. Chairman, and members of the 
committee. I am pleased to appear before you today as chairman 
of the Financial Services Committee.
    Our budget continues the policy of providing the minority a 
full one-third of both funding and staff slots allocated to the 
committee.
    For the first session of the 112th Congress, our committee 
has managed the 5 percent budget reduction prudently, and it 
has not negatively affected our day-to-day operations. 
Recognizing that further cuts could occur, we did not fill all 
our vacant slots, thus avoiding the need to terminate any staff 
from our payroll or reduce salaries.
    The budget cuts have not been without impact, however. The 
positions we have not filled are analytical and research 
positions, the absence of which has restricted our resources we 
can devote to forecasting financial, economic and regulatory 
developments and researching those that arise under our 
jurisdiction.
    For the second session, of course, we have been advised to 
plan for a 6.4 percent reduction in the amount allocated to our 
committee. We will continue to be cautious in our spending and 
in our staffing, and although it will be tight, we anticipate 
we will be able to operate given the 6.4 percent additional 
reduction. We want to be team players, and I think we are 
asking the taxpayers, the American citizens, to sacrifice, and 
we want to be a part of that sacrifice.
    That will restrict our ability to fill some vacant staff 
slots, and, as I said, it will reduce our analytical abilities, 
and that could prove to be penny wise and pound foolish. As we 
have seen many times, government policies sometimes can cause 
dire economic and financial consequences.
    Our committee continues with a significant amount of work 
ahead, given the financial challenges, the economic challenges, 
and the events in Europe. They obviously are in a recession 
today. And with the interconnectivity of our global economy, 
that is going to be a challenge for all of us. We ask you to 
continue to provide us with the resources we need to do our 
job, particularly in an era where our oversight of financial 
markets is critical. But all in all, I am happy to report to 
you that we will live within the restrictions you impose.
    [The statement of Mr. Bachus follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. We thank you very, very much for your work.
    Does the committee anticipate what--let me put it this way. 
Some people would look at it and say, well, your committee 
spent a good deal of time passing what is known as Dodd-Frank, 
and this was a monumental task, and there are obviously 
different opinions as to its success. And some would say, well, 
therefore, that is in your back--in your rearview mirror; you 
won't have as much to do now. How would you respond to that?
    Mr. Bachus. Several different ways. We have only 
implemented 27 percent of the regulations. We still have at 
least 73 percent of the implementation. The bill may be about 
3,000 pages long, but the regulations presently--and this is--
we are 27, 28 percent through--they fill two bankers boxes. So 
we are dealing with really the largest financial services 
changes in regulation in the history of our country.
    It is putting tremendous stress particularly on our 
community banks and our credit unions. It is affecting their 
financial health. And we are having to oversee a new agency 
with sweeping powers, the Consumer Financial Protection Bureau, 
integrating mergers of different regulators, instituting a 
Financial Stability Oversight Board.
    We are beginning, as with the European crisis, which is--53 
percent of our multinational corporations', American 
multinational corporations', profit is generated in Europe. The 
European banks are having trouble financing American companies' 
operations in Europe. So there is always--every day there is a 
new--there seems to be a new financial challenge.
    The Chairman. One of the biggest complaints I have in my 
district, I deal with the difficulty of small business getting 
loans, and then when I talk to my community bankers, they say 
that some of this regulatory reform and implementation of regs 
that seemingly were done in reaction to what the, quote/
unquote, ``big banks'' did has come down on them in such a way 
that they can't be reasonably flexible and prudent. And my 
response to them has been, among other things, that the 
Congress of the United States is conducting oversight on that, 
and that we are looking at these things, and that as the 
regulatory scheme goes forward, we have to ensure that the 
voices of our constituents, small business community and small 
bankers, that is community bankers, is heard.
    For the record, your committee is one that is charged with 
that responsibility, correct?
    Mr. Bachus. That is right. That is correct. In fact, we 
have passed 15 legislative bills which address small business 
and job creation, and I am happy to report that those were done 
in a bipartisan manner.
    The Chairman. We passed them in the House.
    Mr. Bachus. They have all passed. I think 14 of the 15 
passed the House. We considered three more today.
    The Chairman. What has the Senate done so far?
    Mr. Bachus. Nothing. The Senate has not done anything.
    The Chairman. I want to make it clear that your committee 
is working on these requests for consideration by small 
businesses and community banks in our districts, and that you 
have brought forth legislation. The only reason they say ``do-
nothing Congress,'' and yet on a bipartisan basis your 
committee has considered a number of these things and passed 
out legislation----
    Mr. Bachus. And the Congress has picked them up in a 
bipartisan way, and most of them have passed with over 400 
votes. So there is a consensus in the House that these are 
important measures. I am disappointed in the Senate. It is very 
good work product.
    There are two ways that small businesses can finance their 
operations.
    Mr. Bachus. In fact, 70 something percent of your small 
businesses say that given additional capital, they would hire 
people today. In fact, if you look at the job numbers, 70, 80 
percent of your new jobs are in small businesses.
    And there are two ways for them to build capital or seek 
funds. One is lending, go to a bank and lend. And many small 
businesses, because they are new in many cases, they are 
sometimes risky enterprises and the regulators are urging the 
banks not to take risks. Well, most new businesses don't have a 
track record. So the way that they normally do is raise--have 
capital contributions, people that are willing to come in and 
participate as--you know, put capital in, and, if they lose 
their capital, if the company loses money, they lose their 
investment. But if the company is successful, their capital 
grows.
    And we have passed at least six or seven measures which 
should enable small businesses to raise capital. But none of 
them have been taken up in the Senate.
    The Chairman. I thank you.
    Mr. Bachus. In fact----
    The Chairman. Sometimes we don't connect the budgets that 
you have and the staff that you have with the work that you do. 
And that is certainly vital at this present time.
    Mr. Bachus. And I will say this, I think one thing that we 
all feel great about America; America is a country of 
entrepreneurs. It is a country of risk takers, people who are 
willing to put their capital behind either their own efforts or 
the efforts of others and participate in the profits but share 
the risk. And there are restraints in peoples' abilities to 
become entrepreneurs and to invest in the ventures of other 
entrepreneurs. But as I said, we have, in a bipartisan nature--
and many of the Democratic House freshmen have been the major 
sponsors on some of the bills.
    The Chairman. Thank you.
    So you did double duty here and you get out on time. Thank 
you very much, Mr. Bachus.
    Mr. Bachus. Thank you.
    The Chairman. Thank you very much for being here.
    Thank you for adjusting your schedules to be here at this 
time. Representing the Oversight and Government Reform 
Committees, the chairman of the committee, Mr. Issa; the 
ranking member, Mr. Cummings.
    We would appreciate hearing from you as to how you are 
operating this year with a 5 percent cut that was imposed and 
also how you anticipate operating next year with the 6.4 
percent cut that is projected as a result of the House 
resolution which was passed earlier this year.
    Mr. Issa.

  STATEMENT OF THE HON. DARRELL E. ISSA, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF CALIFORNIA, CHAIRMAN, COMMITTEE ON 
                OVERSIGHT AND GOVERNMENT REFORM

    Mr. Issa. I would ask unanimous consent that my entire 
opening statement, plus collateral material, be placed in the 
record.
    The Chairman. Without objection.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member, these are great questions.
    Ranking Member Cummings and myself have made the 
adjustments to live within our means, barely within our means. 
The fact is that both of us could oversubscribe this year and 
do more as a result. Clearly, I will finish out the year 
obligated greater than the funds available and will then make 
appropriate cuts in the future obligations and hope that next 
year, additional cost savings we can find will allow us to take 
care of those items that we will defer at the end of the year.
    Every committee has an obligation to use the money wisely. 
I think our committee has done that. Every committee should 
look, though, at the Oversight Committee on a bipartisan basis, 
which has for multiple Congresses been moving toward greater 
transparency. Some of these investments include, we broadcast 
every hearing, field hearing or here, to the greatest extent 
possible in realtime. With rare exception, we stream, even from 
the field, hearings so that the public has full access. Every 
single one of our hearings, going back through multiple 
chairmen, are online today and available to the public. The 
investment in making sure we are not just open in discussion, 
but we are open in all access, is critical to our committee.
    We require open government every day, no matter who is in 
the chair. We work together on a bipartisan basis to make sure 
that we open up government. A number of initiatives coming out 
of our committee are designed to invest money in open 
government. The DATA Act and other bills that are pending now 
before the Congress are designed to make government more 
accessible and ultimately, as a result, save money for the 
taxpayers. Sometimes you have to spend money to save money.
    I will tell you that it is my opinion, both having been a 
ranking member and now a chairman and looking at the balance 
between the executive branch and our branch, that we couldn't 
be more wrongminded in what we are doing. Oversight under 
Speaker Pelosi and oversight under Speaker Boehner have been 
spoken of as extremely important. Committees of all 
jurisdiction have been instructed to do more oversight. And 
they have tried. Our committee has tried to do an even better 
job with even less money.
    Having said that, let us just give a couple of comparisons 
that will be more fully laid out in my opening statement. There 
are 12,000 employees that work for or are the IGs of the 
executive branch. They spend over $2 billion, quote, 
maintaining an effort against waste, fraud and abuse.
    We don't have within our committee's jurisdiction or funds, 
the majority and minority combined, enough resources to simply 
assign one person per IG to see what they are doing to see 
whether or not we can help or whether they are doing their job.
    The comparison between the executive branch's resources and 
ours shows the difference in whether or not we maintain 
properly the balance of power.
    Congress, both the House and the Senate, must do a great 
deal more if we are going to contain government. Two 
generations ago, Harry S. Truman asked for and received at the 
start of World War II, a special Senate Committee. That task 
force, the Truman Commission, rooted out waste in government 
procurement at the start of a war. His resources were roughly 
equal to what our combined committee resources equal today. The 
investment saved countless, hundreds of millions of dollars. 
Today that would be tens of billions of dollars.
    We can save $80 billion if we do a better job of oversight. 
We can save a few million dollars if we cut budgets. So today I 
recognize that we will be operating on a 6.4 less next year, 
and we will do what we have to do. But I would say to this 
committee on behalf of our constitutional responsibility, that 
we need to do a great deal more, and we need to allocate the 
resources vastly greater than we are to oversight.
    I recognize that there will be asked for cuts everywhere. I 
would only say here today that cutting across the board, as we 
did last year and as we are being asked to do again this year, 
makes the exact wrong message.
    And, Chairman Lungren, you and I are often asked whether we 
will vote for a 2 percent or a 5 percent across-the-board cut. 
Sometimes perhaps we do, sometimes we don't. But we always say 
it is not the right way to make cuts. The right way to make 
cuts is to say, where should you cut, and where should you 
invest?
    I would say that there are opportunities to cut both in the 
executive branch and in this branch. But there are requirements 
that as government grows, that our oversight, whether done by 
this committee or other committees of the Congress, be in fact 
beefed up, and I would hope that we would make that point here 
today.
    And I lastly would say that many of the efficiencies that 
we are achieving have to do with leveraging electronic 
technology. And for the chairman and the ranking member, I want 
to thank you for the work you have done with the various 
committees to try to give us better resources in the House, 
which we leverage to try to do a better job.
    And I know there is an initiative by the end of the year to 
try to duplicate what we have done doing in our committee so 
that all of the House's historic and current hearings be 
simulcast so the public has the full access so that our 
committee perhaps more uniquely stands with those groups in 
support of.
    And I thank the gentlemen, and I yield back.
    [The statement of Mr. Issa follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you.
    Mr. Cummings.

  STATEMENT OF THE HON. ELIJAH CUMMINGS, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MARYLAND, RANKING MEMBER, COMMITTEE 
               ON OVERSIGHT AND GOVERNMENT REFORM

    Mr. Cummings. Thank you and good afternoon.
    I ask unanimous consent that my entire statement be made a 
part of the record.
    The Chairman. Without objection, it shall be.
    Mr. Cummings. First of all, let me say to you that I 
associate myself with the words of Mr. Issa.
    You know, our staff took a 5 percent cut, which meant that 
almost every employee on my staff took that cut. We have had a 
situation where, of course, now with the 6.4 percent cut, we 
are going to have to let people go. And the work is increasing.
    Chairman Issa is absolutely right. Our--the job that we do 
is one of trying to bring about transparency as best we can and 
accountability. And we have on our side some major priorities 
and one of them being foreclosure. We have taken the money that 
we have, and we have used it effectively and efficiently, 
inquiring into foreclosure with regard to the banks, with 
regard to why this is happening and how we can solve it, 
addressing the head of the various agencies, including Mr. 
Geithner and others.
    But I have got to tell you that to cut, cut, cut, I don't 
think is the way to go, because I believe now that when people 
will hear that Government Reform and Oversight--Oversight and 
Government Reform is even looking at them or thinking about 
them, they begin to tremble because they know that we are going 
to do a thorough job. They know that we are going to be fair, 
but they know that we are going to demand accountability.
    So when you take away resources, I think all that does is 
weaken our position, and at some point, the chairman is right; 
the question is, are you cutting in one place but cutting money 
that could be used to make sure that you maintain that 
accountability?
    I am proud of the job that we have been doing. And I have 
obviously said that we have to be very careful, not only with 
regard to government agencies but to ourselves, that we do not 
become mired in a culture of mediocrity, and that is exactly 
what can happen. If you continue to pull resources away, you 
don't have the personnel. The personnel that you do have is 
stretched to the limit. People then look at a situation where 
they say, wait a minute, not going to get a raise; I am working 
harder and harder. And they don't mind working hard. I know for 
a fact that people on the chairman's staff and my staff work 
very, very long hours, sometimes late into the night, because I 
get the emails.
    And I just think that if we are going to try to accomplish 
the things that we want to accomplish, another 6.4 percent cut, 
I think it does much harm. And again, we will work within the 
bounds that you set for us. I mean, we have no choice. But the 
question becomes at what price?
    And I just think that sometimes we have got to stop and 
think about what we are doing. I realize that everybody wants 
to have cuts here and cuts there, but sometimes, to be frank 
with you, it doesn't make any sense. And in this instance, with 
a committee like ours, doing the things that we do, I think 
other committees kind of depend on us. I mean, when they see 
what we are doing, a lot of times they either use the 
information that we are able to obtain, or they find ways to 
piggy back on what we are trying to do.
    So I would urge--and I would hope that this practice that 
we are going through is not one where we just sort of are 
sitting here and just talking. I am hoping that you are 
listening to us very carefully because I think if there is any 
committee that deserves to have the resources that are 
necessary to do its job is this committee.
    And by the way, our responsibilities are only going to 
increase because again, we are demanding excellence from 
government. Just as we demand excellence from our ourselves, we 
demand excellence from government. And so with that, Mr. 
Chairman, I yield back and thank you very much.
    [The statement of Mr. Cummings follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. I thank both of you for your testimony.
    You remind me of something that I heard from the Supreme 
Court Justice Scalia this summer when he was speaking to a 
group of college students, and he asked them what they thought 
made us the freest nation in the world, what protected our 
freedoms in the governmental sense? And he said it is not the 
First Amendment, not the Second Amendment, not the Fifth 
Amendment, not the Bill of Rights together. He said it is the 
construct of government that was established by our Founding 
Fathers.
    And by way of illustration, he said, what is the British 
equivalent of our President? He said the prime minister. He 
said, what does the prime minister have to be? A sitting member 
of Parliament. He said they have no concept; they have it 
difficult to wrap their minds around our different branches of 
government that create a tension in our constitution for the 
purpose of protecting our freedoms from an overreaching 
government. He said we have a difference between the executive 
and the legislative branch, and that is why I have always been 
so strong on the concept of our responsibility, not just of 
legislation but oversight, of every committee, including your 
committee.
    And when you see the size of the Federal establishment, 
primarily the executive branch, versus the size of the 
legislative branch and we are supposed to do oversight, we have 
to make sure that we have the resources that allow us to do 
that oversight. Because if we are talking about saving 
trillions of dollars, the savings are going to be in the 
executive side, not the legislative side. And in order for us 
to make the proper decisions, we need to have the ability to 
look across the horizon of the executive branch. So I 
understand what both of you are saying.
    We are in very difficult times where we believe it was 
important for us to set the example. We did a 5 percent cut 
from our Members' individual staffs, committee staffs, 
leadership staff, followed up by the 6.4 percent. Reluctantly, 
the Senate joined us. At least the information I have is the 
Senate voted a 5 percent cut for the remainder of fiscal year 
2011 in March, which resulted in a 1.3 percent cut. And now 
they have decided that leadership, committee and support staff 
on the Senate side will be cut 6.3 percent next year, but 
personal staffs by 3.2 percent.
    So I think we are providing that leadership, but I do think 
you make a point. At what point do we say we have to have the 
resources to be able to really do the oversight that is 
necessary on a regular basis, no matter who is President, no 
matter what party happens to control the White House.
    I think as much as I always talk about the trespass on the 
proper legislative role of the executive role by the judiciary, 
I am concerned about the trespass on our job by the executive 
branch by way of regulation, by way of ignoring what we say in 
terms of legislation.
    So I thank you for the work you are doing. We have a 
difficult task. I mean, this is a very different set of 
hearings we are having this year and last year. Usually people 
come before us seeing how much they are going to get an 
increase, and frankly, they didn't pay a whole lot of attention 
when they came here because they expect the increase.
    So we are on different times. Folks back home are hurting. 
I think they expect us to show an example, give an example. I 
think we are. But I think we also have to at some point in time 
say, how are we going to effectively do our role in curbing 
what I think is the excessive spending and the excessive power 
and reach of the Federal Government by way of the executive 
branch.
    I know that is not a question; it is a statement. But I 
thank you for it.
    Mr. Brady.
    Mr. Issa. Chairman Lungren, in answer to your statement, 
just for example, the GAO as an independent body under our 
auspices, shows in the last 5 years under these two 
administrations, $1.8 trillion in the high-risk loss to the 
government. This is either failure to get revenue or excess 
spending. It began at $1.31 billion in 2003. This year, the 
2011, is at 551. At that rate of lost revenue and/or wasted 
money, we are looking at the savings that the supercommittee 
not only didn't get in 10 years; this could have gotten it to 
us in 5. But the rate of growth means that virtually half of 
our projected deficit is right here to be wiped out. But it is 
only wiped out by getting these high-risk groups to actually 
change.
    And many of these, as the chairman and the ranking member 
know, many of these high-risk losses, including the IRS's 
failures, these, in fact, are on the list every year for 10 
years. So it is clear the executive branch won't do it, and if 
we keep doing what we are doing, plus or minus 6.4 percent, we 
won't get it done either.
    The Chairman. Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    If this 6.4 percent comes to you and your committee, will 
you have to lay anybody off?
    Mr. Issa. Yes.
    Mr. Cummings. Oh, definitely.
    Mr. Issa. Both of us hire primarily a great deal of 
attorneys, and they are already paid far less than other 
attorneys, not just in this town but around the country.
    Mr. Brady. That is not making an impact on me, but go 
ahead.
    Mr. Issa. We are the investigative committee of the 
Congress, and I am not a lawyer. The ranking member is an 
experienced lawyer. But there comes a point at which we don't 
get the caliber. So having a few less but maintaining at least 
the minimum salaries so these people don't have to leave 
elsewhere will become necessary. Both the majority and the 
minority are currently under our maximum cap; something we 
never envisioned. We usually bump up against our cap. But that 
has been part of what we have done in anticipation of the 6.4 
percent cut.
    Mr. Brady. Thank you.
    Thank you, Mr. Chairman.
    Mr. Issa. If you want to say, darn it, we have changed our 
mind, we are going to give you the increase you need in order 
to do the oversight, we will take it from somewhere else, is 
there a motion on the floor?
    The Chairman. Darrell, I have known you long enough that I 
knew I didn't need to have to say that. Thank you very much.
    Mr. Issa. Thank you.
    [Recess.]
    The Chairman. All right.
    The committee will now welcome Vice Chairman Sessions and 
Ranking Member Slaughter of the Committee on Rules. We would 
ask you to give us an idea of how you have been operating this 
year with the 5 percent cut that was imposed by the resolution 
passed by the House and how you will operate with the expected 
6.4 percent cut as a result of the House resolution passed by 
our Chamber earlier this year.
    Mr. Sessions.

   STATEMENT OF THE HON. PETE SESSIONS, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF TEXAS, VICE CHAIRMAN, COMMITTEE ON 
                             RULES

    Mr. Sessions. Mr. Chairman, thank you very much. And also 
certainly, Ranking Member Brady, I want to say thank you for 
allowing Louise Slaughter and I the opportunity on behalf of 
Representative David Dreier, who is still on an official 
business mission over in Egypt as an observer for the free 
elections in that country.
    Today what I would like to do is represent Chairman Dreier 
and let you know that the Rules Committee is the tool by which 
this House of Representatives manages its legislative agenda 
and schedule. And it is a very small committee, a small staff, 
but I believe has a very important responsibility.
    And as we work to meet that responsibility, we have been 
busy in the last 11 months. We have reported 76 rules that 
allowed 89 bills to come to the floor. We have also processed 
more than 900 amendments and 103 revisions. The end result is 
that floor debate, I believe and the chairman believes, is more 
open than it has ever been by either party for sure in the 15 
years that I have been here, and it has, I believe, changed in 
a positive way the way that we do business. And the 
accessibility and the ability for the Rules Committee to 
continue this important mission is why we are here today.
    We also serve the House as a whole and our award-winning 
Web site serves as a location where members and the public can 
go quickly to the latest text of bills and to amendments. And 
we are working closely with the Clerk and the Government 
Printing Office to streamline our document production and to 
reduce printing costs. We are doing this as a result of not 
just trying to stay more efficient but also because we need to 
do that. We need to do that because, as you have already 
alluded to, Mr. Chairman, a 5 percent reduction from 2010 
levels has made us change the way we operate.
    But we have been able to meet our obligations. We are 
staying lean, and we are leveraging our investments in 
technology to do more with less.
    We understand that the committee is also considering, as 
the chairman also said, a 6.4 percent reduction for next year. 
And we estimate that we will be able to continue to meet our 
obligations under a reduced budget. Again, in order to do that, 
once again, we are going to use technology, and we are going to 
try and do more with less by streamlining our operations.
    This year also represents the first year when the Rules 
Committee minority has controlled a full one-third of the 
budget. We are concerned, however, that next year's cut may 
disproportionately affect the minority simply because they have 
a smaller share of that budget.
    Chairman Dreier has committed to Ranking Member Slaughter, 
who is here with us today, that he will continue to work with 
her on essential needs that she has in order to perform the 
duties that are necessary, not just to her party but also to 
the overall effectiveness of the Rules Committee.
    Finally, we want to encourage the committee to exercise 
caution in future years because the role of the Rules Committee 
is unique, and we believe that further additional cuts, even 
though we are working within the context of what we have been 
given, would mean that it would affect us and our ability to 
effectively get our job done.
    So with that said, I note you may want to go and allow 
Ranking Member Slaughter to give her words, but I will open 
myself up for any questions that you have on behalf of the 
committee.
    [The statements of Mr. Sessions and Mr. Dreier follow:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much, Mr. Sessions.
    Ms. Slaughter.

  STATEMENT OF THE HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF NEW YORK, RANKING MEMBER, COMMITTEE 
                            ON RULES

    Ms. Slaughter. Thank you, Mr. Chairman, Ranking Member 
Brady, and our fellow Rules Committee person, Mr. Nugent.
    I am glad to be here with you today regarding the budget 
request for the Committee on Rules. As I testified to the panel 
earlier this year, the Rules Committee has a long and great 
tradition, regardless of which party controls the House, of 
conducting its administrative functions in a collegial, 
nonpartisan way.
    Although we often disagree about important policy issues, 
we have a deep respect for our committee and for each other, 
and we have always managed to ensure that it can fulfill its 
unique and essential role. The tradition of working in a 
bipartisan fashion on our budget and administrative activities 
continues today.
    Chairman Dreier, as Mr. Sessions has said, has already said 
that we will be able to work together on problems that we may 
have in the minority. We are fully prepared to continue those 
efforts in the next session as we implement the additional cuts 
that will be approved by the House.
    I would like to highlight one important concern that has 
been raised by Mr. Sessions, a concern which I share. Given the 
unique circumstances of our committee and the relatively small 
size of our budget compared to other House panels, an 
additional 6.4 percent reduction next year could have, as Mr. 
Sessions noted, a disproportionate impact on the minority. So, 
given this concern, I appreciate Chairman Dreier's commitment 
to work with us next year to make sure that the essential needs 
of the minority are met.
    As ranking member, I look forward to working with Chairman 
Dreier and the other members on the committee to continue to 
make our committee transparent, fair and responsible.
    Thank you very much.
    [The statement of Ms. Slaughter follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. I thank both of you for your testimony.
    Just a question, are all proceedings before the Rules 
Committee now televised?
    Ms. Slaughter. Yes.
    Mr. Sessions. Mr. Chairman, I believe that all of them are. 
I don't know that they are live necessarily, but I believe that 
all of the committee hearings would be made available.
    Ms. Slaughter. I think they are streamed in real-time.
    The Chairman. Well, I just want to thank both of you on 
that.
    I always wondered why the Rules Committee, as important a 
committee as it is, has the smallest hearing room in the entire 
House of Representatives.
    Ms. Slaughter. With the worst ventilation on the face of 
the Earth. When we have a long hearing----
    The Chairman. At least you have got a heater. If you had 
been here earlier, you would have said you wish you were back 
in the Rules Committee. But we have managed to bring our 
temperature up to almost comfortable.
    Ms. Slaughter. We watch them drop off one by one.
    The Chairman. I just want to say, I think it is important 
for the American people to be able to see what is happening 
with the Rules Committee because otherwise it is kind of like 
the mystery of the Supreme Court. It is almost too important 
for the public to see it, which is a bugaboo of mine. I think 
the court ought to allow people in.
    I could never understand why we didn't make every effort to 
be as transparent as possible in the Rules Committee, where 
people could see what the Rules Committee does, which is very, 
very important in setting the rules of the terms of the debate 
up for the floor. And often, I think there is a great advanced 
debate on some of the issues that are going to be on the floor 
before the Rules Committee, and I think it is very highly 
educational for members to see it and the public to see it.
    So I am very, very pleased that that is the case. I know 
that there are--I have noticed before the Rules Committee that 
occasionally the two of you have differences of opinion. But I 
am pleased to see that there is acknowledgement of the 
cooperative spirit with respect to the administration of the 
committee itself.
    Ms. Slaughter. Exactly. That has existed as long as I have 
been on the committee. And Pete would say the same thing.
    The Chairman. And I know these cuts are tough. I happen to 
think we have an obligation to show the American people that we 
would lead. At some point in time, we have to make sure that we 
still have the capacity to do the job that we have to do as a 
coequal branch of government, particularly up against that 
large behemoth called the executive branch. That is why 
oversight is so important.
    But we are going ahead with that. There are tough decisions 
that we are to make here on the committee. The expectation is 
about 6.4 percent for all committees. We will see what the 
final decision is. But I am happy that you at least are 
prepared to work within that.
    Ms. Slaughter. Indeed.
    Mr. Sessions. Mr. Chairman, I believe that your points are 
well made, and I believe that what the gentlewoman has spoken 
about is a level of consistency and professionalism. We believe 
we have now cut there. And we were very eager as a committee, 
all of us, Republicans and Democrats, to recognize that the 
House of Representatives must lead.
    We now think we have done our peace dividend, and it has 
given us what we have got. But we have to make sure; for 
instance, we had a hearing problem; you could not hear 
effectively in the room, and we had to make some other changes 
that were necessary. But we will get our job done. But we have 
now tried to also say, well, we have accepted the 5 percent, 
the 6.4 percent. We think any further cuts would need to be 
reviewed as to what we could----
    The Chairman. Let us make it clear, the 6.4 percent is on 
the reduced number. So it is actually, over 2 years, more than 
10 percent. Probably closer to 12 percent. What if we could get 
the executive branch to accept a 12 percent cut over 2 years? 
It might balance the budget.
    Ms. Slaughter. To show how frugal the Rules Committee is, 
our chairs, the chairs on which we sit--and I really admire 
yours--were purchased in 1967. They have not been changed in 
all this time, although some of them are getting a little 
shabby. But I think we don't ever spend money up there 
frivolously.
    The Chairman. I am glad to hear that you are using antiques 
so well over there.
    Ms. Slaughter. We did go through a flurry of looking at 
some chairs and we said, no never mind.
    The Chairman. Mr. Chairman.
    Mr. Ranking Member, former chairman.
    Mr. Brady. Thank you. Sometimes being comfortable has a 
disadvantage.
    Ms. Slaughter. Well I tell you being uncomfortable and not 
being able to breathe. I mean, we certainly do feel from time 
to time that we would like a little relief.
    Mr. Brady. Thank you.
    I would like to ask the majority and the minority if these 
cuts become effective, would you lose any staff? Would you have 
to lay anybody off?
    Mr. Sessions. We anticipate that as the change--when we 
find out what this will be, that we will balance that with the 
technology that needs to be gained and try to change the 
functions. At some point, there could be a push to have to do 
that, but at this time, we are not necessarily believing that 
that would occur.
    Mr. Brady. The minority also?
    Ms. Slaughter. We had the normal attrition going from 21 to 
11 with the change in majority/minority. We hope not to have 
any more layoffs. What we do have, though, is a vacancy of one 
of our major positions that we hope to be able to fill. And we 
have worked with Mr. Dreier on being able to do that.
    Mr. Brady. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. If you wouldn't continue to raid our Homeland 
Security Committee for Parliamentarians, maybe you wouldn't 
have to worry on your budget.
    Mr. Nugent.
    Mr. Nugent. Well, as one of the junior members of the Rules 
Committee, I didn't realize the chairs----
    Ms. Slaughter. 1967.
    Mr. Nugent. My goodness.
    Ms. Slaughter. I have a child that age.
    Mr. Nugent. As many times as we meet, which is quite often, 
those are the lousiest chairs.
    Ms. Slaughter. I'm expecting we are going to have a 
collapse of one or two of them any day now.
    Mr. Nugent. I would think so. I want to thank both of you 
for appearing. It is a pleasure to serve with both of you on 
the Rules Committee.
    I will say this, that there is a lot of mystique about the 
Rules Committee because it was not, I guess, televised in years 
past. I recommend that all Members come up in front of the 
Rules Committee at least once to see how the process works. It 
is a lively and open debate.
    Ms. Slaughter. Yes indeed.
    Mr. Nugent. One thing is there is no time limit on members 
to speak in front of the Rules Committee. So it certainly does 
keep things lively. Thank you very much.
    Ms. Slaughter. Thank you, Mr. Nugent.
    The Chairman. So all of the aspiring Senators get to 
testify in front of the Rules Committee, is that it?
    Mr. Nugent. Basically they could filibuster that one.
    The Chairman. All right. I want to thank both of you for 
appearing before us. We appreciate the work you are doing. And 
once again, I am very pleased to see that we have live 
streaming of the proceedings before the Rules Committee.
    Mr. Sessions. Mr. Chairman, all we ask is that as you work 
through this process, if you will work with us to the best of 
your ability, we can then effectively plan our process. And we 
appreciate this committee and what they do, and respectfully 
would say to you that we believe that Mr. Nugent being on this 
committee is a plus for the Rules Committee because it brings 
the understanding of the importance----
    The Chairman. That is true and your budget is all on him. 
Thank you very much.
    Ms. Slaughter. Thanks for your hospitality.
    The Chairman. Gentlemen, thank you for appearing before us.
    We now have the chairman and the ranking member of the 
Transportation and Infrastructure Committee. We would ask you 
to give us some idea about how the 5 percent cut affected your 
committee operations this first session, and you know, what 
efficiencies did you utilize? And we are facing a 6.4 percent 
cut for all committees as a result of the resolution passed by 
the House earlier this year, and we would love to hear from you 
on your ideas of how you are going to manage with that.
    Mr. Mica.

    STATEMENT OF THE HON. JOHN L. MICA, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF FLORIDA, CHAIRMAN, COMMITTEE ON 
               TRANSPORTATION AND INFRASTRUCTURE

    Mr. Mica. Thank you.
    And let me try to summarize, and we will submit this whole 
statement to the record. But we have, as the Transportation and 
Infrastructure Committee, lived within our means. In fact, we 
intend to return to the Treasury a greater amount in 2011 than 
was returned in 2010.
    Part of that was accomplished by not fully staffing up. We 
have had to not fill some positions. We have tried to do more 
with less, both as far as personnel and also with our public 
resources.
    We have at the same time run a full operation. We have done 
probably close to an unprecedented series of public hearings 
during the past year on major legislation across the country, 
and we have allowed members on both sides of the aisle to 
travel. I don't think any request has been denied that 
conformed with the rules.
    We have a full schedule ahead, but I think we can do it 
with--within the 6.4 percent and maybe even better than that. I 
know you are going to hear from my counterpart, the Democrat 
ranking member, they have had a rough time of it. And they did 
transition into the minority. And I recall from Mr. Rahall that 
I had to do the same thing some 4 or 5 years ago when I became 
the ranking member. We went from 58 or 59 positions to 29, and 
that was also right about the holiday time, which wasn't an 
easy task. But both sides, minority and majority, in difficult 
times, the public has had to cut back.
    We have asked others to be more frugal and more productive 
and that is what we have hoped to achieve. I don't think it is 
going to impede with any of our agenda, and we do have a full 
agenda for the next year.
    So, with that, I will also submit this longer testimony. 
But we appreciate your work and yield back.
    [The statement of Mr. Mica follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much, Mr. Chairman. Mr. 
Rahall.

 STATEMENT OF THE HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF WEST VIRGINIA, RANKING MEMBER, 
         COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

    Mr. Rahall. Thank you, Chairman Lungren and Ranking Member 
Brady, for having us back for this mid-Congress review of our 
committee's budget. As a general matter, I have no complaints 
regarding the way in which the T&I Committee handles 
administrative functions. I control one-third of the budget for 
salaries, and office supplies and electronic equipment are 
dealt with on a non-partisan basis. At the beginning of the 
year, I was able to fill 27 of the 29 staff slots allotted to 
me with available funds for salaries.
    When the 5 percent committee funding reduction came down 
earlier this year, my senior staff took an across-the-board 
reduction in their salaries. As you contemplate an additional 
6.4 percent cut for next year, I believe that the only way we 
will avoid any further salary cuts is through attrition.
    I want this committee to know that I am fully aware of the 
problems this Nation faces in terms of fighting high 
unemployment rates and the overall economy. We all are quite 
aware of those facts. But if we continue to follow the path of 
consistently reducing House committee budgets, this place, I 
fear, Mr. Chairman and Ranking Member, will be staffed only by 
20-somethings because we will not be able to retain 
professional staff.
    Nothing against 20-year-olds, just I feel very strongly 
that the knowledge, the institutional memory, the background 
and the history of this institution afforded by those with 
experience to advise us on conflicts, legislative issues is 
vital to our functioning as effective Representatives of the 
people. And that, I would submit, if we were to allow only the 
younger--without this type of knowledge, we would not be best 
serving the American people.
    In the case of the T&I Committee, we would not have the 
type of staff who knows the difference between contract 
authority under the Highway Trust Fund versus the General Fund 
authority, and who know when we talk about slots at Reagan 
National Airport, we are not talking about expanding gambling.
    So I think it is important that we have that type of 
knowledge. And you know who would be grinning from ear to ear 
if we are not able to retain the experienced staff to which I 
reference, it would be K Street, because the lobbyists will be 
writing the bills, sending them up here for us to automatically 
introduce, and I hardly think that is in the best interest of 
the American public.
    Thank you, Mr. Chairman.
    [The statement of Mr. Rahall follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. I thank you much, Mr. Rahall.
    I heard a rumor that you were a 20-something once; is that 
right?
    Mr. Rahall. I guess I was.
    The Chairman. Thank you for your testimony.
    Could you outline for me, Mr. Mica and Mr. Rahall, what the 
oversight responsibilities are within the jurisdiction of your 
committee?
    Mr. Mica. Well, they are significant. We do have--we have 
an investigative staff on the majority side. And we, of course, 
cover all modes. We have also taken on some responsibility for 
oversight in the areas for which we have had previous 
authorization authority, but we continue oversight. For 
example, TSA, we just finished a 4-month pretty comprehensive 
review of their activities. So, both within all of the modes, 
highway, surface, rail, aviation, we try, both within our 
subcommittees and then we have separate investigative personnel 
to assist us with oversight and investigations.
    The Chairman. Is that done on a bipartisan basis, the 
minority----
    Mr. Mica. They are welcome to participate. We have 
operated--I think they do some, and we do some. And we always 
open any of our reports to their comments for minority report.
    The Chairman. Mr. Rahall, do you have anything to say about 
oversight?
    Mr. Rahall. I think the chairman has adequately described 
our oversight. He did mention public buildings also. That is a 
very important part.
    Mr. Mica. And we have done a--I think we have done a pretty 
good job, too. We should have a bipartisan bill coming up 
pretty soon to dispose of some of the property in a more 
orderly fashion. But we have published a report, when we were 
in the minority, we did a report entitled ``The Federal 
Government Must Stop Sitting on Its Assets.'' And that has 
become sort of the blueprint for what we want to do, take 
buildings that have been vacant for sometime. The first hearing 
we did, an oversight hearing on the subcommittee we held down 
in a building half occupied, the old post office, next door, 
totally unoccupied, 60,000 square feet, two blocks from the 
U.S. Capitol. It happened to be in February; we did it in a 
building with no heat, which got a little bit of attention from 
GSA, and a little bit of movement working with Ms. Norton and 
Mr. Rahall and a great young leader, Mr. Denham.
    In fact, now I am seeing that the proposals have come in. 
And instead of spending--costing us those buildings $10 million 
a year, that we will have that much in revenue. They are 
planning hotels, other improvements, and will employ about 
1,000 people in the District of Columbia. So we can turn lemons 
into lemon aid, and our committee is working hard on oversight 
to do that.
    The Chairman. We have a very difficult situation here in 
the Congress in which we have decided that we as a Congress do 
not involve ourselves in earmarks, and yet at the same point in 
time, there has been a historic record with respect to the 
Federal Government under the constitutional waters of the U.S., 
et cetera being involved in water projects, participating with 
local and State governments. Is it your committee that would be 
given the responsibility of trying to thread that needle 
between what is earmarks----
    Mr. Mica. Did you say water projects?
    Mr. Rahall. Yes, Corps of Engineers.
    The Chairman. And water projects which have always been 
something from the beginning of the Republic, as I understand 
it, there has been a Federal nexus to that.
    Mr. Mica. About some 11 months ago, I inherited a laundry 
list of to-do items that were left over, including a 4-year 
delayed FAA bill, including a more than year delayed 
transportation bill, now 2 years delayed, the reauthorization 
for Coast Guard pipelines and other things that needed to be 
done, and we have--we have moved forward. My hope is to get 
that FAA bill by working with Mr. Rahall hopefully by 
Christmas. And we got word today that we will have a little bit 
more time in January for the major transportation bill. We 
would like to get it out, but we have a jammed schedule, as you 
know.
    But to answer your question, I would like to turn, with Mr. 
Rahall's consent, to a water resources reauthorization bill, 
and maybe we can't do earmarks as they used to do, but 
hopefully, we can prioritize projects, and I think Members of 
Congress deserve to be heard and also to help influence what 
gets done on what priority basis.
    Mr. Rahall. In addition, though, Mr. Chairman, I think our 
Army Corps of Engineers needs some direction on these projects. 
These are dams and other infrastructure projects across our 
country, many of which are in dire need of repair. And if they 
don't receive that repair and, God forbid, a disaster occurs, 
it is going to cost our government many times over in disaster 
recovery efforts, FEMA efforts, displaced housing and other 
untold expenses that will naturally occur if a disaster of that 
type would occur.
    So the Corps of Engineers responsible, of course, for doing 
these projects needs that type of direction or authority from 
the Congress.
    Earmarks in general, you know, when we were in the majority 
under then Chairman Oberstar, we had an extensive scrutinizing 
of every Member's request for a project. We had an extensive 
survey that went out to those Members. The responses to those 
questions scrubbed every aspect of an earmark or project 
request, local support, nobody would benefit personally, et 
cetera, et cetera, et cetera. And of all of the hundreds of 
projects we did, there was little if any--I cannot recall any 
pushback that we had from any outside group that scrutinizes 
our requests, our projects because every project was found to 
be worthy of the Member requesting it. So, you know, there is a 
process here that if we are open and transparent with the 
people, that I think is proper in whatever process you want to 
call it.
    The Chairman. Do you two believe that you have sufficient 
staff to be able to work on that project this coming year?
    Mr. Mica. I do.
    The Chairman. That is--I am trying to find a solution to 
what we do in terms of water projects. You have a President who 
said he won't sign a bill with earmarks. So we voted that we 
won't have any earmarks. The Senate has voted they won't have 
any earmarks with respect to certain things. Well, I guess the 
Senate hasn't.
    But somehow we have to confront that question, what do we 
do with water projects? And it is going to be a real heavy 
lift. And I just want to know whether you think you have got 
sufficient staff that you can work on that next year.
    Mr. Mica. On the majority side, we have great staff, fully 
staffed Subcommittee on Water Resources, experienced personnel, 
and I think the staffs have worked very well together. But we 
are going to try to do that bill. A lot depends on what our 
leadership agrees to. We can't bring any bill to the floor, Mr. 
Rahall and I. And I would like, if I had my druthers, by 
Friday, we would finalize our transportation bill, and then we 
would introduce it on Monday together and mark it up next week 
and have it on the floor. But we do not have that ability.
    The Chairman. Okay.
    Mr. Rahall. Yes, to answer your question.
    The Chairman. Okay.
    Mr. Brady.
    Mr. Nugent.
    Thank you both. We appreciate it.
    Now the Armed Services Committee.
    Mr. Rahall. Where do we get the check?
    The Chairman. It is in the mail.
    Welcome. It is good to have you here. Armed Services 
Committee Chairman McKeon, Ranking Member Smith. We appreciate 
you being here. We would ask that you give us an idea of how 
you were able to operate this year after we had the 5 percent 
cut that we imposed and the expected 6.4 percent cut for the 
upcoming year and the kinds of efficiencies that you were able 
to implement and those that you look at for the coming year.

      STATEMENT OF THE HON. HOWARD P. ``BUCK'' MCKEON, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA, 
             CHAIRMAN, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman, Mr. Brady, 
distinguished members of the committee. Thank you for the 
opportunity to testify on behalf of the Armed Services 
Committee's funding requirements.
    I am also grateful to have my good friend, Ranking Member 
Adam Smith, here today also.
    Our committee has one of the widest, most critical mandates 
in Congress. We conduct oversight of a military that is engaged 
in combat operations in Afghanistan, the Horn of Africa and 
Yemen, sustaining a drawdown from Iraq, successfully concluding 
operations over Libya and are engaged in a wide variety of 
training and assistance missions in support of our allies 
globally.
    We further oversee a Defense Department that is undergoing 
one of the most revolutionary periods in its history, both from 
a strategic and a budgetary perspective.
    The tasks we ask our military to accomplish have greatly 
expanded since the end of the Cold War. Annually and without 
fail, we produce a National Defense Authorization Act, which 
fulfill's Congress' constitutional obligation to provide for 
the common defense.
    We further conduct a steady series of hearings that, under 
the direct--under the joint direction of Ranking Member Smith 
and myself, have included rigorous oversight to improve 
efficiencies, spending and acquisition programs in the Defense 
Department without compromising our national security.
    We also must ensure that our men and women in harm's way 
are properly equipped, supplied, trained and led. Our staff 
provides--prides itself on doing more with less. This committee 
provides the American people with an admiral bang for their 
buck, especially given our low number of staff relative to the 
immense number of defense dollars we are charged with watching.
    We rank 12th in overall funding and second to last in 
member-to-staff ratio, with 1.15 staffers for every member. It 
is important to note here that we are the largest committee in 
the House with 62 members. We are proud of our long history 
operating in a fiscally conscious manner. That history includes 
time-tested operating practices that eschew excess and focus on 
providing legislation that is on time, on budget, without fail.
    It is worth noting that in addition to the broad Defense 
Department portfolio, we also provide significant oversight and 
resourcing to the Department of Energy. With that in mind, it 
is my opinion that the Armed Services Committee stands above 
our fellow committees in both cost effectiveness and 
productivity.
    Though we have long been a model for fiscal efficiency, we 
understand that we live in tough economic times. And everyone 
must sacrifice in order to right our financial ship. However, 
after absorbing a tough 6.8 percent cut from 2010 to 2011, I 
must strongly caution against any further decrease beyond 1 
percent from our 2012 budget. It is important to note that 
approximately 98 percent of our budget goes to payroll. We 
currently have 69 staff members, but should the committee 
receive a 6.4 percent cut, the only way to achieve budget 
compliance would to be reduce our workforce, which as I noted 
already has the second lowest member-to-staff ratio in the 
House.
    We did not provide COLA allowances in 2011 and currently do 
not have resources to offer COLA or nominal end-of-year bonuses 
in year 2012. These staffing shortages were the reason I 
requested that our committee be reduced in member numbers last 
year. I was, unfortunately, unsuccessful in this appeal.
    It should be noted that the committee absorbed this year's 
reduction by delaying the equipment and supply purchases and 
slowly backfilling six staff vacancies created from the new 
Congress reaching 69 staff in August. The committee intends to 
utilize any nominal remaining funds for necessary equipment, 
Web hosting and database upgrades and supplies in anticipation 
of next year's budget reduction.
    To date, the committee still hopes and expects to return 
$50,000 of this year's funds. A 1 percent cut coupled with the 
over $540,000 decrease we absorbed last year would still 
significantly impact the effectiveness of our personnel and the 
committee's mission but would allow us to perform the basic 
functions of the committee.
    Within that cut, we would operate at absolute bare bones 
for technology, equipment and incentives but would be able to 
sustain our most critical resource, our staff levels.
    Additionally, committees have been directed to reinstitute 
reimbursement of Government Printing Office detailees. This was 
neither expected nor budgeted for at the beginning of this 
Congress. Due to the volume of hearings, the committee holds, 
over 113 this year, we have come to rely on our two GPO 
printers. However, coming in at a cost of approximately 
$225,000, it cuts into personnel funding, funding needed to 
sustain our current staffing level.
    As you know, attracting seasoned professionals, many of 
them military veterans, to staff our ranks is one of our top 
priorities. These staffers are our physical warriors, working 
to ensure through their oversight the defense programs are 
brought in on time and on budget. Forcing us to shed key talent 
from our ranks represents a penny-wise/pound-foolish strategy, 
as we would lose the ability to properly monitor certain areas 
of Pentagon spending, some of which account for billions in 
taxpayer dollars.
    Further cuts would stretch the remaining staff, already 
overworked by a wartime portfolio, and harm their ability to do 
their jobs. This committee has always stood ready to do its 
part and pay its fair share.
    But Mr. Chairman, you simply cannot scrutinize an agency 
like the Defense Department on a skeleton crew. I frequently 
note that the charge of our committee is specifically 
enumerated in the U.S. Constitution. The Armed Services 
Committee has faithfully executed that charge through good 
times and bad, and we pride ourselves in accomplishing this on 
a fully bipartisan and cost-efficient basis.
    Thank you for your time, Mr. Chairman. And I am happy to 
answer your questions once Ranking Member Smith completes his 
opening statement.
    [The statement of Mr. McKeon follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much.
    Mr. Smith.

STATEMENT OF THE HON. ADAM SMITH, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF WASHINGTON, RANKING MEMBER, COMMITTEE ON 
                         ARMED SERVICES

    Mr. Smith of Washington. Thank you, Mr. Chairman. I have a 
full statement I will submit to the record, but I will 
summarize.
    I agree with all of the chairman's statements and just want 
to start by answering your question about how we found the 
efficiencies. I think the chairman has done a pretty adequate 
job of that. We reduced our overall staff level. As has been 
mentioned, relative to the size of our committee in terms of 
members and also relative to the size of the budget that we 
oversee, we already have one of the smallest committee staffs 
in Congress.
    So we found those efficiencies where we could, and I 
believe we are on a very lean, mean operation already. Further 
cuts would require reductions in staff, which would make that 
more difficult, and I agree with the chairman's assessment that 
that should be avoided, and I do think we should look at, 
committee by committee, the circumstances and where they are 
at, and not simply take a broad brush and say, we are going to 
cut everything across the board. It does differ in terms of 
responsibilities that different committees have.
    I believe we have a fairly large responsibility and more 
importantly I think we have already put in place efficiencies 
that have got us to a more efficient use of our staffing. The 
numbers reflect that. So I think a simple across-the-board cut 
approach at that point would be unfair to those of us like our 
committee who tried to find those savings up front in the first 
place to run a more efficient operation.
    And the Department of Defense in general, given the size of 
the budget and the responsibilities, our responsibility for 
oversight and to implement the defense authorizing bill which 
allocates those funds is enormous in the best of times. But we 
are still at war in Afghanistan. That requires a substantial 
amount of oversight. We are facing the specter of 
sequestration, given the inability of the supercommittee to 
find necessary cuts. Trying to plan for those significant 
changes is a huge, huge responsibility for the staff and for 
the members of the committee.
    To force further reductions in our staffing would, quite 
frankly, undermine our ability as committee members to exercise 
appropriate oversight over how the Department of Defense spends 
its money and, as importantly, what strategic choices they make 
in making sure that our national security is protected. That is 
one of the paramount duties of the legislative branch, is to 
exercise that oversight and provide for our national security. 
And our staff is absolutely critical to us successfully 
accomplishing that task.
    And I hope the committee will keep all of that in mind as 
they try to figure out what to do in this admittedly very, very 
difficult budget environment.
    And with that, along with the chairman, I am happy to 
answer your questions.
    [The statement of Mr. Smith of Washington follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much.
    Let me ask you this. Some would say that the failure of the 
Congress to reach agreement with the special select committee 
or supercommittee, whatever we call it, requires sequestration 
in the military and that, therefore, your responsibilities 
would be less rather than more because these are across-the-
board cuts in the Defense Department, as opposed to you 
carefully going through and finding out where cuts should be 
made versus where they should not be made. How would you 
respond to that, both of you?
    Mr. Smith of Washington. In two ways. First of all, it is 
far from clear that sequestration is going to happen. I think 
if you polled the majority Members of Congress, they would say, 
we are not going to let that happen, one way or the other; we 
are going to find that $1.2 trillion. Sequestration doesn't 
happen until January 2013. So the actual situation the DOD and 
those of us committed to doing the oversight of it find 
ourselves in now is we don't know, we don't know how much money 
there is going to be for the fiscal year 2013 budget, even as 
we are trying to plan it. So that increases the workload; it 
doesn't decrease it because you have got to play out two, 
three, four, five, maybe more, different scenarios about how 
much money you are going to have, to do what? And even if it 
winds up being straight sequestration, there are a number of 
choices involved in that and how you move money around in other 
places to try to deal with that. I cannot imagine an argument 
that says that the specter of sequestration coming down at us 
reduces our workload. Our staff would laugh out load at that 
notion. It clearly increases it.
    The Chairman. Mr. Chairman.
    Mr. McKeon. We already are faced with cuts of about 
somewhere between $465 billion and $500 billion that will be 
budgeted next year. So we are going over the next 10 years, we 
are looking at about a $50 billion annual cut; sequestration 
hits, you have another $50 billion on top of that. One thing we 
could do is just eliminate the Defense Department, and we could 
probably save our whole budget. But I think that most of us 
would agree that the world is a much safer place than it has 
been. I mean, with the places we are already fighting right now 
and with the prospects of what is happening in Egypt and Iran; 
I mean, we just have to turn on the TV every morning to see 
what new place is erupting. North Korea sank a South Korean 
ship. We were very close to war in this last year, and South 
Korea says, the next time it happens, they are going to take 
action.
    So--I mean, to think that we are on the verge of cutting 
our Navy to the lowest it has been since World War I, to 
cutting our Air Force down to the smallest it has been since it 
was put into existence, to cutting 200,000 end strength off of 
our Army and our Marines, and think that we are not going to 
have to spend a lot more time trying to decide what they should 
be doing and how they are going to be able to do it and 
overseeing the Pentagon to make sure that the proper cuts are 
being made. I think our staff has done a fantastic job this 
year on preparing us for these future problems that we see 
coming at us. And I think to contemplate that we are going to 
have to cut them down--we already are authorized 71, and we 
have only filled 69 slots. And it looks like if these cuts that 
are contemplated--if everybody gets the same cut and we are not 
spared any--given the fact we are already so low on the totem 
pole, we would have to lose five staff people is the nearest we 
have been able to figure. And I tell you, we are not wasting 
any money in our committee.
    The Chairman. Mr. Brady.
    Mr. Brady. Yes.
    Thank you, Mr. Chairman.
    Mr. Chairman, losing five spots, losing five people on your 
staff, is that the minority and the majority together or just 
the minority side?
    Mr. McKeon. We do our staff different than probably any 
other committee. It is bipartisan. So when we had the 
transition from majority to minority, we were able to use a lot 
of the same people. We didn't have to go through some of the 
things that some of the other committees have to go through. So 
when we cut, it would be--it would affect both the majority and 
the minority.
    Mr. Smith of Washington. We do have some staff that are 
specifically assigned to the minority. I have got 14 spots, one 
of which is actually split between my office and the committee. 
But the larger--the bulk of the folks on the committee work in 
a bipartisan way. That staff would impact minority as well as 
majority, the losses there.
    Mr. Brady. Mr. Chairman, I am probably one of the most 
fortunate people in this Congress. I have been allowed to be 
able to be on two committees. This one here, which I have a 
great relationship with my chairman and the members, and the 
Armed Services Committee, which I also have a great 
relationship with my chairman and the ranking member. And the 
class that they show on committee hearings--and we don't always 
agree, like you and I don't always agree, but we don't always 
become disagreeable. We don't hold any grudges, and we don't 
let the American people be responsible for any bad actions that 
we do do from time to time. And I do think that that is a 
reflection of the trickle down from the leadership, both in 
this committee and the Armed Services Committee. And I thank 
you both for allowing me to be a member of that committee and 
be able to function. And I thank you for being here.
    The Chairman. We thank you very much. You have made a 
strong case.
    It is a pleasure to have the chairman and the ranking 
member of the committee most sought after by Members of 
Congress upon which to serve in the entire Congress. I salute 
you for the service that you do in this regard because it is a 
thankless but necessary job and one that serves the institution 
and Members and the country well. So I appreciate your service.
    We would like you to give us an idea of how you have been 
able to operate this last year under the funding restrictions 
we had, 5 percent cut; how you would be able to operate under a 
proposed 6.4 percent cut; and efficiencies that you have 
already put into effect, and those that you would project to be 
put into effect in the next year.

 STATEMENT OF THE HON. JO BONNER, A REPRESENTATIVE IN CONGRESS 
    FROM THE STATE OF ALABAMA, CHAIRMAN, COMMITTEE ON ETHICS

    Mr. Bonner. Well, Chairman Lungren, Ranking Member Brady 
and members of the committee, thank you very much for inviting 
Congresswoman Sanchez and me to share with you today, to the 
best of our ability, some of the budget challenges facing the 
Ethics Committee. And thank you also for your nice comments 
about service, and I say that on behalf of all the members of 
the committee, present and former, who have served on this 
committee.
    I trust that the Committee on House Administration probably 
more than most committees appreciates the fact that some of our 
funding challenges are made more difficult by some of the work 
that our committee does, which specifically, because of our 
strict rules of confidentiality out of necessity, might prevent 
me from answering some of the questions which would normally 
come from your committee to committee chairmen and ranking 
members, especially those who might be seeking additional 
funding.
    As you well know, the Ethics Committee has a distinct and 
vital role within this body and in many ways is more like your 
own committee in that our mission is mostly internal and 
nonlegislative. In much of our work, particularly in the area 
of advice, education and financial disclosure, our objective is 
to have a customer service-oriented focus such as the Offices 
of the General Counsel and the Parliamentarian. In addition, 
the committee serves as the internal agency disciplinary 
office, a role of equal importance, that also presents unique 
responsibilities and challenges for our investigative team.
    In all of these roles, as your committee staff experiences 
with their own responsibilities, we do not have the luxury of 
setting our own workload or agenda. Our committee's core 
mission is, and always has been, to provide fair, prompt and 
thorough advice and education, and to conduct investigations 
whenever that aspect of our work is required in a professional, 
nonpartisan environment that is always driven by the facts and 
in search of the truth.
    To that end, Mr. Chairman, by and large our largest 
consumption of resources is a top-notch professional, 
nonpartisan staff who handle our everyday advice, education, 
review and investigative functions. Unfortunately, by the very 
nature of our work, and consistent with committee precedents, 
this committee does have matters, on occasion, that require an 
increase in staffing or even the employment of an outside 
counsel. I would like to give you some sense of what that 
workload looks like.
    While public adjudicatory hearings happen on average of 
once a decade, one time last year our committee was looking at 
two such hearings within 2 months of each other. This would 
have been an unprecedented occurrence. While one of 
theaforementioned matters was concluded before the end of the 
111th Congress, the committee is still working on the second 
matter and has employed, as your committee knows, an outside 
counsel to help us get through the challenges that that matter 
has presented. Needless to say, the entire membership of our 
committee very much appreciates you and your staff's working 
with us and their assistance in approving and financing that 
contract. Obviously, there is no guarantee that the trend of 
Members invoking their rights, under our rules, to a public 
hearing may not continue to grow.
    While the ranking member will describe for you the ever-
increasing workload before our committee, I want to turn for 
just a moment to how we have handled that workload and how we 
have shouldered and continue to shoulder the financial burdens 
that all other offices in the House and, most importantly, the 
American people have been sharing.
    After an admittedly controversial end to our work in the 
111th Congress, the committee began this Congress with a 
downslide of staffing. On January 1, we had 23 staff positions 
filled out of a permitted cap of 29. While the ranking member 
and I worked very hard to find the best nonpartisan, 
professional staff we could to fill those ranks, we reached a 
low point of 15 sometime in June. At about the same time, we 
had found and brought on a new staff director and chief 
counsel, who is unquestionably nonpartisan and professional. As 
a result, I am pleased to report to your committee that the 
pathway toward fully staffing our committee has followed on our 
new staff director's leadership and personal example.
    As I said, as of January 1, we had 23 staffers on the 
books. Today we have 24 full-time staff. But without having to 
reduce anyone's salary, and mostly by attrition of higher-
salaried staff and leveling of base salaries, we are spending 
less on these 24 outstanding individuals than we were 
previously spending on the 23 staff that worked in the 111th 
Congress. In other words, as so many others are having to do, 
we at the Ethics Committee are trying to find new ways of doing 
more but costing less. Indeed, personnel is about 95 percent of 
our total budget, as currently 15 of our 24 staffers are 
experienced attorneys.
    In anticipation of possible additional budget cuts, and in 
line with what the rest of the House and the rest of the 
country is facing, we have stopped hiring. We have asked our 
staff to do everything possible to continue to meet and 
maintain your expectations as our customers. And as the ranking 
member will also discuss, there is an ever-increasing challenge 
that comes with this, but one that we take with a sense of 
mission, duty and shared sacrifice.
    Finally, and I know I am over my time, but if I might have 
an additional minute, I have been asked to discuss the unusual 
circumstances of requiring the assistance of an outside 
counsel. As leadership of your committee was briefed earlier 
this year, Mr. Billy Martin, with the firm of Dorsey & Whitney, 
has taken on an immense and vitally important task for us and 
is conducting his work with the utmost thoroughness, fairness, 
independence and impartiality that would be expected and 
required.
    From what I have been told, our hopes and estimates for a 
quick resolution to Mr. Martin's work may not be realized. 
While no final conclusions have been reached about whatever the 
next steps in this process might encompass, it is highly 
possible that the contract with Mr. Martin will need to be 
extended into next year. It is necessary, therefore, in order 
to avoid overobligating and to ensure the consistent progress 
in this matter and the rest of our work, to plan for such 
contingencies before the committee reviews and acts on the 
step-by-step recommendations of our outside counsel.
    The good news, though, is that we anticipate that the 
funding required for this year's work by the outside counsel 
will be well below the $500,000 estimated. More importantly, 
using the surplus of our budget left over due to the time that 
we were short-staffed this year, we have not had to come to ask 
for any additional funds for reauthorization to cover his 2011 
bills. We consider this a significant accomplishment, and we 
are proud of that fact.
    For next year, however, it is clear that at least one of 
our major investigative matters may require contract or other 
significant expenses for hearings and travels such that if our 
budget follows the standard formula, we will need to return to 
your committee in short order for a reauthorization. We have 
considered the work ahead and the stage of progress to date, 
and we believe that we will inevitably require a 
reauthorization of $350,000 to be safe from overobligating and 
to ensure that our duties to be thorough and fair do not suffer 
dramatically.
    As we have been requested to do, we are proposing to deal 
with the outside counsel contract and the growing workload at 
this time rather than returning to you at a later date. 
Therefore we propose to add a good-faith and fair estimate of 
our special investigative needs to an amount that begins with 
our current budget of 2012 of $3,043,775. That additional 
request is $350,000, to a total of $3,393,775 for 2012.
    We appreciate the hard and careful work that you are 
putting into your process, and I am happy to answer questions 
after our ranking member has had a chance to share some of her 
thoughts. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The statement of Mr. Bonner follows:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Ms. Sanchez.

  STATEMENT OF THE HON. LINDA T. SANCHEZ, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF CALIFORNIA, RANKING MEMBER, 
                      COMMITTEE ON ETHICS

    Ms. Sanchez. Thank you, Mr. Chairman and Ranking Member 
Brady. We appreciate the opportunity to provide you with an 
overview of how the Committee on Ethics has used its budget in 
the 112th Congress and how we anticipate the committee will 
operate next year in light of possible budget changes.
    As the chairman Mr. Bonner stated, and as we both noted 
when we appeared before this committee earlier in the year, we 
are a fairly unique committee. Approximately 95 percent of our 
budget is spent on staff salaries, and so therefore that is the 
focus of any budget conversation that we have to have.
    Let me begin by saying how much both of us and our fellow 
committee members appreciate the staff and their incredible 
work. They work hard, they are dedicated, and the committee's 
success depends on this talented staff to do the bulk of the 
committee's work.
    As has been noted, in addition to hiring a new staff 
director earlier in the year, we had to fill a number of 
vacancies that came up, but we have not been able to hire the 
full complement of staff even though our workload continues to 
increase, so our staff and our committee have necessarily had 
to do more with less.
    Although the public attention tends to focus on the 
committee's work on investigations, much of our work is 
actually serving the House in other areas, and our work in 
those areas is definitely on the rise.
    In the last Congress the House increased the committee 
staffing allotment in light of an increase in our investigative 
work and the creation of the Office of Congressional Ethics. 
There is no indication at this point that our workload in that 
area will decrease.
    In the area of advice, the committee has issued nearly 500 
confidential advisory opinions to Members and staff so far this 
Congress, and that is an increase of more than 10 percent from 
the same period in the last Congress. We also continue to build 
on the improved turnaround time for those requests, as timing 
is clearly of importance to the Members.
    These formal advisory opinions don't include the many 
informal requests the nonpartisan staff field by phone, email 
and in-person visits. We estimate that the committee fielded 
more than 15,000 telephone calls and 3,000 email requests for 
advice between January 1 and October 31 of this year.
    The committee's privately sponsored travel workload has 
increased even more, by more than 20 percent over the same 
period in the 111th Congress. We received over 1,700 requests 
for approval of travel between January 1 and October 31 of this 
year.
    The committee's financial disclosure workload has also 
increased. So far this year the number of financial disclosure 
filings is up by about 20 percent over the same period in the 
111th Congress. More than 5,600 financial disclosure statements 
have been filed so far this year, and all of these financial 
disclosure statements have to be reviewed. And many of those, 
in fact, have also been prescreened before the filing as a 
service that the committee staff provides to any filer.
    Finally, the committee continues to provide training to 
more than 10,000 House Members, officers and employees each 
year and to review their certifications for satisfying the 
House's mandatory training requirements.
    The committee staff is handling this increased workload 
with excellence and professionalism even though we handled last 
year's budget cut by stopping short of our maximum staff slot 
allowance.
    In addition to hiring fewer staff, the committee also 
handled the budget cut by forgoing other investments that we 
could have made. Most significantly we postponed a possible 
major investment in new financial disclosure software. This 
software could have allowed on-line filing, which would have 
had benefits to both the filers and the public alike, and may 
have made the financial disclosure process less expensive in 
the long run.
    In addition, we also put off an investment of making our 
database of public documents more accessible to the House and 
the public. We also put off an investment in improving the 
committee's database of internal documents, many of which 
predate the digital age, which could have ensured greater 
consistency and efficiency in our advisory functions. Although 
we were able to make substantial investments in technology in 
the last Congress to make the committee and its work more 
efficient, we have postponed further investments at this time. 
I continue to think that these are worthwhile investments that 
would help the committee better serve the House and the public, 
and I hope that we will be able to pursue them very shortly in 
the future.
    Finally, our outside counsel contract is vital to ensuring 
our committee, our colleagues and the public that we will 
resolve this matter with the utmost care, diligence and, above 
all else, integrity. The committee concluded that hiring an 
outside counsel would allow for an independent review and a 
faster resolution than if the committee staff were to handle it 
alone. We currently await the outside counsel's recommendations 
for our consideration so the committee can complete the matter 
as quickly as possible and ensure that the committee's work 
comports with the highest standards of integrity.
    For these reasons I join with the chairman in presenting 
our joint request for our 2012 authorization as the chairman 
described. Thank you, and we look forward to any questions you 
may have.
    The Chairman. Thank you very much for your presentation.
    [The statement of Ms. Sanchez follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. As I said before, I think you play a vital 
role in this institution. I noted that the public has now--I 
think the Congress has risen to double digits now. I think 12 
percent of the American people have a favorable opinion of the 
Congress. And I think that is a tragedy, because I think we 
have a government that was born in a reasonable suspicion of 
government. And I am all for skepticism, I am not for cynicism, 
and when you move from skepticism to cynicism, you tend the 
undercut the foundations of the institution you are talking 
about, and that is why I am very concerned that we make a 
decision that allows you to have the budget that is necessary 
to do the job that you have.
    My staff has received tremendous assistance from your 
committee staff. Before we take a trip, before we do anything 
that could possibly deal with the rules, we contact your 
office, we get an informal opinion. I think not only does that 
help Members, but it helps this institution in terms of its 
standing with the public. So I am very leery about us doing 
anything that would undercut your ability to respond in a 
timely fashion to a Member's legitimate request about ethical 
issues.
    Furthermore, in terms of review of financial disclosure, 
that is crucial to the transparency necessary for the 
operations of this House.
    And then lastly, the thing that you can talk least about, 
your investigation. There is a lot of cynicism out there about 
us; about us, I mean the institution of the House. And the fact 
that we do have investigations performed by a bipartisan 
committee on as objective a basis as you can possibly have in 
an institution like this is important not only for our image, 
but for the substance of this House.
    So we have some very tough decisions to make because the 
rules--excuse me, the resolution passed by the House requires 
us to have a legislative branch cut of 6.4 percent. And by and 
large we have had committees come in and say they can accept 
6.4 percent, they couldn't accept anything more. The Committee 
on Armed Services said they can accept 1 percent, but nothing 
more. And I read through your language, and it suggests that 
you are not looking for a cut, but an increase in part because 
of the obligation of outside contracts. Is that correct?
    Mr. Bonner. Yes, sir.
    The Chairman. Could you perform your task with respect to 
the reliability, the efficiency and the timeliness of response 
to which Members have a right to expect under our rules, as we 
are going into a very, very fractious year, if we were to cut 
you by 6.4 percent?
    Mr. Bonner. Well, Mr. Chairman, as the ranking member and I 
have both tried to indicate in our testimony, we are trying to 
do more with less, but we have an obligation that in working 
with this committee, your committee, we were able to take what 
I think was the right step by bringing in the outside counsel, 
and we would like, and I believe have an obligation to all 
parties involved, to see that brought to a conclusion. That is 
the right thing to do.
    But in terms of could our committee accept a reduction in 
funding in terms of our base committee and the work of the 
committee, the answer is yes, but it comes with certain 
conditions, and those conditions are there would be--if we had 
to cut salaries or cut our staff even further, we would do so, 
obviously, but at the risk of losing institutional knowledge 
and skill in handling the kind of advice and instructions that 
Members such as yourself have come to us for in trying to be 
prompt and responsive.
    Ms. Sanchez. If I could just add that because so much of 
our budget is comprised of staff salary, that continued cuts 
would necessarily mean at some point not either having the full 
complement of staff, which is the situation that we are working 
under now, or cutting further positions down the line.
    And in terms of efficiency and timeliness of Members' 
requests, that most certainly would impact that area.
    The Chairman. See, I sort of view a preliminary advice from 
your committee as an imprimatur essentially, am I doing the 
right thing ethically under the rules of the House of 
Representatives? I just want to make sure that whatever 
decision we finally make, you are able to allow that authority 
to be in place so that Members, who I think have a right to 
know what the rules are, have a right to know how facts are 
applied to the rules, have a right to know whether essentially 
they have permission--and I realize it is not total permission, 
but in the best sense of the word with an advisory opinion as 
to do something like that. Frankly, I think we owe it to the 
Members to be able to do that, and we as Members owe that to 
the public that we take that effort.
    Mr. Bonner. Mr. Chairman, if I might interrupt, and I know 
you and the ranking member and your committee knows this, but 
we also serve the staff that serves the American people that 
work with us. So we are talking about thousands of additional 
people that come to us--and we encourage them coming to us. And 
with regard to the financial disclosure, we are also talking 
about candidates who are seeking these jobs.
    The Chairman. If I can use an analogy, we have got the 
Cannon Office Building, it is falling down. All right. I 
briefed the staff, and we invited Members, but it was all staff 
just before we left. I didn't know the ceiling was going to 
fall down over there right after I made my talk. Maybe I 
shouldn't say as much. But anyway you can pretend we don't have 
to deal with that, and you can defer maintenance on that, which 
we have done, until the point in time in which it is 
collapsing. I don't think we can defer maintenance on the 
ethics of this House. That would be the analogy I would use.
    So we have a tough decision to make with respect to your 
operation. I hope you will work with us in trying to figure out 
how to solve this problem, because it is a knotty problem.
    Mr. Brady.
    Mr. Nugent.
    All right. Thank you very, very much.
    Mr. Bonner. Thank you, and we look forward to working with 
you.
    The Chairman. I guess Ways and Means is next.
    Thank you very much for being here, Ways and Means 
Committee Chairman Camp and Ranking Member Levin of the 
committee. We appreciate the written testimony that we have 
received from you. We would ask you to try and highlight how 
the 5 percent cut that is already in effect this year affected 
your committee's operation in this the first session; secondly, 
how you propose to operate under what is most likely going to 
be a 6.4 percent cut in committee expenditures; and what 
efficiencies you have already implemented, and what you might 
be looking at with regard to next year.
    Mr. Camp.

 STATEMENT OF THE HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF MICHIGAN, CHAIRMAN, COMMITTEE ON WAYS AND 
                             MEANS

    Mr. Camp. Well, thank you, Chairman Lungren, and Ranking 
Member Brady and Members of the Committee. I am here to talk 
about the budget for the Committee on Ways and Means for the 
112th Congress and am joined by our Ranking Member and my 
friend from Michigan, Mr. Levin. And today I will give you an 
update on how the 5 percent reduction for legislative year 2011 
has impacted our budget and operations to date, and what it 
will mean for the remainder of the year, as well as a preview 
of the 6.4 percent budget reduction slated for legislative year 
2012.
    And before I do so, I want to assure you that this budget, 
in accordance with the long tradition at Ways and Means, has 
been divided between the majority and the minority, the 
majority controlling two-thirds and the minority having full 
control over one-third of the budget.
    In March, I reported that the Ways and Means budget 
reflected our nation's current financial problems, and that 
just as families were cutting back, so would we, and that is 
what we have done in the face of the 5 percent reduction in our 
budget.
    Because staff salaries represent a substantial portion of 
the Committee's budget, we have met the challenge of the 
reduced funding in part by holding flat the number of staff 
allotted to the Committee, and, in fact, have left some staff 
slots open. I am pleased to report, however, that our staff, 
both the majority and the minority staff, have shouldered this 
responsibility and performed well for the Congress and the 
American people. In the majority we have used greater 
technological resources, especially mobile computer devices, to 
garner greater efficiencies.
    Additionally, in order to ensure that we met our budget 
cuts, we also have carefully limited Committee-funded travel. 
Given the Committee's broad jurisdiction, especially with 
regard to international trade, the ability of our Members and 
staff to attend critical negotiating sessions across the 
country and world is imperative to our mission, so we have 
tried to balance the need for fiscal prudence with important 
policy considerations.
    We are confident based on this year's activity that we have 
planned prudently for next year's reductions. The bottom line, 
we have managed to meet our responsibilities with our allotted 
budget and will continue to do so. And I thank the Chairman and 
Members of this Committee for the opportunity to update you, 
and I look forward to any questions you may have.
    The Chairman. Thank you.
    [The statement of Mr. Camp follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Mr. Levin.

  STATEMENT OF THE HON. SANDER M. LEVIN, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MICHIGAN, RANKING MEMBER, COMMITTEE 
                       ON WAYS AND MEANS

    Mr. Levin. Thank you very much. I am glad to join my 
colleague, the chairman of the committee. He has described it 
well.
    I want to emphasize how hardworking staff is of this 
committee, both majority and minority. And there are so many 
issues, as you know, that come before Ways and Means, and that 
requires long hours, sometimes around the clock, and I think 
our staffs have very much met their responsibility.
    Mr. Camp mentioned part of our jurisdiction relates to 
trade, and I simply want to add that we have had the need to be 
very, very careful about attendance at meetings overseas, 
sometimes in other States that are far away, and we have tried 
to meet our responsibility. I think that the reduction in our 
expenses at times has made it very challenging for us to carry 
out those responsibilities, but we surely have tried.
    We also have attempted to very much marshal our resources. 
Our chief of staff on the minority side, Janice Mays, has been 
exceptionally diligent to make sure that the staff that was 
hired met the responsibilities they do, and we had to assume 
some considerable losses last time in our staff.
    So very much, if the 6.4 is applied to us, we will do 
everything we can to live within it and to very much meet the 
major responsibilities of this committee.
    Thank you very much.
    The Chairman. Thank you very much.
    [The statement of Mr. Levin follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Mr. Chairman, can you tell us what is your 
staffing level right now, total staff, on your committee?
    Mr. Camp. Total staff is 50, 5-0.
    The Chairman. For both majority and minority?
    Mr. Camp. That would just be the majority side.
    The Chairman. And minority is?
    Mr. Levin. Twenty-five.
    The Chairman. Okay. Seventy-five.
    Has that changed much over the last couple years, and did 
it change at all with the 5 percent cut?
    Mr. Camp. We ended up not filling some positions, but it 
has not changed.
    The Chairman. With the prospect of a 6.4 percent cut, would 
there be any expectation of layoffs?
    Mr. Camp. I think what we are going to try to do is upgrade 
some of our technology capacity so we can better handle some of 
the flows of information and documents. And I think that we are 
hoping to be able to hold with that, but we are going to be 
having to do that in order to handle the vast amount of 
information we have. And obviously, given my service on the 
Supercommittee, we also had Mr. Becerra on the Supercommittee 
from the Committee on Ways and Means, there really were no 
staff assigned to that whole project, so the Committee staff 
worked very, very long hours and way into the night on many 
evenings in order to meet those responsibilities.
    So we had a lot of responsibilities, but I don't anticipate 
any layoffs with that amount of reduction.
    The Chairman. Mr. Levin.
    Mr. Levin. We don't anticipate it, and I will indicate why. 
I think we have to try everything short of layoffs. I think you 
all know the responsibilities of the committee, and as I look 
ahead to next year, if we can possibly do that, it is likely, I 
think, that the responsibilities of this committee on both the 
majority and the minority side, those responsibilities would be 
enormous. And since we know firsthand the long hours worked by 
our staffs, I can't foresee how we could perform adequately 
with any layoffs. We would have to simply find other ways to 
live within.
    The Chairman. So if you got one-third of the reduction in 
overall budget, I presume you are the one that makes that 
decision on how to handle it?
    Mr. Levin. That is true.
    The Chairman. Boy, is that a lot better than the 1980s. I 
remember being a member of the Judiciary Committee, and I had 
actually voted for a smaller budget for the legislative branch. 
And there were three professional staff on the subcommittee on 
the majority side and one on our side, and that lady left, and 
I went to go hire somebody, and the staff director of the 
committee told me that I guess 7-to-1 ratio of professional 
staff on the full committee was not sufficient, and since I had 
voted to cut spending, I would have to do without a 
professional staffer. It just happened that the person I was 
hiring was a woman and replacing a man, and the majority did 
not want to be in a position of denying advancement to someone 
who happened to be a woman. I didn't hire her for that reason, 
I hired her because she was good. But I had to go and grovel 
before the chairman of the committee to get someone hired.
    So I am glad to see that things have changed in this 
Congress.
    Mr. Levin. We have a different tradition.
    The Chairman. Yes, we do.
    Mr. Camp. It has been a longstanding tradition in the 
Committee to operate this way. So this is a continuation of 
what has occurred for many years on the Committee.
    The Chairman. And it has through all the committees in the 
Congress now. I appreciate that.
    Mr. Brady.
    Mr. Rokita, any questions?
    Mr. Rokita. No, Chairman. I yield back. Thank you for 
having me.
    The Chairman. Mr. Nugent.
    Next up is Foreign Affairs.
    Well, it is good to have both of you here. We are reviewing 
the budgets for the upcoming year, and so we would love to hear 
from you as to how you have been able to deal with the 5 
percent cut that was imposed as a result of the vote of the 
House for this current year; and how you would envision dealing 
with a 6.4 percent cut in the committee as a result of the 
House resolution that was passed on the legislative branch 
appropriations; and efficiencies that you have already put into 
place in your committee, and efficiencies that you would expect 
to put into place next year. So, welcome.
    And Madam Chair.

STATEMENT OF THE HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF FLORIDA, CHAIRMAN, COMMITTEE ON 
                        FOREIGN AFFAIRS

    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, Ranking 
Member Brady, and members of the committee and staff. Thank you 
for allowing my good friend Mr. Berman and I the opportunity to 
appear before you this afternoon.
    Our Committee on Foreign Affairs has been challenged this 
year by significant global developments, as we have all 
followed them on the tube, and these required rigorous 
examinations of our national security interests and foreign 
policy priorities, as well as U.S. programs and funding, in 
order to determine an appropriate and timely response.
    Despite the 5 percent reduction to the committee's budget 
for this calendar year, we have met and we have surpassed our 
goals as described in our oversight plan. We have covered every 
region, every functional area, and held an average of one 
markup a month, including one of the most robust debates our 
committee has had in over a decade concerning the funding 
authorization and the policy prescriptions for the Department 
of State, USAID and other agencies under our committee's 
jurisdiction.
    We have taken a strategic approach by hosting visiting 
foreign dignitaries, by considering whether there is added 
value to holding the meeting, by focusing on the most senior 
foreign leaders, and by scheduling during off times rather than 
during breakfast or lunch, that are expensive items to provide 
for. We cut a number of fatty administrative expenses, such as 
domestic travel and high-priced subscriptions. We also conduct 
a cost estimate and do comparison pricing before deciding on a 
purchase.
    Ms. Ros-Lehtinen. By taking these small steps, the 
committee has been able to carry out its protocol 
responsibilities while keeping costs down at the same time.
    We also established for the first time an oversight and 
investigations team and included a whistleblower feature on our 
committee Web site. This has enabled us to conduct serious 
oversight over the range of activities and agencies under our 
committee's jurisdiction.
    One of those investigative efforts relating to the sexual 
assault of Peace Corps volunteers resulted in legislation that 
was signed into law by the President on Monday of last week.
    We have established several mechanisms to carefully 
scrutinize every congressional notification received by our 
committee to ensure that taxpayer dollars are being used for 
their intended purposes and are in a tangible way advancing 
U.S. interests and U.S. priorities.
    The main committee Web site added a new interactive feature 
this year called ``Ask a Question,'' and it allows the public 
to submit questions that they would like to have answered by 
our witnesses testifying before our committee.
    Looking forward, it will be tough, but I believe that we 
can continue to operate successfully despite the additional 6.4 
percent cut to our operating budget. We have restructured the 
breakdown of the committee budget to minimize the impact on 
current personnel allocations, as I believe our most valuable 
resource is our dedicated staff.
    I made a commitment to Ranking Member Berman at the 
beginning of this Congress to provide the minority with an 
$180,000 supplement to their one-third allocation of the 
personnel budget. The additional $180,000 will continue in 
calendar year 2012.
    In making determinations about resource allocations, I 
respectfully ask this committee to take into account that the 
Foreign Affairs Committee, out of its budget, covers all 
administrative costs for the House Democracy Partnership and 
the Tom Lantos Human Rights Commission. This includes office 
space, equipment, supplies, and other support. The Committee on 
Foreign Affairs also covers the full salary for the staff 
director of the House Democracy Partnership. It covers a 
portion of the salary for the majority professional staff 
member of the House Democracy Partnership, and covers a portion 
of the salary for the majority professional staff of the Tom 
Lantos Human Rights Commission. These two entities act 
independently and do not contribute to the work of the 
Committee on Foreign Affairs. And the further reduced budget 
for the calendar year 2012 will again pose a challenge, but one 
I believe we can and we will meet successfully. By 
demonstrating that we can do more with less in the running of 
our respective committee, we can demand the same from the 
agencies under our jurisdiction.
    I thank the chairman, the ranking member, Members and staff 
for their time.
    [The statement of Ms. Ros-Lehtinen follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Mr. Berman.

  STATEMENT OF THE HON. HOWARD L. BERMAN, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF CALIFORNIA, RANKING MEMBER, 
                  COMMITTEE ON FOREIGN AFFAIRS

    Mr. Berman. Well, thank you very much, Mr. Chairman, and I 
want to thank both you and Ranking Member Brady and your staffs 
for all of the assistance that you have provided to the 
minority staff of the committee over the past year. And I also 
particularly want to thank my chairman Ileana Ros-Lehtinen. Her 
efforts and that of her staff director, Dr. Yleem Poblete, have 
really been very helpful to us in shaping a budget request that 
is fair.
    I don't want to sugar-coat my testimony. It has been a 
difficult year for the minority on the committee. You mentioned 
the two joint resolutions that governed this year's spending 
and next year's spending, and we had that election back in 2010 
that also had an impact on us. And just as all Americans have 
had to do, we have tightened our belts. We have made 
significant sacrifices while trying to ensure that we do not 
jeopardize the committee's essential operations to oversee the 
foreign relations of the United States.
    Mr. Chairman, you asked me to comment on how the reduction 
this year affected our operations in the first session. First, 
as a result of that election--well, first, we were forced to 
keep one of the positions vacant that were allotted to us. This 
is after we had to dismiss 28 employees as we transitioned into 
the minority. When another senior staffer departed, we also 
kept that position vacant. So now we have two vacant positions 
that we can't afford to fill.
    Secondly, all of our staff, including the seven minority 
subcommittee staff, experienced an average 10.17 percent cut to 
their salaries, and this was despite a truly generous 
allocation of additional funds to the minority's salary budget 
by the chairman. I am very grateful to the chairman for once 
again offering the minority the $180,000 from operating funds 
to supplement the minority salary, but even after taking those 
funds into account, the 6.4 percent cut to the committee's 
budget will probably require us to cut salaries of existing 
staff by an additional total of $53,000. And we will not be 
able to fill the two vacancies, which to some extent certainly 
impacts our ability to exercise the full oversight over all the 
programs in our jurisdiction. As the chairman states, our 
dedicated staff are our most valuable resource, and she has 
demonstrated her commitment to them in her relations with us.
    And I do want to also reiterate the chairman's point about 
the budget of this committee covering the administrative 
expenses for both the House Democracy Partnership and the Tom 
Lantos Human Rights Commission. Those are both very good 
programs. When I chaired the committee, I supported the request 
of these two entities, but for funding independent of the 
committee. I continue to believe that should be the case. They 
are created by the body as a whole, and, it seems to me, 
concomitant and part of that is to fund them as such. But as it 
is, they represent an additional cost to the committee, which, 
as the chairman notes, includes office space, equipment, and 
other support.
    Again, I want to express my appreciation for the chairman's 
efforts to ensure a smooth coordination of committee functions. 
We do receive our share of all nonpersonnel expenses in each 
expense category, travel, communications, equipment upgrades. 
And I look forward to working with her in a bipartisan manner 
on a wide range of issues in the second year of the 112th 
Congress.
    Thank you very much.
    The Chairman. Thank you very much. We thank you for your 
testimony as well as your service.
    [The statement of Mr. Berman follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Let me just ask a question, and I just don't 
know what the answer is to this. With the House Democracy 
Partnership and Tom Lantos Human Rights Commission, they are 
neither fish nor fowl. They are not legislative. They are not 
executive. They are not independent. What are they?
    Ms. Ros-Lehtinen. They were created by Congress and are 
technically under our committee, and so we have to fund their 
operational costs, as I pointed out in my testimony, whether it 
is this staffer or office space, et cetera. And it comes to an 
estimated cost for staff salaries, equipment supplies, and 
other administrative expenses for these two entities that are 
under our jurisdiction, so they are going to come from our 
budget, is close to $225,000. So that is the way that they 
were--when the bills were passed establishing them, they were 
placed under our jurisdiction, but we don't get any money for 
them.
    The Chairman. Is there a prohibition against--and again, I 
am aware that they exist, but I don't know the actual way they 
are set up. Is there a prohibition against them receiving 
outside funds to support their efforts?
    Ms. Ros-Lehtinen. I am sure that there would be. But they 
could be funded separately. We would love to farm them out. I 
think the House Administration Committee is a wonderful 
location for both Tom Lantos and the House Democracy 
Partnership.
    The Chairman. I am very serious about this.
    Mr. Berman. You mean outside of our budget or outside of 
the government's budget?
    The Chairman. Outside of the government.
    Mr. Berman. I think there could be a problem there because 
of the commingling issues. They are created by House 
resolutions.
    The Chairman. Do we have any other creations like that?
    Ms. Ros-Lehtinen. Well, these are the only two that are 
under our jurisdiction. There might be some other commissions 
that are under the jurisdiction of other committees, but these 
are the only ones----
    Mr. Berman. We used to have a bunch.
    Ms. Ros-Lehtinen. And as Mr. Berman said, they are 
wonderful organizations.
    The Chairman. No. I understand that.
    Ms. Ros-Lehtinen. They come out of our budget but they are 
not really part of the Committee or contribute to the work of 
the Committee.
    The Chairman. I know. I am not against those organizations. 
All I am saying is when we are looking at very tough budget 
decisions--I just had the Ethics Committee here talking about 
how they might not be able to serve the Congress in the way 
that I think they need to be served because of monies. I have 
got to think outside the box as to where monies are coming from 
and where certain groups are. I am not trying to target it. I 
am just trying to think. We have got to make some tough 
decisions. That is all.
    Ms. Lofgren. Would the gentleman yield?
    The Chairman. I would be happy to yield.
    Ms. Lofgren. Like you, I am eager to think outside the box, 
but I think, having worked with both of these Commissions, to 
get outside funds, who would be interested in it might be a 
source that would undercut the mission. For example, on a 
bipartisan basis we have sort of a Freedom in Vietnam Caucus, 
and the Commission has been very, very helpful on many of those 
issues. I want to thank both the chairman and ranking member 
for their really terrific service to our country. But if there 
were funding sources, I mean, depending on who they were could 
really undercut the mission. So I would be very nervous about 
that.
    I thank the gentleman for yielding.
    The Chairman. I appreciate that. We have real tough 
decisions to make. We are talking about a 6.4 percent cut 
across the board. Or if we find that some--I hope I am not 
talking out of school--but if we found some committees had a 
specific actual need next year, I have got to find that money 
somewhere else, out of other committees or somewhere. I am not 
sure this committee has ever had hearings, except for last year 
where it was a fait accompli, where we have ever talked about 
you getting less than you got before. I can tell you the 
difference in demeanor of chairmen and ranking members from 
when it was just ``how much more are we going to get'' versus 
now.
    Ms. Ros-Lehtinen. Well, if I may, Mr. Chairman, not knowing 
what would happen last year, we had drawn up several scenarios 
and several budget projections on whether it was going to be 2 
percent to 8 percent or anything in between. And so we were 
prepared for as tough a cut or as small of a cut. And I think 
that has given us great flexibility to see what is the most 
needed program and what is not.
    The Chairman. And just to let you know, we have led, and 
the Senate has followed. When we took a 5 percent, they decided 
to take a 5 percent, but after most of the year was through. So 
they got a 1.3 percent cut. They are coming in with a 6.3 
percent cut, I believe is the number I have got from their 
leadership committees, et cetera, support staff, but 3.2 
percent, I think, for their individual offices. So we are 
leading the way, and there is no doubt about that. But they are 
going to have some consequences, and we have to understand what 
they are as we go forward.
    Mr. Brady.
    Mr. Brady. Yes. Thank you, Mr. Chairman.
    If the 6.4 percent does go through, would you have to lay 
anybody off not by attrition, but by laying somebody off? 
Attrition, to me, means somebody who wanted to go anyway, or 
they are going to go because they found another job or 
whatever. But I am talking about telling somebody they are no 
longer employed that want to be employed. Either one of you.
    Mr. Berman. On our side, we have two authorized slots that 
we are not filling, and the additional 6.4 percent cut will 
mean a salary cut again this year after a significant salary 
cut last year for those who are remaining. Obviously we are in 
a special situation because we had the transition from majority 
to minority status, but over and on top of that, our 
contemplation would not be to lay off. It would be probably to 
just have to spread the pain of salary reductions, because we 
feel like we are fairly short staffed now with our two open 
slots that we can't fill. So we probably wouldn't lay off, we 
would probably opt for reductions.
    Ms. Ros-Lehtinen. If I could add to what Mr. Berman said. 
We established an innovative, and have been very productive in 
the way we have implemented it, mentor/mentee program where we 
have had our junior staffers working with our most senior 
policy staffers, and then when those senior staffers have gone 
on to retire, we have been able to ride that problem out by 
promoting from within.
    Mr. Brady. Sometimes that can contribute to attrition.
    Mr. Berman. Yes, that is true.
    Mr. Brady. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Rokita.
    Mr. Rokita. I yield back.
    The Chairman. Thank you very much. I appreciate your work 
and your presentation here today.
    Intelligence is up next.
    Thank you, chairman and ranking member of the Intelligence 
Committee. And I also thank you for sending your first 
communion pictures for us here. Really nice looking. That was 
his line.
    Mr. Rogers. It is the only pictures we can show, actually.
    The Chairman. We welcome you both representing the House 
Permanent Select Committee on Intelligence. While your written 
testimony will be made a part of the record, if you could 
summarize and give us an idea of how you were able to operate 
with the 5 percent cut this last year, what efficiencies you 
may have implemented already and those you anticipate as we are 
looking at a 6.4 percent cut as a result of the resolution 
passed by the House.

STATEMENT OF THE HON. MIKE ROGERS, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF ALABAMA, CHAIRMAN, PERMANENT SELECT COMMITTEE 
                        ON INTELLIGENCE

    Mr. Rogers. Well, thank you, Mr. Chairman, Ranking Member 
Brady. I appreciate the opportunity to be here.
    Mr. Ruppersberger and I have worked pretty closely on all 
things on the committee, including the budget process, and we 
absorbed the 5 percent reduction last year, I am pleased to 
tell you, and were able to still continue to do our business. 
It enabled the committee to hold about 100 events, including 
hearings, briefings, roundtables with key leaders in 
intelligence, and off-sites to important facilities to conduct 
oversight--proper oversight of the Intelligence Community at 
large.
    We were authorized 44 staff positions. We achieved that 
cost savings by only filling those vacancies that we believed 
we could get by to fulfill the committee's mission. So at 
present the committee's 20 members are served by 30 staff, to 
include 19 majority staff, and 8 minority staff, and 3 support 
staff. Although we have not hired to capacity, we maintain the 
flexibility to hire additional staff should circumstances 
require and budget permitting.
    We continue to work for efficiencies gained from previous 
improvements to its information technology system. We had a 
heavy investment up front, and we think we are reaping some of 
those rewards now. These improvements have allowed us to reduce 
expenditures for equipment, while continuing to ensure the safe 
processing, dissemination, and retention of committee documents 
and communications, as well as classified information received 
from the executive branch.
    As you know, Mr. Chairman, it is a unique committee indeed 
in the sense that all of the information that flows through has 
special handling requirements. So we have made sure that we 
have protected those handling requirements and our ability to 
secure that information, and at the same time try to maintain 
our tempo when it comes to aggressive oversight.
    We were able to put together a budget. We think it was 
probably the best we have seen in many, many years, mainly 
because it was a bipartisan effort not only with the Members, 
but we have joined the staff together--we are not sure that has 
ever happened before--to have joint briefings between 
Republican and Democrat staff sitting at the table to go 
through the numbers. We think it made a better product, we 
think it made it more efficient, and we stand ready, knowing 
the fiscal environment, to find that 6.4 percent, I believe, as 
we move forward into this year. We will do it through 
efficiencies, we will probably keep some vacancies on the 
committee, but we think we can absorb it and keep it. We are 
working in the tempo, and we have got some great people who are 
logging some long hours, and we will continue to ask them to do 
that as we move forward into next year.
    [The statement of Mr. Rogers and Mr. Ruppersberger 
follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Ruppersberger.

       STATEMENT OF THE HON. C.A. DUTCH RUPPERSBERGER, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND, RANKING 
       MEMBER, PERMANENT SELECT COMMITTEE ON INTELLIGENCE

    Mr. Ruppersberger. Thank you for having us here today. I 
think when Mr. Rogers and I in the beginning took over the 
leadership of the Intelligence Committee, we had both been on 
the committee before. And it was a very partisan committee, and 
the stakes on Intelligence are very high on the issues we deal 
with, whether it is cybersecurity, terrorism, rush tranche, 
China threat, all the things that we deal with. And it wasn't 
serving our country by having a partisan relationship, so we 
agreed to work together. Mike was a former FBI agent. I was a 
former prosecutor. I do remind Mike that good FBI agents listen 
to their prosecutor, even if they are in the minority. That was 
a joke. But I think the reasons that we----
    Mr. Rogers. And he reminds me often of that, Mr. Chairman, 
for the record.
    Mr. Ruppersberger. But I think the reason that we have been 
so successful is that we have brought our staff together, which 
just hasn't happened in the past, and we have worked together 
as a team on the committee.
    We knew that we had to absorb cuts like every other agency 
has to, every other committee, and when we did, we did program 
review. We made sure that our first goal, we would not affect 
the mission. We didn't affect the mission, and we were able to 
do the cuts that were necessary in personnel and other areas. 
We hope that the committee gets better because eventually it is 
going to affect us all, but at this point we have to do our 
share, and I think it has been done, and I think the leadership 
of Chairman Rogers, working in a bipartisan way, has really 
helped us to accomplish what we did.
    We can say this publicly--I can't give you an exact 
number--but we were able to cut over $1 billion from our budget 
without affecting the mission.
    The Chairman. That is very good. Are you fully moved into 
the CVC now?
    Mr. Rogers. Yes, sir. We are fully moved in. The staff is 
in. We hold our hearings and briefings in the CVC.
    The Chairman. What has been the difference with respect to 
utilizing that----
    Mr. Rogers. Well, we have less claustrophobic reaction from 
the staff. For those familiar with the previous space, we were 
in--they call it ``the tube.'' There really was not sufficient 
staff to meet the demand not only just for staff space, but for 
the proper handling of the material as it came through the 
committee space. It looked like a rabbit haven back in there.
    So the space is appropriate. We now have ample enough space 
to accurately and adequately store and categorize the 
information that we had, and that was a weakness before. They 
couldn't access information historically because of the really 
limited space and the way that it was filed. So it has been, I 
think, an exceptionally good thing for both the staff and our 
ability to function when it came to properly handling 
materials.
    The Chairman. It is a great space. It is a little further 
away from the House floor and other things. Has that proven any 
difficulty for your Members, or for the general membership when 
they want to go and look at classified information? Have you 
seen any increase or decrease----
    Mr. Ruppersberger. We lose a couple of pounds--that is one 
of the changes we have seen--by walking so much.
    The Chairman. You are walking better.
    Mr. Ruppersberger. I just had my knee operated on 3 weeks 
ago.
    Mr. Rogers. And the good news is when we tell them to show 
up to the committee meeting, nobody can find it. So we kind of 
like it that way. The participation gets whittled down.
    Mr. Ruppersberger. Another thing, we also have more 
conference rooms. A lot of what we do and what our staff does 
is oversee and interview all the agencies on a regular basis. 
In the former--in the other facility that we had, everybody had 
to wait because we have to be in a SCIF in a classified area. 
So having different conference rooms has really helped 
efficiency so when people come in, we can meet with them, and 
we don't have to wait a half an hour for a room to become 
available.
    The Chairman. As I understand your testimony, you folks can 
operate effectively with a 6.4 percent cut, even though you 
would not be asking for a 6.4 percent cut.
    Mr. Rogers. Obviously, Mr. Chairman, being from a committee 
that has not had a lot of plus-ups in the past, is it going to 
hurt a little bit? Sure. But we can understand the environment 
that we are in, and we believe together that we can meet that 
number and still efficiently perform our duties.
    Mr. Ruppersberger. And we did work with the other agencies 
to do this. We just didn't say there--we work with each agency, 
we review their programs, and they give us their priorities. 
That is the way we should do it. You just can't come in and 
say, cut this percentage. You will throw the baby out with the 
bathwater if you do that in that style.
    Mr. Rogers. Mr. Chairman, we did that through IT purchases. 
We renegotiated contracts. Some of those contracts we believe 
were probably not in the best interests of the government, so 
we went back and renegotiated contracts, and, again, we are 
getting a little bit more of staff. And we focused our travel.
    So we have made some changes on--in the intelligence 
business you can't do it from the Capitol Building completely. 
You have to be someplace else. So we focused that travel, and 
we were able to trim some travel budget costs that way. So we 
were watching the pennies. Again, we think this is an important 
commitment for our committee to make, as all the committees are 
making here on the Hill.
    The Chairman. Mr. Brady.
    Mr. Brady. Mr. Chairman, an FBI agent and a prosecutor in 
front of me, I have no questions.
    Mr. Rogers. Mr. Brady, could we see you afterwards, please?
    The Chairman. Mr. Rokita.
    Mr. Rokita. Thank you, Mr. Chairman.
    I want to thank both of you gentlemen for your leadership 
and the staff that you have provided me on a couple of 
occasions when I needed your attention. I didn't even have to 
bother you. I was a little skeptical the first time I had to go 
behind two or three different vaults to have the conversation, 
but your staff was very professional and treated my concerns 
with a lot of respect. As a new Member, I greatly appreciate 
them.
    I am very interested to know that--if I understood the 
testimony right, it went from 44 to 30 staff members?
    Mr. Rogers. Forty-four authorized, but we filled thirty 
slots, and we did that in order to try to save some money.
    Mr. Rokita. And that saved $1 million. So all the savings 
came from staff?
    Mr. Rogers. Oh, no, no, no. There was a series. It was IT, 
renegotiated contracts, some for staff, some on travel. And the 
money that Mr. Ruppersberger was talking about is the money 
that we found in our authorization bill. It was $1 billion is 
the unclassified----
    Mr. Ruppersberger. Not for administration, for our whole 
bill.
    Mr. Rogers. From the Intelligence Community itself. We went 
back and forced some--as we went through efficiencies, we 
forced efficiencies onto the Intelligence Community as well and 
came up with--the unofficial number is about $1 billion.
    Mr. Ruppersberger. For certain programs. For instance, 
there are a lot of programs that are good, but some we can't 
afford, so we needed to go to the agencies. We also didn't have 
jurisdiction over the Intelligence Community and the military, 
and we made sure that whatever we did, it would not affect our 
national security. But there are certain programs we just could 
not afford, and we did away with some of those.
    Mr. Rokita. Thank you for clearing that up.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Just real quickly, thank you, of course, for 
your service. I want to make sure--and don't discuss the 
details, obviously, in this open setting, but in a reduction in 
the IT budget, are you confident that you have the resources to 
have the vigorous kind of cybersecurity that is necessary for 
the committee itself?
    Mr. Rogers. Yeah. I do believe that we are. Now, we have 
some added advantage from having some leverage from the 
agencies of which we oversee and, because of the nature of the 
information that they are involved in, our security procedures 
as well; NSA specifically, the Agency and others. So we do 
believe that we can do it.
    And, by the way, in the savings, we have even have added 
some other--and I can't talk about what--but some other 
electronics matters to the committee that hadn't been there 
before. So even though we have found the savings, we have found 
other places where we thought a small amount of investment 
could enhance the security and the security procedures at the 
committee.
    Ms. Lofgren. Thank you very much.
    Mr. Ruppersberger. Let me address that, too, because I 
think it is important.
    The first thing, the cyberthreat is one of the most serious 
threats that we have in our country. As we speak, we are being 
attacked. We are losing billions of dollars. And my concern is 
we are going to have a catastrophic attack. The ability is 
there for other countries, al Qaeda, an organization like that, 
to hire a hacker, attack a banking system. North Korea just 
attacked South Korea. Our air traffic controllers. It is a very 
serious issue. So because of that, we didn't do it. We did away 
with some programs, but we added billets, as an example, in the 
agencies that deal with cybersecurity. So it is a matter of 
prioritizing, doing away with one so we can put more in the 
area of cyber.
    Ms. Lofgren. I appreciate that. But I was specifically--you 
know, every committee has information, some of it is more 
sensitive than others, and I can't think of a committee that 
has more sensitive information than yours. So that is why I 
wanted to make sure you felt comfortable with the funding 
level.
    Mr. Rogers. Thank you. Again, many of our systems--I worry 
about the House in general mainly because of----
    Ms. Lofgren. That is a whole separate subject.
    Mr. Rogers [continuing]. As a whole separate subject. Our 
committee, because of--we are connected to already secured 
networks provided by the agencies, so in that regard I feel 
pretty comfortable.
    If you are asking me about the House computers of which our 
committee uses them as well, we have concerns that I have 
talked to Mr. Lungren, and I think we are hopefully on the 
right track to making some changes, and some of that is 
cultural changes as well. It is beyond the scope of a policy or 
a dollar. It is cultural.
    Ms. Lofgren. Human behavior is your weakest link.
    Mr. Rogers. And 80 percent of our problem in the House of 
Representatives could be cured by changing human behavior when 
it comes to the use of those computers.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Ruppersberger. We just dropped today a bipartisan bill 
on cybersecurity, which is what we have been working on this 
for close to 5 years, and the bill is being dropped today.
    Ms. Lofgren. I will be eager to look at it.
    The Chairman. Thank you very much for your testimony. Thank 
you very much for your service, and we appreciate it.
    Mr. Ruppersberger. May I ask you a question, Mr. Chairman? 
What about the issue of subway?
    The Chairman. We are working on that.
    Mr. Ruppersberger. Inside joke.
    Mr. Rogers. Thank you very much, Mr. Lungren, Mr. Ranking 
Member.
    The Chairman. Judiciary.
    All right. Thank you very much for being here. The 
committee now welcomes Chairman Lamar Smith and Ranking Member 
John Conyers of the Committee on the Judiciary. We will receive 
your written testimony in its entirety. We would ask you to 
briefly outline how you have operated under the 5 percent cut 
this last year; how you would operate with a 6.4 percent, at 
least, cut to this coming year; and efficiencies that have been 
instituted already, and those that you may be looking forward 
to.

STATEMENT OF THE HON. LAMAR SMITH, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF TEXAS, CHAIRMAN, COMMITTEE ON THE JUDICIARY

    Mr. Smith of Texas. Thank you, Mr. Chairman.
    Chairman Lungren, Ranking Member Brady, other members of 
the committee, thank you for the opportunity to testify on the 
Judiciary Committee's budget for the second session of the 
112th Congress.
    In this economy, all Americans are forced to tighten their 
belts and do more with less. In recognition of that, earlier 
this year Ranking Member Conyers and I requested a budget cut 
of 5 percent below the funding for the 111th Congress. Now we 
are being asked to accept a further funding cut of 6.4 percent.
    In the 112th Congress, so far the Judiciary Committee has 
sent more bills to the House floor than any other committee. 
Among the important issues the committee continues to consider 
are ensuring that Federal law enforcement agencies have the 
necessary tools to prevent terrorist attacks, that America's 
borders are secure, that our Nation's children are safe from 
sexual predators, and that the administration of justice is 
fair and efficient within both the Justice Department and 
Federal law enforcement agencies and within our Federal 
Judiciary.
    In addition, the committee plays an important role in 
strengthening our economy and putting Americans back to work. 
We ensure robust and fair competition under the antitrust laws, 
promote America's global competitiveness through our 
intellectual property laws, improve our immigration laws to 
attract the best and brightest from around the world, and 
bolster the business climate by reining in burdensome and 
unnecessary regulation.
    During the first year of this Congress, the committee 
worked to enact an historic patent reform bill that would make 
our economy much more productive by speeding up the issuance of 
patents and improving the quality of those patents. New jobs 
should follow as a result. This bill is the first major 
revision of the patent system in 60 years and is a result of a 
project started several years ago.
    In the next 2 weeks, the House is considering three 
significant regulatory reform bills reported by the Judiciary 
Committee to update a system designed in the 1940s for an 
industrial society and make it more responsive in today's 
global information society. All of these issues are critical to 
the safety and well-being of millions of Americans. Because of 
this, it is vital that we retain a highly qualified staff as a 
cornerstone of the committee's capacity to consider complicated 
and often controversial legislation and policy issues that fall 
within its jurisdiction.
    To attract and retain quality staff, the committee must be 
able to offer compensation that is at least somewhat 
competitive with the private sector. This is particularly 
challenging when a disproportionate number of committee staff 
are attorneys with substantial public policy expertise who 
could command higher salaries from the private sector.
    Although I would rather not see the committee budget cut 
for a second year in a row, I do support our leadership and 
this committee's decision to reduce our budget by 6.4 percent 
in the coming year. I will do what is necessary to ensure that 
the Judiciary Committee is even more productive while operating 
with less.
    Mr. Chairman, you asked to explain how we coped with this 
last year and how we might cope this coming year. This last 
year we were able to achieve a 5 percent cut mainly by cutting 
back on subscriptions to periodicals and other publications. 
This next year will be a little bit tougher, but we have a 
staff vacancy occurring actually at the end of this week, in 2 
days, and by not filling that staff position and having another 
individual basically hold down two positions, we are going to 
be able to achieve, I believe, that 6.4 percent recommended cut 
in our budget.
    I will be happy to respond to questions after the ranking 
member has made his statement as well.
    [The statement of Mr. Smith of Texas follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Chairman Emeritus Conyers.

    STATEMENT OF THE HON. JOHN CONYERS, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MICHIGAN, RANKING MEMBER, COMMITTEE 
                        ON THE JUDICIARY

    Mr. Conyers. Thank you, Chairman Lungren, Ranking Member 
Bob Brady, our colleague Zoe Lofgren, and Mr. Rokita.
    First of all, I endorse and support the comments of the 
chairman of the committee, and I just want to add a few points. 
Since the 112th Congress has begun, we have had 79 subcommittee 
hearings, 8 full committee hearings. More than 640 bills have 
been referred to the committee, and 43 bills marked up, 32 
bills reported out of the committee, 20 bills passed by the 
House of Representatives, and 8 bills signed into public law, 
accounting for somewhere between 20 and 25 percent of the 
legislative total of the entire 112th Congress.
    Now, I am less enthusiastic about the continued reduction 
of congressional budgets as it applies to the Judiciary 
Committee. I understand, of course, the tremendous fiscal 
pressures that our Nation is under, but I do not believe that 
underfunding the Federal Legislature is consistent with what we 
need to do in terms of our mission, and I think that sometimes 
this is counterproductive.
    A 6.4 percent cut on top of a 5 percent cut, I think, will 
reduce our productivity and our effectiveness. But in the end, 
I think the relationship between myself and the chairman--after 
all, he was the ranking member when I was the chairman--is one 
that has helped us maintain a very good working relationship. I 
have never had a problem with respect to the budget request in 
this area in terms of controlling our nonsalary items, and I 
look forward to our continuing to work together. Two of you I 
do not need to add or embellish what goes on in the committee 
because you know that as well as I do.
    So I appreciate being here once again and plead for your 
generous tendencies to keep us together and as whole as 
possible in the circumstances that we are going under at the 
present time. And I thank you for this opportunity.
    The Chairman. Thank you very much.
    [The statement of Mr. Conyers follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. I just wonder what would happen if we told 
the judiciary--not the Judiciary Committee--they had to cut 5 
percent one year and 6.4 percent the next year. They would 
probably issue an injunction. I know the work the committee 
does. I appreciate the chairman's comments on what we do with 
respect to dealing with this expected budget cut.
    And, Mr. Conyers, I understand the position that you have, 
being in the minority with one-third as opposed to two-thirds, 
as I have certainly been there before. But I thank both of you 
for your attention to detail on this.
    Mr. Brady.
    Mr. Brady. No. Thank you.
    The Chairman. Mr. Brady is not asking a question of 
lawyers?
    Mr. Brady. I learned my lesson.
    The Chairman. Mr. Rokita.
    Mr. Rokita. No. Thank you.
    Ms. Lofgren. Thank you to both of you. It is a hardworking 
committee, and this is a lean budget.
    The Chairman. I just wanted to let you know something I 
learned a little bit earlier. Have you always heard of that 
court that they hold in Philadelphia at the football field on 
Sundays when the Eagles have a game? Guess who the judge is at 
that court. My ranking member's brother. So if you go up to a 
Philadelphia Eagles game, make sure you don't find yourself in 
front of his brother.
    Mr. Brady. Especially if you are rooting for another team.
    Mr. Conyers. Thank you very much.
    The Chairman. Thank you.
    We have the Energy and Commerce chairman and ranking member 
before us. We appreciate you coming. I observed that you were 
here when we did the previous committee. So we would ask the 
same of you; that is, if you would give us an idea of how you 
were able to handle the 5 percent cut this last year, what your 
plans are for the 6.4 percent cut that is occasioned by the 
resolution passed by the House, and efficiencies that you can 
put into place and expect to put into place this next year.

STATEMENT OF THE HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF MICHIGAN, CHAIRMAN, COMMITTEE ON ENERGY AND 
                            COMMERCE

    Mr. Upton. Well, thank you, Mr. Chairman. Both of us are 
glad to be here.
    We did demonstrate our commitment to deficit reduction by 
living with the 5 percent across-the-board cut this last year. 
We were very meticulous about our direct operating expenses. We 
deferred the hiring of some staff at the beginning of the year.
    I look to live within the spirit of the 6.4 percent cut 
coming in the second session. To manage that I don't expect to 
fill some remaining staff slots, and in some cases not replace 
departing staff. We will continue to struggle to do the 
upgrades of our committee's equipment and computers. I would 
note that this current year we have had very few field 
hearings. I would anticipate that we will do none in the next 
year. Certainly we will expect to do the traditional two-
thirds, one-third split with the majority, minority. It seems 
to work pretty well, at least from my end of things.
    There is an incurring cost of software that we have to 
continue to manage as we get thousands of pages of documents 
with a small oversight staff. And we expect that you all can 
help us with the high cost of information access and 
management, LexisNexis, et cetera. We look to meet our legal 
responsibilities to prepare and print hearing transcripts, et 
cetera. This year, we had over 100 hearings and markups. We are 
in full committee markup now, which is why I am going to 
abbreviate my testimony and yield to my friend Mr. Waxman.
    [The statement of Mr. Upton follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
  STATEMENT OF THE HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF CALIFORNIA, RANKING MEMBER, 
                COMMITTEE ON ENERGY AND COMMERCE

    Mr. Waxman. Chairman Lungren, Ranking Member Brady and 
other members of the committee, I am pleased to be here with 
Chairman Upton to talk to you about our situation, our budget 
situation.
    The first year of the 112th Congress posed substantial 
budgetary challenges for the minority of the committee. As I 
noted in my testimony last spring before you, the Committee on 
Energy and Commerce has jurisdiction over subjects with broad 
impact on public welfare, health, and the economy, including 
implementation of the comprehensive health reform law, making 
sure our food and drugs are safe, ensuring the effectiveness of 
Medicaid and much of Medicare, developing the Nation's energy 
and environmental policy, telecommunications policy, and 
consumer protection law. To meet these responsibilities, we 
need staff with expertise in a range of areas, access to key 
periodicals to keep staff current on the subject areas under 
the committee's jurisdiction, and the ability to travel to 
conduct fact-finding and field hearings.
    Unfortunately, underfunding in this Congress has posed 
obstacles to meeting these basic staffing needs. I am proud of 
the work our committee has done, but we have been unable to 
fulfill all of our slots. We have a shortage of manpower. We 
have had to carry a significant number of vacancies due to 
budgeting constraints. Further, at the same time that staff 
have been shouldering an extraordinary workload, they have seen 
their pay decrease from last year. In addition, we have had to 
forgo basic administrative resources such as a backup server 
that ensures the integrity of the committee files.
    In the coming year, the Committee on Energy and Commerce 
will continue to be at the center on policymaking on issues key 
to the health and welfare of Americans. We need to ensure 
national energy security. We have a variety of health and 
environmental challenges posed by global warming, climate 
change, and we must determine how to forge a successful 
telecommunications policy that encourages innovation and 
appropriate allocation of spectrum resources.
    We need an increase in funding for the Committee on Energy 
and Commerce for the remainder of the 112th Congress in order 
to ensure retention of expert staff and essential resources to 
support their work. A cut in funding would have deleterious 
consequences. It would mean that we could not replace departing 
staff; we could not participate in committee field hearings, 
which shouldn't be all that difficult since we are not going to 
have any next year; and we would have to eliminate paid 
subscriptions to newspapers, on-line news services, and 
databases.
    That is our story, and I would be happy to answer any 
questions.
    [The statement of Mr. Waxman follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Let me just ask this, Mr. Waxman, about what 
you said. You anticipate if we had a 6.4 percent cut that you 
would actually have layoffs on your minority personnel?
    Mr. Waxman. We probably would have to. We have already had 
four people we have had to let go because we couldn't meet the 
payroll with the cut we had last time. And I think we would 
like to not have any more than that 6.4 percent cut so we could 
have some attrition of staff and not have to lay people off.
    The Chairman. When you say you have lost four already, was 
that over and above the fact when you go from majority to 
minority obviously----
    Mr. Waxman. Yes. Aside from that.
    The Chairman. Okay. Mr. Upton, would there be any personnel 
consequences?
    Mr. Upton. We may well have some. I am very pleased with 
the staff that we have. They are tremendous. And as was said by 
other committees, I heard Lamar from the Judiciary Committee, I 
know that to have the talented staff that we have, particularly 
as we have taken them from the private sector, many of them 
have taken a reduction in pay from what they earned before. We 
are aware of some of those salary changes. And I am hoping that 
we don't lose anybody. We are trying to keep them as happy as 
we can so that they want to continue to come work. But we are 
very aware of the need for sacrifice and leading the way and we 
are doing so by----
    The Chairman. What is your total personnel now, both 
majority and minority?
    Mr. Upton. I think our side has about--some staff would be 
joint. I think the count is about 75. Again, it is two-thirds, 
one-third. Six subcommittees. And we are active every day of 
the week.
    The Chairman. All right. Thank you very much.
    Mr. Brady.
    Mr. Upton. Any parking spots to give us? Something?
    The Chairman. I will give you parking spots in return for 
jurisdiction. You would have to give something that is very 
dear to your heart.
    Mr. Upton. Ahead of us, I say nice things about the 
Judiciary Committee.
    The Chairman. No. I was thinking of Homeland Security.
    Mr. Rokita.
    Mr. Rokita. Thank you. I yield back.
    The Chairman. Thank you very, very much. I know you have to 
get back to your full committee. I appreciate it. Thank you.
    Thanks for being here early, Sam. We were running behind 
time, and now we are ahead of time. We are trying to get this 
done before the votes. So we understand your ranking member is 
on her way.
    Mr. Graves. Yes, I think she is.
    The Chairman. We want to welcome the chairman and ranking 
member of the Small Business Committee. Your written statements 
will be made a part of the record. We ask you to summarize. And 
if you could give us some guidance as to how your committee was 
able to deal with the 5 percent budget cut in the current 
fiscal year; how you would expect to deal with a 6.4 percent 
budget cut, as promised by the resolution passed by the House; 
and any efficiencies that you have been able to incorporate in 
the operations of the committee from the majority and minority 
side of things.

STATEMENT OF THE HON. SAM GRAVES, A REPRESENTATIVE IN CONGRESS 
   FROM THE STATE OF MISSOURI, CHAIRMAN, COMMITTEE ON SMALL 
                            BUSINESS

    Mr. Graves. Thank you, Chairman Lungren and Ranking Member 
Brady, for the opportunity here. I will just briefly summarize 
everything, and then I will go through real quick the budget 
plan, as you asked for.
    By the end of this year, the committee, we have held 40 
hearings in Washington and 5 field hearings. We have also held 
five markups and participated in several roundtable events in 
Members' districts. Other oversight activities conducted 
outside the hearing room have also had some pretty positive 
results, and this activity reflects the committee's very narrow 
legislative authority and broad oversight jurisdiction, as well 
as our priority to bring in the committee directly to 
constituents back home.
    We have invested in outreach through technology. We 
launched a new feature on our Web site called ``Open Mic'' 
which allows small business men and women to communicate 
directly their concerns and ideas to the committee. The 
committee's success is reflected in the awards that we have 
received both on the Web site and social media communications 
through the year. As a committee with one of the smallest 
budgets and staffs in Congress, we are very proud of those 
accomplishments.
    Now, in reviewing the committee's budget, as of October 31, 
the Small Business Committee spent 69 percent of its total 
allocation for 2011, which is very good news as it indicates 
that we have been able to live within our means and still do 
the work required of us, even with the 5 percent cut this year. 
But it is very important to note that 2011 was somewhat of an 
anomaly for the committee because of the change in the majority 
status, which required so many staff changes at the beginning 
of the year. Speaking for the majority, this meant that we had 
a gradual hiring of staff over the first few months, which 
resulted in significant personnel changes early in the year, 
because our staff was smaller earlier in the year.
    But those savings won't be realized in 2012 because we are 
staffed at least where we feel we need to be at the moment. We 
had a plan to add more staff, obviously, but that was stopped 
in mid-2011 when we learned that there might be potential cuts 
in 2012. Now, additional staff would be dedicated to oversight 
and regulatory review, which are very important priorities for 
the committee. The staff would help us further the goals of 
cutting waste out of the government; reining in regulation, 
which is a very big aspect of what we do; and provide a better 
environment for job creators. We are going to continue to 
evaluate our personnel to ensure that we are maximizing the 
resources under the budget constraints.
    While we have been forced to make adjustments to our plans 
and projections in anticipation of cuts next year, we will 
continue to prioritize effective oversight, obviously travel to 
Members' districts, and technology that provides much greater 
transparency and access for the public. We do believe in proper 
planning, and we will have the resources next year, even if 
there is a cut, to make the investments that allow us to meet 
the committee's objectives.
    So with that, I would be happy to answer any questions. And 
I will turn to Ranking Member Velazquez.
    [The statement of Mr. Graves follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF NEW YORK, RANKING MEMBER, COMMITTEE 
                       ON SMALL BUSINESS

    Ms. Velazquez. Thank you, Chairman Lungren, Ranking Member 
Brady.
    You know, given the role--and I would like to put this in 
the perspective of our economy and the important role that 
small businesses play in helping us get out of this recession. 
It is important to understand that the committee serves a vast 
array of issues impacting small businesses, that Chairman 
Graves has held different field hearings to tackle those issues 
that are important to small businesses, and given the state of 
the economy and the fact that it took this committee close to 
20 years to receive funding that was on margin with inflation.
    Initially we started off this year with a 5 percent cut in 
funding. That was already a challenge in and of itself. That 
cut represents money that could have gone towards operational 
costs. Mr. Chairman, I run a bare-bones operation. While I 
understand that the cuts are all around, I don't have to tell 
you that working with a smaller budget has its challenges. We 
have barely managed this first round of cuts and are bracing 
ourselves for the next round. An additional 6.4 percent 
reduction in funding is going to have a significant impact on 
my office.
    As you may recall, historically this committee has 
repeatedly received the smallest funding of all committees. And 
the chairman can attest to the fact that we get calls from 
Members, individual Members--not only the members who serve in 
the committee, but individual Members who are being approached 
by small businesses in their districts. So a second round of 
cuts will make it even more challenging. We will have to 
examine our operational costs to see where and if we are able 
to cut expenses, as our office already runs with the bare 
necessities. I am afraid that with these cuts we will have to 
resort to attrition, thus losing valuable staff. This also 
means foregoing field hearings, which give us the opportunity 
to hear from entrepreneurs outside the Beltway.
    Chairman Graves and I are committed to small businesses and 
our committee members. We are focused on helping small 
businesses with the support they need in order to help them 
create jobs, the jobs this country needs so desperately right 
now. And I am concerned whether this budget will allow us to 
meet all the needs of our committee and the Members throughout 
the different districts.
    Small businesses turn to this committee time and time 
again. We need the resources to serve them properly and 
efficiently. With less funding available to pay staff salaries, 
subscriptions, equipment, it will be a challenge to fulfill 
this committee's oversight responsibilities.
    And with that, I will answer any questions you may have.
    The Chairman. Thank you very much.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. If we have a 6.4 percent cut, would that 
require layoffs, either majority or minority; that is, would 
you have to cut personnel, actually cut already existing 
personnel?
    Mr. Graves. What we did, we actually stopped hiring when we 
heard on the majority side--when we heard that there were 
potential cuts coming. What that ended up happening is--I mean, 
we are obviously getting the work done, but it is taking 
longer. And the staff we would have hired would have been 
senior staff to do oversight on administrative--from the 
administration standpoint when it comes to all this new 
regulation that is coming down in the SBA regulations. So we 
are behind on that. And that is where the staff would have gone 
to. But obviously we are dealing with it, and we just froze 
hiring for the time being.
    Obviously I sympathize with the minority. Any time you have 
a change in majority/minority, you have one side that is 
staffing up, which makes it easier to slow down. You have got 
one side that has got to significantly staff down, which is 
obviously a very tough thing to do for anybody in that 
position.
    The Chairman. Madam Ranking Member, would you have to lose 
staff, do you think, if you had----
    Ms. Velazquez. I would have to look at everything, and I 
would say that layoffs, salary cuts, and furloughs are all 
possible.
    The Chairman. Okay. I understand what you are talking 
about, being a small committee; although, according to my 
records, you folks are the third smallest in terms of budget. 
Ethics and Rules actually have smaller budgets, believe it or 
not.
    Mr. Ranking Member.
    Mr. Rokita.
    Mr. Rokita. I yield back, Mr. Chairman. Thank you.
    The Chairman. Thank you very, very much for your 
presentation. We appreciate it and will take it under 
advisement.
    Mr. Nugent, you are sitting back with staff.
     It is my pleasure to welcome the chairman and ranking 
member of the Natural Resources Committee. We have your 
statements. We would ask if you might highlight how you have 
been able to operate in this last year under the 5 percent cut 
that was imposed as a result of the vote of the House; what 
your prospects are in terms of next year's budget, which is 
subject to a 6.4 percent cut as a result of a vote on the House 
resolution; and efficiencies that you have been able to achieve 
this past year, and others that you might anticipate in the 
upcoming year.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF WASHINGTON, CHAIRMAN, COMMITTEE ON 
                       NATURAL RESOURCES

    Mr. Hastings. Thank you. You have my full statement. I ask 
unanimous consent that it be made a part of the record.
    The Chairman. Without objection.
    Mr. Hastings. Thank you, Chairman Lungren, and Ranking 
Member Brady and members of the committee, for having Ranking 
Member Markey and me before you to discuss the budget of the 
Committee on Natural Resources.
    Earlier this year we testified before the committee and 
presented a budget for the 112th Congress that reflected the 5 
percent decrease from the budget of the 111th Congress. Our 
nonpartisan administrative staff review each and every budget 
category for savings. The most significant impact of the 
reduction, however, is the salary portion of our budget. 
Retaining and hiring knowledgeable staff with expertise in the 
diverse areas within the committee's jurisdiction is critical 
to the legislative and oversight duties that we have 
responsibility to carry out. On our committee salaries account 
for about 90 percent of the total committee budget. Decisions 
on hiring have to be made very carefully to ensure compliance 
with the overall salary budget.
    For 2011, we fully expect to have unspent funds at the end 
of the year, but that is attributable to the timing of the 
hiring of both the majority and the minority. For example, if a 
new staff member was added to the payroll on July 1, there is a 
budget savings of 6 months of the salary for that year, but 
they will, of course, earn the entire year's salary for the 
ensuing year. This results in a saving at the end of 2011, but 
that will not occur in 2012.
    You have also asked that we discuss the impact of the 
possible 6.4 percent reduction in the committee budget for 
2012. This obviously was not anticipated at the beginning of 
this year and would have impacts on the committee's operation. 
As I previously stated, 90 percent of the committee's budget is 
for salary, and we feel the greatest pressure of the 6.4 
percent reduction on our ability to hire and retain necessary 
staff. I have asked our committee's nonpartisan administrative 
staff to review how much savings could be found in each 
nonsalary budget category, though it would not be possible to 
implement a 6.4 percent reduction in the committee's budget 
from just the 10 percent of the budget that is nonsalary.
    Now, to be clear, if the 6.4 percent reduction were to 
occur, we would find a way to implement it in a way that best 
maintains the committee's ability to fully and effectively 
function. In these tough economic times when we need to reduce 
Federal spending, Congress must do its part. However, it is 
important to maintain the ability of Congress to effectively 
conduct oversight of the spending and activities of the various 
Federal agencies and departments.
    Not many people realize that our committee oversees the 
greatest source of revenue to the Federal Government after the 
Federal income tax, and that revenue is offshore and onshore 
energy leasing. Tens of billions of dollars every year are 
generated and collected by the agencies under our jurisdiction. 
Our committee budget and the staff is tiny compared to the 
billions of dollars spent and generated by, and the tens of 
thousands employed by, those agencies that we are charged with 
overseeing. There is a point at which budget reductions cross 
from belt-tightening to having an impact on our core oversight 
functions. While it is my hope that a possible 6.4 percent 
reduction could be absorbed without unduly impacting our core 
duties, a reduction beyond 2012 would certainly raise some 
serious concerns.
    I know that this committee is also concerned about how we 
share resources at the Natural Resources Committee. That is 
covered in detail in my full statement, but in short we operate 
on a two-thirds, one-third budget for salary and staff 
positions. The remainder of the budget is shared openly between 
the majority and the minority.
    Thank you very much for the invitation to appear before 
you, and I will be happy to answer any questions you may have.
    [The statement of Mr. Hastings follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Mr. Markey.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF MASSACHUSETTS, RANKING MEMBER, 
                 COMMITTEE ON NATURAL RESOURCES

    Mr. Markey. Thank you, Mr. Chairman, Mr. Brady, members of 
the committee.
    The Chairman. Did you notice the BC game this year? Oh, I 
am sorry.
    Mr. Markey. Notre Dame's superiority is a lifelong 
condition I have had to live with.
    As Chairman Hastings has noted in his testimony, when we 
appeared in March, we presented a budget for the committee's 
operations that represented a 5 percent decrease in the budget 
for the committee. We have held that we would be able to carry 
out the committee's work at this funding level by making cuts 
in our budget for field hearings and related travel.
    The 6.4 percent reduction poses a real challenge to us. 
While we do expect to have some unspent funds at the end of 
this year, as Chairman Hastings has pointed out in his 
testimony, this is largely due to the fact that both of us had 
to hire significant numbers of new staff. When Nick Rahall left 
for the Transportation Committee, he took a huge percentage of 
the staff with him, and many others retired, so I have had to 
spend the year rebuilding that staff. In Chairman Hastings' 
case, that was due to the transition from minority to majority, 
and the same thing is true for me, taking over for Nick.
    I am nearing the completion of that hiring process; so is 
Chairman Hastings. And we expect our staff budget for next year 
to be much higher than this year's budget within the context of 
the spending constraints that this committee has imposed upon 
us.
    Further cuts in the committee's budget could, as Chairman 
Hastings has noted, seriously impair our ability to hire and 
retain the skilled professional staff we need to support our 
legislative and oversight activities. It would certainly make 
it difficult, if not impossible, for the committee to conduct 
field hearings in the many areas of the country that are 
directly affected by the laws and regulations within our 
jurisdiction.
    Such cuts also could adversely affect our ability to 
efficiently process legislation referred to the committee, much 
of which is not controversial, in response to real local needs 
and concerns, such as the settlement of Native American land or 
water claims; adjustment to borders of public lands; or the 
protection of the historical, cultural, and natural resources 
of the Nation.
    Demand among our colleagues for approval of legislation 
within the jurisdiction of the Natural Resources Committee 
remains exceedingly high, and the committee has a proven track 
record of efficient bipartisan consideration of these measures.
    To date, the committee currently has reported or ordered 76 
bills, 16 of which have already passed the House. This 
represents the most reported bills of any committee other than 
the Committee on Rules. About half of these measures have 
bipartisan support, and each and every one of them has been 
subject to a committee hearing, to the credit of the chairman. 
In fact, our committee has already held more than 100 
legislative or oversight hearings this year, in the first year; 
100 hearings so far this year. And I would suggest that to the 
extent to which committee activities should meet the needs of 
Members and demonstrates that bipartisan cooperation, this 
record shows the Natural Resources Committee has an excellent 
record and really is a peer for any committee in Congress.
    We have significant differences, obviously, on many issues; 
but at the same time we work together cooperatively on the 
oversight and legislative activity.
    And with respect to the allocation of funds within the 
committee, Chairman Hastings has, consistent with prior 
practice of the committee, allocated one-third of the personnel 
and salary budget to the minority. We have continued that 
longstanding practice of the committee to employ nonpartisan 
shared staff responsible for many of the financial management, 
administrative, and support functions out of the two-thirds 
share for the majority. Thus far we think this arrangement has 
been very fair to both the majority and the minority.
    Again, I thank the committee for all of your work, and we 
appreciate the attention you are giving to our request.
    The Chairman. Thank you very much for your testimony.
    [The statement of Mr. Markey follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. I just have a general question. What would be 
the impact of a 6.4 percent cut on your ability to do 
oversight? And how broad a range of oversight do you have 
jurisdiction over, which entity?
    Mr. Hastings. Well, just to give you an example, I 
mentioned that the second largest source of revenue to the 
Federal Government comes from those areas over which we have 
jurisdiction. We have 69 staff, and we have an oversight 
responsibility for tens of thousands, within the Federal 
Government, with a budget of well over $20 billion. So 
oversight is important.
    And I might add that--and I think I might have said this 
when I was here the first time--that we need more oversight. I 
am not saying that just because, I am a Republican and the 
administration is Democrat. I think that we have been negligent 
for some time, quite frankly, in the time that I have been in 
Congress, for proper oversight. And clearly we set the agenda 
for oversight, but that always illuminates something. I think 
both sides win, but, more importantly, the American people win.
    We think that we can do that with the constraints of the 
6.4 percent decrease. We are planning to do that. But clearly 
in the long run, if we are going to be more aggressive in 
oversight, because, as you know, when you have oversight, you 
turn up something, and you want to follow it down a line, you 
simply have to have the resources to do so. But we can live 
within those constraints, but I think in the long term it 
raises serious concerns.
    The Chairman. Let me ask you this: The second largest 
committee by staff is the, quote/unquote, oversight government 
ops committee. It does a lot of oversight. How would you answer 
a constituent who said to you, why do you folks have to do 
oversight? You have got an oversight committee that has got 
more staff than anybody else. Can't they fill in the blanks 
where you folks miss it?
    Mr. Hastings. Well, we set policy, too. The Oversight 
Committee does the oversight, and they may find something that 
needs to be corrected, but it is up to the authorizing 
committee to do that. But I think on a regular basis--and I 
would expect that Oversight Committee to probably look at 
something that may be more egregious. I mean, they look at 
things. As I mentioned, the revenue coming into our committee. 
Are we getting all of that revenue? Is there waste someplace 
involved? That is the sort of stuff that we need to look at. I 
fully recognize we set the policy, and the executive branch 
carries it out, but I fully recognize that we have to make sure 
that they do that in a proper way.
    I think it is just a division of power. If there is 
something that has to be done legislatively, whether that 
committee finds it or our committee finds it, it still comes 
through the authorizing committee, and it is our 
responsibility.
    Mr. Markey. I would just give one example. We had the worst 
oil spill in world history last year, and it was on public 
lands in the jurisdiction of our committee in the Gulf of 
Mexico. As a result, the entire agency has been reorganized. 
But there are still oversight questions in terms of how much of 
the pollution has been cleaned up, how it affects the 
fishermen, how it affects the workers on all of the land-based 
industries down there. And while there is an oversight 
committee, there is no way they can do the work this committee 
does on an ongoing basis.
    That is just one issue on the 20 percent of the land and 
the oceans of the United States that we have jurisdiction over, 
but that alone is a huge responsibility that the Oversight 
Committee just could not discharge with the level of expertise 
and accountability that this committee can extract from the 
Department of Interior and all other entities affected by that 
catastrophe.
    The Chairman. Thank you very much.
    Mr. Ranking Member.
    Mr. Brady. Yes, Mr. Chairman, thank you.
    I know you talked about hiring somebody 6 months into the 
year. Fast forward up to the second session. Would we have to 
lay anybody off with the 6.4 percent budget cut?
    Mr. Hastings. We don't anticipate that, no.
    Mr. Brady. Does the minority anticipate that?
    Mr. Markey. No. I agree with the chairman.
    Mr. Brady. Thank you. That is all I have.
    The Chairman. Mr. Harper.
    Mr. Harper. No questions, Mr. Chairman.
    The Chairman. Mr. Gingrey.
    Mr. Gingrey. I have no questions, Mr. Chairman.
    The Chairman. I now recognize Mr. Nugent in the far right 
corner.
    Mr. Nugent. No questions.
    The Chairman. You did such a fantastic job, or maybe it is 
just because you are the last of all the committees, and we are 
tired.
    Mr. Hastings. I will think it is the latter rather than the 
former.
    The Chairman. We appreciate your testimony and appreciate 
your work. Thank you very much.
    Mr. Markey. We appreciate your work. Thank you, Mr. 
Chairman.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 4:28 p.m., the committee was adjourned.]

</pre></body></html>
